APPENDIX A
In the Supreme Court of the State of Alaska
Alaina Adkins and Maxim Healthcare
Services, Inc.,
Appellants,
v.
Jesse Michael Collens,
Appellee.
Trial Court Case No. 3AN-14-05961CI
Supreme Court No. S-16930
Order
Stay of Execution of Judgment
Date of Order: September 12, 2019
Maxim Healthcare Services, Inc. has filed a
motion for a stay of execution of the superior court's
judgment pending its petition for a writ of certiorari to
the United States Supreme Court. Maxim argues that
we should consider three factors to determine whether
to grant a stay:
1.
The plaintiff
irreparable harm.
1a

must

be

faced with

2.
The opposing party must be adequately
protected.
3.
The plaintiff must raise "serious" and
''substantial" questions going to the merits of
the case; that is, the issues raised cannot be
"frivolous or obviously without merit."1
Maxim argues that it will suffer serious
financial harm if Jesse Collens executes on the
judgment and that Collens will be unable to repay the
judgment if it is reversed. Maxim has established a
likelihood that it may be faced with irreparable harm.
In response, Collens attests that without the
funds from the judgment he suffers ongoing threats to
his health. These ongoing health challenges cannot be
adequately protected by a bond to secure a future
payment.
On the third factor, Maxim makes a convincing
argument that it has serious and substantial questions
to raise concerning whether the treble damages
awarded under the Alaska Unfair Trade Practices Act
(and potentially the punitive damage awards) violate
the Due Process Clause of the Fourteenth Amendment.
But Maxim does not make any substantial arguments
about any other portions of the judgment.
IT IS THEREFORE ORDERED that the
1

Keystone Services, Inc. v. Alaska Transp. Commission,
568 P.2d 952, 954 (Alaska 1977).

2a

motion for a stay pending Maxim's petition for a writ
of certiorari is GRANTED on the following conditions:
1.
The stay is not effective until Maxim pays
Collens (1) the award of compensatory damages
for breach of contract (approx. $4.3 million), (2)
the award of damages for intentional infliction
of emotional distress ($400,000), (3) the costs
awarded to Collens as the prevailing party, and
(4) the interest that has accrued on these parts
of the judgment. Collens shall file a notice of
satisfaction once this payment has been made.
2.
The current appeal bond shall remain
effective to secure payment of the balance of
judgment.
The motion for leave to file a reply is also
GRANTED.
Entered by direction of an individual justice.
Clerk of the Appellate Courts
/s/
Ryan Montgomery-Sythe, Chief Deputy Clerk
cc: Judge Morse
Trial Court Appeals Clerk
Distribution:
Fisher, Gregory
3a

Leonard, Kristal
Bajwa, Nicholas
Feldman, Jeffrey
Orlansky, Susan
Stehle, Michael
Holmes, Roger
Tiemessen, John

4a

APPENDIX B
Notice: This opinion is subject to correction before
publication in the PACIFIC REPORTER. Readers are
requested to bring errors to the attention of the Cleric of
the Appellate Courts, 303 K Street, Anchorage, Alaska
99501, phone (907) 264-0608, fax (907) 264-0878, email
corrections@akcourts.us.
THE SUPREME COURT
OF THE STATE OF ALASKA
ALAINA ADKINS and MAXIM
HEALTHCARE SERVICES, INC.,
Appellants,
v.
JESSE MICHAEL COLLENS,
Appellee.
Supreme Court No. S-16930
Superior Court No. 3AN-14-05961 CI
OPINION
No. 7386 – July 12, 2019
Appeal from the Superior Court of the State of Alaska,
Third Judicial District, Anchorage, Frank A. Pfiffner,
Judge.
5a

Appearances: Gregory S. Fisher, Nicholas I. Bajwa,
and Kristal L. Leonard, Davis Wright Tremaine LLP,
Anchorage, for Appellants. Susan Orlansky, Reeves
Amodio LLC; Jeffrey M. Feldman, Summit Law Group;
and Michael T. Stehle, Law Office of Michael Stehle,
PC, Anchorage, for Appellee. Roger F. Holmes, Biss &
Holmes, Anchorage, for Amicus Curiae Alaska State
Medical Association. John J. Tiemessen, Clapp,
Peterson, Tiemessen, Thorsness & Johnson,
Fairbanks, for Amicus Curiae Alaska Dental Society.
Before: Bolger, Chief Justice, Winfree, Stowers,
Maassen, and Carney, Justices.
BOLGER, Chief Justice.
I.

INTRODUCTION

Maxim Healthcare Services and its Alaska office
manager, Alaina Adkins, made misrepresentations
while discharging Jesse Collens from Maxim's care, in
violation of the company's own policies and procedures.
Collens sued them for breach of contract, fraudulent
misrepresentation, unfair and deceptive acts and
practices under Alaska's Unfair Trade Practices and
Consumer Protection Act (UTPA),1 and intentional
infliction of emotional distress (IIED). The superior
court ruled for Collens on all his claims and entered a
$20,379,727.96 judgment against Adkins and Maxim,
which included attorney's fees. Maxim and Adkins now
appeal, arguing that (1) they were not liable under the
1

The UTPA is codified at AS 45.50.471-.561.

6a

UTP A; (2) the superior court erred in precluding their
expert witnesses from testifying at trial; (3) the court's
damages award was excessive; and (4) the court's
attorney's fee award was unreasonable. We agree that
the superior court's attorney's fee award was
unreasonable, but on all other issues we affirm the
superior court's decision.
II.

FACTS AND PROCEEDINGS

In May 2009 Jesse Collens, then 21 years old,
was permanently injured in a bicycle accident that left
him a C-1 quadriplegic, paralyzed from the neck down,
and dependent on a ventilator to breathe. Co1lens was
living in Anchorage when the accident occurred, and
he chose to remain there after recuperating to be near
friends and family.
Because long-term care facilities in Anchorage
are not prepared to serve a ventilator-dependent
individual such as Collens, he sought in-home care. In
December 2009 he contracted with Maxim, a national
healthcare corporation with a home healthcare
division, to provide his nursing care. At the time
Collens had a prescription for in-home nursing care
that was refillable for life. Maxim was licensed as a
home health agency in Alaska at all relevant times.
In late 2011 issues arose between Collens and
Maxim over the company's management of his care.
These issues escalated and in early March 2012,
Alaina Adkins, Maxim's Alaska office manager, met
with Collens to discuss his main concerns with
7a

Maxim's services.
The following business day, Adkins emailed
various members of Maxim's legal and administrative
staff about one of the issues Collens had raised.
Internal concerns surfaced about the legal compliance
of the staff working with Collens. Maxim's Compliance
Department produced a report on March 21 that
suggested some issues with how Collens' s nurses were
supplying him insulin as well as other scheduling and
dosage discrepancies. In an email responding to the
report, Maxim's area vice president wrote "We are in
dangerous territory right now with the liability of this
case and we are going to have to seriously consider
discharge."
Collens's contract with Maxim included a form
that told him of his rights as a patient. In this
document Maxim affirmed that Collens had the right
to:
Know that the home health plan of
care/treatment will be developed by the
physician, in cooperation with the
appropriate Maxim professional staff
member, and with the patient and family
to the extent possible.
The document also affirmed that Collens had the right:
Not to be transferred or discharged unless:
a. The individual's medical needs require
8a

transfer;
b. The individual's health and safety or
that of another person requires transfer
or discharge; or
c. The individual fails to pay for services,
except as such transfer or discharge is
prohibited by law.
d. The individual does not meet any
criteria for continued service set forth by
Maxim, federal, state, or local statute or
regulation.
In accordance with state regulations, Maxim
had adopted policies and procedures to govern its
provision of home healthcare services.2 Those policies
and procedures stated that a patient could not be
discharged from Maxim's home healthcare program
without a physician's order.
Collens's care plan was subject to routine
recertification every 60 days. Maxim's Alaska Director
of Clinical Services visited Collens's house to complete
the review necessary for this recertification on March
23. Three days later she submitted the recertification
paperwork, noting that "discharge is not warranted."

2

See 7 Alaska Administrative Code (AAC) 12.507(b)(3)
(2015) (requiring home health agencies to adopt written policies
and procedures).

9a

That same day Adkins requested that Maxim's
legal department provide her a draft discharge letter
for Collens. This draft letter stated that the discharge
had been discussed with Collens's physician and care
coordinator and that they agreed with the discharge
decision. But in fact neither approved the discharge.3
The draft discharge letter also included a space for
names of other entities that could provide the care
needed by the patient. Although Adkins emailed the
legal department saying, "We already know that there
are no providers in our area that provide this type of
service," the discharge letter she eventually delivered
to Collens filled in the blank with four agency names.
Adkins delivered and read aloud the discharge letter
at Collens's home on March 30.
Collens filed suit against Maxim in early 2014,
alleging breach of contract and fraudulent
misrepresentation.4 Maxim moved for summary
judgment on these claims. Collens opposed and
cross-moved for partial summary judgment on the
contract claim. In the memorandum supporting that
motion, Collens asserted claims under the UTPA for
the first time. The superior court denied all motions,
finding the existence of disputed facts relevant to the
fraud and contract claims. Its order did not address
3

Maxim spoke with Collens's care coordinator prior to
delivering the discharge letter but did not speak to his physician.
Both sent letters to Maxim several days after Collens's discharge
disagreeing with the decision.
4

Maxim also sued Adkins individually. For convenience,
we refer to the two defendants collectively as "Maxim."

10a

the UTP A claims.
During a protracted pretrial period, multiple
discovery disputes arose. Among other things, Collens
moved to strike Maxim's expert witnesses, arguing
that it had not submitted their reports before the
relevant deadline. In April 2017 the superior court
granted this motion and precluded Maxim's experts
from testifying at trial.
After a six-day bench trial in June 2017, the
superior court ruled for Collens on all counts. The
court awarded him $4,315,007 in damages for his
breach of contract claim. This was trebled under the
UTPA's damages provision to total $12,945,021. The
court also awarded Collens $400,000 in damages for
IIED and $500,000 in punitive damages; The court
later awarded Collens $5,616,668.17 in attorney's fees.
Maxim appeals.
III.

DISCUSSION

Maxim asks us to vacate the superior court's
judgment and remand for a new trial on contract and
tort damages, with instructions that Maxim was not
liable under the UTPA. It also asks us to vacate the fee
award as unreasonable. We agree that the superior
court's attorney's fee award was unreasonable, but in
all other respects we affirm the superior court's
judgment. Maxim is liable under the UTPA; its
conduct is clearly subject to sanctions under the Act.
The superior court's decision to preclude Maxim from
presenting expert testimony on damages was not an
11a

abuse of discretion. And the court's damages
assessment was not excessive.
A. Maxim Is Liable Under The UTPA.
On appeal Maxim makes two main arguments
for why the UTPA does not apply to its conduct.5 First
Maxim argues that Collens's UTPA claim was exempt
from the Act's coverage because it involved conduct
already prohibited by statute or regulation.6 We refer
to this argument as Maxim's "statutory exemption
defense." Second Maxim argues that the conduct at
issue was a healthcare, not business, decision that
should be exempt from UTPA liability.7 We refer to
this as Maxim's "healthcare exemption defense." In
response Collens argues that these defenses have been
waived as issues for appeal because Maxim failed to
develop them sufficiently before the superior court. If
they are preserved, he contends that neither exempts
Maxim from UTPA liability.
5

Maxim also briefly argues that Collens failed to prove his
claim under AS 45.50.471(b)(12), the particular subsection of the
UTPA cited in his trial brief. But the superior court concluded
that Maxim was liable under different provisions of the Act – AS
45.50.471(a) and AS 45.50.471(b)(14) – and Maxim does not
challenge that conclusion. Thus we do not address Maxim's
liability under AS 45.50.471(b)(12).
6

AS 45.50.481(a)(1) provides that the UTPA does not
apply to "an act or transaction regulated by a statute or regulation
administered by the state."
7

The Alaska State Medical Association joined in this
argument as amicus curiae.

12a

1. Maxim preserved both UTPA
defenses.
Whether a particular claim has been waived is
a question of law reviewed de novo.8 Arguments raised
for the first time on appeal are generally waived,9 but
those explicitly raised in the trial court may be
expanded or refined in appellate argument.10 Collens
contends that Maxim waived the statutory exemption
defense by failing to develop it at trial after
mentioning it in summary judgment briefing. But
Collens's complaint did not include an express claim
based on the UTPA. And Maxim later raised the
defense in objections to Collens' s proposed findings of
fact and conclusions of law on this claim. In those
objections Maxim cited the statutory exemption and
argued that certain statutes and regulations of the
nurse licensing board prohibited its disputed conduct.
This was adequate to preserve the defense.
Although it is a closer question. Maxim also
preserved the healthcare exemption defense. Maxim
repeatedly argued that its decision to discharge
Collens had nothing to do with the sale or
advertisement of goods and services and thus was not
covered by the UTPA. The basic premise behind the
8

Mitchell v. Mitchell, 370 P.3d 1070, 1076 (Alaska 2016).

9

See Wells v. Barile, 358 P.3d 583, S89 n.17 (Alaska 2015).

10

See Zeman v. Lufthansa German Airlines, 699 P.2d
1274, 1280 (Alaska 1985) (stating that appellants "can expand or
refine details of an argument otherwise preserved on appeal").

13a

healthcare exemption defense Maxim asserts on
appeal is that the UTPA is intended to apply to a
circumscribed set of commercial transactions, not
disputes involving the provision of healthcare. Since
this defense is fairly characterized as an "expansion or
refinement" of arguments Maxim made before the
superior court; we also consider it preserved for our
review.
2. Collens's UTPA claim was not
exempt under AS 45.50.481(a)(t).
Both of Maxim's exemption defenses involve
arguments about how to interpret the UTPA.
Reviewing these legal questions de novo,11 we find
neither argument persuasive.
Maxim's statutory exemption defense relies on
AS 45.50.481(a)(1). This subsection provides that the
UTPA does not apply to:
an act or transaction regulated by a statute or
regulation administered by the state, including a state
regulatory board or commission, unless the statute or
regulation does not prohibit the practices declared
unlawful in AS 45.50.471.
11

See Kenai Chrysler Ctr., Inc. v. Denison, 167 P.3d 1240,
1255 n.37 (Alaska 2007) ("Interpretation of the UTPA presents a
question of law that we review independently."). Under this
standard of review, we "adopt the rule of law that is most
persuasive in light of precedent, reason, and policy." City of
Fairbanks v. Amoco Chem. Co., 952 P.2d 1173, 1176 (Alaska
1998).

14a

Put another way, if acts declared unlawful under the
UTPA are prohibited by some other state law or
regulation, then they are exempt from the UTPA.
We have previously noted that AS 45.50.481
(a)(1) "exempts only those acts or transactions which
are the subject of 'ongoing, careful regulation.'"12 And
we have emphasized that such regulation must
prohibit the specific act in question: "Mere regulation
under a separate and distinct statutory scheme,
however, satisfies only one prong of [the UTPA's
exemption provision]; unfair acts and practices are
exempt from the purview of the Act only where the
business is both regulated elsewhere and the unfair
acts and practices are therein prohibited."13 To qualify
for the statutory exemption, Maxim must show both
that its conduct is subject to ongoing, careful
regulation and that such regulation prohibits the
conduct the superior court identified as violating the
UTPA Maxim's failure to follow its own policies and
procedures and its misrepresentations to Collens about
his discharge.14
12

Matanuska Maid, Inc. v. State, 620 P.2d 182, 186
(Alaska 1980).
13

State v. O'Neill Investigations, Inc., 609 P.2d 520,528
(Alaska 1980).
14

See Alaska Interstate Constr., LLC v. Pac. Diversified
Invs., Inc., 279 P.3d 1156, 1167 (Alaska 2012) ("PDI did not meet
its burden of showing the UTPA exemption was applicable to
AIC's claims because it did not establish that the Federal Aviation
Administration (FAA) specifically regulates the fraudulent
conduct AIC alleged in connection with its aircraft leases.").

15a

Maxim has not met this burden. Alaska Statute
47.32.010-.900, the chapter governing "Centralized
Licensing and Related Administrative Procedures" for
a range of social service providers, establishes a
regulatory scheme that governs Maxim's conduct as a
home health agency.15 But Maxim has not established
the exemption provision's second prong, that the
regulations governing home health agencies prohibit
the specific conduct at issue. Although the regulations
require home health agencies to adopt a set of policies
and procedures, they do not explicitly require home
health agencies to comply with these policies and
procedures.16 And Maxim provided no evidence at trial

15

See also 7 AAC 12.500-.590 (regulations governing home
health agencies). Amicus curiae Alaska State Medical Association
argues that Maxim's conduct is regulated by AS 09.55.530-.560,
the Article governing medical malpractice actions. But these
statutory provisions do not provide for the sort of ongoing, careful
regulation this court has held is necessary to satisfy prong one of
the statutory exemption. See Matanuska Maid, 620 P.2d at 186
(holding existence of statute simply prohibiting conduct not
enough to consider conduct "regulated'' by statutory scheme).
Moreover, while these statutes govern how medical malpractice
claims may be brought, they do not themselves prohibit or
regulate the specific conduct at issue.
16

See 7 AAC 12.507(b)(3) (requiring home health agencies
to "adopt written by-laws, policies, and procedures''); 7 AAC
12.531(a) ("A home health agency shall establish, implement, and
make available to all personnel, written policies and procedures
appropriate to the services offered by the agency. These policies
and procedures must be reviewed at least annually and revised as
necessary."); 7 AAC 12.531(b)(2) ("A home health agency shall
establish policies and procedures covering . . . conditions for
acceptance, transfer, discharge, and continuing care of patients.");

16a

or in briefing to show that the Department of Health
and Social Services interprets or enforces the
regulations as if they impose such an obligation. As a
result Maxim has not established that the regulations
governing home health agencies prohibit
noncompliance with a home health agency's own
procedures.17
It is also ambiguous whether the regulations
promulgated under AS 47.32.010-.900 prohibit
Maxim's misrepresentation to Collens about the reason
for his discharge. The regulations state that''[a]
patient receiving home health services has the right to
... be informed of the reason for impending
discharge."18 Admittedly a right to information is not
worth much if the information is not accurate. But it
is not clear that the regulations' statement of this right
translates, in practice, to a prohibition on
misrepresentations such as Maxim's. The regulations'
emphasis on the existence of policies and procedures,
rather than compliance with them, suggests that the
Department focuses enforcement on home health
agencies' adoption of procedures and policies that are

7 AAC 12.600(f) ("A home health agency must comply with 7 AAC
12.500-7 AAC 12.590.").
17

See Alaska Interstate, 279 P.3d at 1167-68 (holding
defendant did not prove the UTPA exemption's second prong
because defendant's specific conduct was not regulated by
regulations' terms and expert trial testimony had not established
FAA regulated it in practice).
18

7 AAC 12.534(b)(10).

17a

generally protective of patients' rights. Whether the
Department devotes enforcement resources to policing
individual acts of misrepresentation is uncertain.
Absent evidence that the Department does so, Maxim
has not met its burden of proving the statutory
exemption provision's second prong. Maxim's conduct
is not exempt from UTPA liability under AS
45.50.481(a)(1).
3. We decline to adopt the
"entrepreneurial aspect" rule on the
facts of this case; regardless, it
would not exempt Maxim's conduct.
Maxim also argues that there is a general
healthcare exemption from the UTPA. It contends that
health professionals should be subject to the UTPA
only for conduct related to the business or
"entrepreneurial" aspects of the health profession – not
conduct involving the provision of medical care. But we
are not convinced that we should adopt this proposed
common law exclusion on the facts of this case.
Other jurisdictions have limited the scope of
consumer protection laws as applied to the so-called
"learned professions," such as law and medicine.19
19

See, e.g., Haynes v. Yale-New Haven Hosp., 699 A.2d
964, 972-74 (Conn. 1997); Short v. Demopolis, 691 P.2d 163, 168
(Wash. 1984). See generally Brookins v. Mote, 292 P.3d 347, 358-60
(Mont. 2012) (cataloging approach of other states before holding
Montana's consumer protection law applied only to the
"entrepreneurial, commercial, or business aspects of running a
hospital").

18a

Such jurisdictions generally conclude that state
consumer protection laws may apply to medical and
legal professionals when the "entrepreneurial" or
"business" aspects of these professionals' services are
implicated.20 But if a claim raises questions about a
professional's competence, the professional is exempt
from liability under the state consumer protection
law.21 Courts that adopt such an "entrepreneurial
aspect" rule reason that "[t]o hold otherwise would
transform every claim for ... malpractice into a
[consumer protection act] claim."22
We have previously applied the UTPA to
professional misconduct in the legal profession and to
claims involving the medical industry.23 In those cases
20

See, e.g., Haynes, 699 A.2d at 974.

21

See, e.g., id.

22

See id.; see also Brookins, 292 P.3d at 359 ("[F]ailing to
exempt professional negligence in the course of the 'actual
practice' of medicine could render medical malpractice law
'obsolete.' " (quoting Nelson v. Ho, 564 N.W.2d 482, 486 (Mich.
App. 1997))).
23

See Jones v. Westbrook, 379 P.3d 963, 969-71 (Alaska
2016) (resolving statute of limitations dispute for UTPA claims
against attorney); Pepper v. Routh Crabtree, APC, 219 P.3d 1017,
1025 (Alaska 2009) (holding lawyers liable under the UTPA for
debt collection misconduct); Smallwood v. Cent. Peninsula Gen.
Hosp., 151 P.3d 319, 329 (Alaska 2006) (holding claim regarding
hospital's billing practices covered by the UTPA); Odom v.
Fairbanks Mem'l Hosp., 999 P.2d 123, 131-32 (Alaska 2000)
(allowing UTPA claims related to alleged coercive trade practices
by hospital to go forward).

19a

we saw no need to apply or delineate the scope of a
professional services exemption to the UTPA. Under
the right circumstances, it may be appropriate to
exempt some conduct of the learned professions from
UTPA liability. But those circumstances are not
present here. The only medical professional involved in
the decision to discharge Collens advised Maxim that
the discharge was not warranted for medical reasons
– Collens's discharge was unquestionably a business
decision. Thus even if we were to adopt an
"entrepreneurial aspect" exception for the UTPA's
application to certain professional services, Maxim
would still be liable under the Act. The superior court
did not err by concluding that Maxim could be liable
under the facts of this case.
B. The Superior Court's Attorney's Fee
Award Was Unreasonable.
The superior court awarded Collens attorney's
fees in accordance with Alaska Civil Rule 82(b)(1) for
his successful IIED and punitive damage claims. It
then determined attorney's fees for Collens's UTPA
claim per AS 45.50.537(a), which states that a
prevailing private plaintiff in an UTPA action "shall be
awarded costs as provided by court rule and full
reasonable attorney fees at the prevailing reasonable
rate." The superior court noted that we have not yet
decided whether '"full reasonable attorney fees" under
this provision can mean attorney's fees as defined by
the prevailing party's contingency fee agreement. The
court concluded that defining attorney's fees in this
way was consistent with the statute, so long as the
20a

contingency fee agreement in question was reasonable.
The superior court found that the 45%
contingency fee in the agreement between Collens and
his counsel was not a prevailing reasonable rate. The
court adjusted this down to a 40% contingency rate
and used that to calculate the attorney's fees for
Collens's UTPA damages award. The court
acknowledged that the resulting award was nearly
four times the award under Rule 82 proposed by
Maxim,24 but concluded that the award was reasonable
given the case's complexity and the effort and quality
of Collens's counsel's work.
Maxim challenges the superior court's
construction of AS 45.50.537(a), namely its conclusion
that ''full reasonable attorney fees" can be based on a
contingency fee agreement, rather than a calculation
of the reasonable hours worked multiplied by a
reasonable hourly rate. We review the superior court's
statutory construction de novo,25 considering the
statute's language, legislative history, and legislative
purpose.26 Ultimately we reject its interpretation of the
statute.
The UTPA's current attorney's fee language was

24

$5,676,668.17 compared to $1,492,950.40.

25

Michael W. v. Brown, 433 P.3d 1105, 1109 (Alaska

26

City of Valdez v. State, 372 P.3d 240, 248 (Alaska 2016).

2018).

21a

adopted through a 1998 amendment.27 The committee
minutes related to the amendment indicate that its
drafters hoped to enhance UTPA enforcement by
encouraging private litigation under the Act.28 The
phrase "full reasonable attorney fees at the prevailing
reasonable rate" was specifically intended to ensure
that attorney's fees for prevailing plaintiffs would not
be capped by Rule 82.29 Some legislators also suggested
27

Ch. 96, § 5, SLA 1998.

28

See Minutes, H. Labor & Commerce Standing Comm.
Hearing on H.B. 203, 20th Leg., 1st Sess. No. 1513 (Apr. 23, 1997)
(comments of Rep. Dyson); id. at No. 1889 (testimony of Daveed
Schwartz, Assistant Att'y Gen.); Minutes, H. Judiciary Standing
Comm. Hearing on H.B. 203, 20th Leg., 2d Sess. No. 0763 (Feb. 9,
1998) (comments of Rep. Dyson that ''the problem has been with
'the small guy going after Goliath' "); id. at No. 0847 (comments of
Chairman Green ''that a transaction for a $2,000 car ... could
quickly go beyond $5,000 just in time, motions, and that sort of
thing").
29

For committee testimony comparing Rule 82 awards to
the more generous award expected under the amended attorney's
fee provision's new language, see Minutes, H. Labor & Commerce
Standing Comm. Hearing on H.B. 203, 20th Leg., 1st Sess. No.
2146 (Apr. 23, 1997) (testimony of Daveed Schwartz, Assistant
Att'y Gen.) and Minutes, H. Judiciary Standing Comm. Hearing
on H.B. 203, 20th Leg., 2d Sess., No. 0006 (Feb. 9, 1998)
(comments of Rep. Croft).
Rule 82 establishes several context-dependent schedules
for attorney's fees. In cases where the prevailing party recovers no
money judgment, the Rule requires the court to award a certain
percentage of the prevailing party's "reasonable actual attorney's
fees" depending on whether the case went to trial. Alaska R. Civ.
P. 82(b)(2). We have held that since "[t]he purpose of Civil Rule 82
is to compensate partially a prevailing party[,] ... full attorney's

22a

that the provision was inspired by similar fee-shifting
provisions in civil rights statutes.30
The fee-shifting provision's legislative history
indicates the intent to encourage private lawsuits by
providing more generous attorney's fee awards than
those available under Rule 82. But the legislative
history does not indicate how legislators intended
courts to calculate "full reasonable attorney fees"
under the statute. For guidance we look to federal
interpretation of the fee-shifting provisions in the
Clayton Act and civil rights statutes. The Clayton Act,
like the UTPA, is a consumer protection act providing
a private right of action, and its fee-shifting provision's
language is similar to the UTPA's.31 Federal courts
fees are never awarded absent 'justification' and consideration of
the 'good faith' nature of the unsuccessful party's claim or
defense." Heritage v. Pioneer Brokerage & Sales, Inc., 604 P.2d
1059, 1065-66 (Alaska 1979) (quoting Malvo v. J.C. Penney Co.,
512 P.2d 575, 587 (Alaska 1973)).
30

Representative Dyson, for example, noted that the
proposed legislation "follows a practice learned. during the civil
rights era, when most people realized that state attorney general's
offices didn't have the resources, or perhaps the inclination, to file
... civil rights actions .... So, they allowed for, if you were
successful in an action, that you could recover your attorney[']s
fees and, therefore, the cost of bringing the action." Minutes, H.
Judiciary Standing Comm. Hearing on H.B. 203, 20th Leg., 2d
Sess. No. 0577 (Feb. 9, 1998).
31

See 15 U.S.C. § 15(a) (2012) ("[A]ny person ... injured ...
by reason of anything forbidden in the antitrust laws may sue
therefor ... and shall recover threefold the damages by him
sustained, and the cost of suit, including a reasonable attorney's

23a

acknowledge that rules guiding interpretation of
attorney's fee provisions in civil rights statutes apply
to their interpretation of "reasonable attorney's fee"
under the Clayton Act.32 Moreover the legislative
history of the UTPA's fee-shifting provision indicates
it was at least partly inspired by those of civil rights
statutes. We also look to how courts in other
jurisdictions have interpreted fee-shifting provisions in
similar consumer protection acts. After reviewing
these persuasive authorities, we conclude that the
superior court's calculation of Collens's attorney's fee
award deviates from the norm likely intended by the
statute.
Courts calculating reasonable attorney's fees
under similar fee-shifting provisions generally employ
what we have called the "modified lodestar" method.33
fee.").
32

See, e.g., Copper Liquor, Inc. v. Adolph Coors Co., 624
F.2d 575,581 (5th Cir. 1980) (citing Johnson v. Ga. Highway
Express, Inc., 488 F.2d 714 (5th Cir. 1974) (adopting 12 factors
used to determine reasonable attorney's fees in employment
discrimination law for attorney's fees disputes under Clayton Act),
abrogated on other grounds by City of Burlington v. Dague, 505
U.S. 557 (1992).
33

See State, Dep't of Health & Soc. Servs. v. Okuley, 214
P.3d 247, 253 (Alaska 2009) (describing modified lodestar
method); see also Hensley v. Eckerhart, 461 U.S. 424, 433-34
(1983) (applying modified lodestar method to fee shifting under
Civil Rights Attorney's Fee Awards Act of 1976); Advanced Constr.
Corp. v. Pilecki, 901 A.2d 189, 199 (Me. 2006) (stating that "when
analyzing entitlement to attorney fees pursuant to Maine
consumer protection statutes ... the methods of analysis courts use

24a

Trial courts following this approach first calculate a
baseline attorney's fee award by determining the
reasonable number of hours the attorney worked and
multiplying that by a reasonable hourly rate.34 Courts
then have the discretion to adjust this baseline
"lodestar" amount to arrive at the final fee award.35
They may consider a variety of factors in calculating
the lodestar and deciding whether to adjust it,
including what we have called the Johnson-Kerr
factors:
(1) The time and labor required ....

in cases involving the federal civil rights attorney fee provision ...
are appropriate"); Furst v. Einstein Moomjy, Inc., 860 A.2d 435,
446-48 (N.J. 2004) (affirming modified lodestar approach to
fee-shifting provision in New Jersey's consumer protection
statute).
34

See, e.g., Hensley, 461 U.S. at 433 ("The most useful
starting point for determining the amount of a reasonable fee is
the number of hours reasonably expended on the litigation
multiplied by a reasonable hourly rate.''); see also Okuley, 214
P.3d at 253 ("[A] court following the modified lodestar method first
'determines the number of hours an attorney reasonably spent on
the case and multiplies that number by a reasonable hourly rate'"
(quoting Edwards v. Alaska Pulp Corp., 920 P.2d 751, 757 (Alaska
1996))).
35

See Okuley, 214 P.3d at 253; see also Hensley, 461 U.S.
at 434 (''The product of reasonable hours times a reasonable rate
does not end the inquiry. There remain other considerations that
may lead the district court to adjust the fee upward or downward,
including the important factor of the 'results obtained.' "); Furst,
860 A.2d at 447-48 (describing considerations trial court should
make when determining whether to adjust lodestar amount).

25a

(2) The novelty and difficulty of the questions
involved ....
(3) The skill requisite to perform the legal
service properly ....
(4) The preclusion of other employment by the
attorney due to acceptance of the case ...
(5) The customary fee ....
(6) Whether the fee is fixed or contingent....
(7) Time limitations imposed by the client or the
circumstances ....
(8) The amount involved and the results
obtained ....
(9) The experience reputation, and ability of the
attorneys ....
(10) The ''undesirability" of the case ....
(11) The nature and length of the professional
relationship with the client....
(12) Awards in similar cases.[36]

36

Johnson, 488 F.2d at 717-19; see also Kerr v. Screen
Extras Guild, Inc., 526 F.2d 67, 70 (9th Cir. 1975) (adopting these
factors); Okuley, 214 P.3d at 251 n.13 (labeling these the
"Johnson-Kerr factors").

26a

Unlike the superior court's approach, the
modified lodestar method does not invite a situation in
which fees could vary widely depending on the
plaintiff's recovery. We are convinced that Alaska
courts should employ it when determining "full
reasonable attorney fees" under the UTPA's
fee-shifting provision. We note, however, that the
modified lodestar approach we adopt today differs from
that favored by the United States Supreme Court. The
U.S. Supreme Court has "held that an enhancement
[in the second step of the modified lodestar calculation]
may not be awarded based on a factor that is
subsumed in the lodestar calculation."37 And some of
the Court's decisions strongly suggest that certain
factors, including whether an attorney's fee is fixed or
contingent, are inherent to the considerations
necessary for a lodestar determination and thus may
never serve as grounds for decrease or enhancement in
the second step of the modified lodestar calculation.38

37

Perdue v. Kenny A. ex rel. Winn, 559 U.S. 542, 553

(2010).
38

See City of Burlington v. Dague, 505 U.S. 557, 562
(1992) ("We note at the outset that an enhancement for
contingency would likely duplicate in substantial part factors
already subsumed in the lodestar."); Pennsylvania v. Del. Valley
Citizens' Council for Clean Air, 483 U.S. 711, 726 (1987) ("[I]t may
well be that using a contingency enhancement is superfluous and
unnecessary under the lodestar approach to setting a fee."); Blum
v. Stenson, 465 U.S. 886, 898-901 (1984) (holding that complexity
of litigation, novelty of issues, high quality of representation, and
benefit to class were factors subsumed in lodestar calculation and
thus insufficient justification for enhancement of lodestar).

27a

But the U.S. Supreme Court's interpretation of
fee-shifting provisions in federal statutes is not
binding on our interpretation of the UTPA's
fee-shifting provision. And like other jurisdictions that
have sought guidance in federal jurisprudence when
interpreting fee-shifting provisions in their own state
statutes, we are not entirely persuaded by the Court's
reasoning in this area.39 For one, we agree with the
courts of other jurisdictions, and the dissenting
opinions of key U.S. Supreme Court cases, that a
contingency enhancement in the second step of the
lodestar determination can provide a "risk premium"
necessary to induce competent counsel to litigate
claims when payment for legal services is contingent
on success in the case.40 We thus leave it within the
trial court's discretion to consider the contingent
39

See, e.g., Schefke v. Reliable Collection Agency, Ltd., 32
P.3d 52, 94, 96 (Haw. 2001) (concluding that Dague's and
Delaware Valley's dissenting opinions are better reasoned than
Dague' s majority opinion and therefore holding that contingency
enhancements of a lodestar are permissible); Rendine v. Pantzer,
661 A.2d 1202, 1228 (NJ. 1995) (holding that despite U.S.
Supreme Court jurisprudence to the contrary, trial courts should
consider whether contingency enhancements to a lodestar award
will result in a more reasonable attorney's fee).
40

See Del. Valley, 483 U.S. at 735-36 (Blackmun, J.,
dissenting); Ketchum v. Moses, 17 P.3d 735, 744 (Cal. 2001); Joyce
v. Federated Nat'l Ins. Co., 228 So. 3d 1122, 1130, 1132-33 (Fla.
2017); Schefke, 32 P.3d at 96-97; Rendine, 661 A.2d at 337-38; see
also Blum, 465 U.S. at 903 (Brennan, J., concurring) (stating that
permitting lodestar enhancements to "compensate for the
contingent nature of success, and thus for the risk of nonpayment
in a particular case" is "entirely consistent with [a] market-based
approach to hourly rates").

28a

nature of a fee agreement when calculating an
attorney's fee award under the modified lodestar
approach, and to incorporate considerations about this
factor into either the first or second step of the
modified lodestar calculation.41
Here the superior court erred in its assessment
of full reasonable attorney's fees. It did not complete
the first step in a modified lodestar determination:
calculating a baseline award based on an
approximation of hours reasonably worked multiplied
by a reasonable hourly rate. We reverse the superior
court's attorney's fee award and remand for an award
based on a reasonable rate for the services, as
calculated using the modified lodestar method outlined
above. We note that the Johnson-Kerr factors are
similar to the factors we apply to determine reasonable
attorney's fees in other situations using Alaska Rule of
Professional Conduct 1.5(a) and Alaska Bar Rule
35(a).42 The trial court may draw on its experience

41

As for the other factor, the U.S. Supreme Court has
indicated may be subsumed in the lodestar calculation, we need
not determine at this time whether they must always be
incorporated in the first step of the modified lodestar approach.
However, we note our agreement with the statement in Hensley
that trial courts considering the Johnson-Kerr factors "should note
that many of these factors usually are subsumed within the initial
calculation of hours reasonably expended at a reasonable hourly
rate." 461 U.S. at 434 n.9.
42

The factors are:

(1) the time and labor required, the novelty and
difficulty of the questions involved, and the skill

29a

with these factors when determining how to calculate
a baseline reasonable rate award and whether to
enhance or decrease that baseline amount.
C. We Affirm The Superior
Decision In All Other Respects.

Court's

1. It was not an abuse of discretion
to preclude Maxim from presenting
expert testimony on damages at
trial, and Maxim failed to preserve
this as an issue for appeal.

requisite to perform the legal service properly;
(2) the likelihood[ ] that the acceptance of the
particular employment will preclude other
employment by the lawyer;
(3) the fee customarily charged in the locality for
similar legal services;
(4) the amount involved and the results obtained;
(5) the time limitations imposed by the client or
by the circumstances;
(6) the nature and length of the professional
relationship with the client;
(7) the experience, reputation, and ability of the
lawyer or lawyers performing the services; and
(8) whether the fee is fixed or contingent.
Alaska R Prof. Conduct 1.5(a); see also Nautilus Marine Enters.,
Inc. v. Exxon Mobil Corp., 332 P.3d 554, 558 n.18 (Alaska 2014)
(noting that these factors are listed in "near-identical parallel" in
Bar Rule 35(a)).

30a

Maxim retained two expert witnesses – one to
testify about Collens's "claimed economic damages"
and another to testify about his "medical treatment
and costs" – but did not disclose their reports before
the deadline set by the superior court. The court
eventually issued an order precluding Maxim's experts
from testifying at trial. Maxim claims this was an
abuse of discretion, but we do not agree.
As a threshold matter, Maxim did not preserve
this issue because it never filed the expert reports.
Under Alaska Evidence Rule 103, error may not be
predicated on a ruling that excludes evidence unless
"the substance of the evidence was made known to the
court by offer or was apparent from the context within
which questions were asked."43 Under the Rule, "a
party ordinarily 'waives its right to challenge the
exclusion of evidence unless an offer of proof as to the
substance of the evidence is made at the time the
evidence is excluded.'"44 The purpose of the offer of
proof requirement is to "resolve doubts as to what
testimony the witness would have in fact given."45
Maxim's January 2017 expert disclosure does not serve
as an offer of proof because without the substance of
the proposed experts' testimony, it is impossible to
43

Alaska R. Evid. 103(a)(2).

44

Mueller v. Buscemi, 230 P.3d 1153, 1155 (Alaska 2010)
(quoting Agostinho v. Fairbanks Clinic P'ship, 821 P.2d 714, 717
(Alaska 1991)).
45

Alaska R. Evid. 103 cmt. (quoting Fed. R. Evid. 103(b),
Advisory Committee's Notes to 1972 proposed rules).

31a

determine whether Maxim suffered any prejudice by
its exclusion. By failing to file expert reports with the
superior court, Maxim waived this claim of error.
Even if Maxim had not waived the issue, we
would affirm the superior court's preclusion orders, for
they were not an abuse of discretion. Alaska Civil Rule
26(a)(2) mandates timely disclosure of expert witness
reports. Alaska Civil Rules 16(t) and 37(c)(1) authorize
the imposition of sanctions if a party fails to disclose
required information or fails to obey a pretrial order.
Rule 37(c)(1) makes exclusion of testimony the
presumptive rule when evidence is not disclosed as
required:
A party that without substantial
justification fails to disclose information
required by Rule[ ] 26(a) ... shall not,
unless such failure is harmless, be
permitted to use as evidence at a trial . .
. any witness or information not so
disclosed. In addition to or in lieu of this
sanction, the court, on motion and after
affording an opportunity to be heard,
may impose other appropriate sanctions.
Trial courts generally have discretion to
determine the appropriate sanction for the violation of
a discovery order, but this discretion is limited when
the sanction's effect "is to impose liability on the
offending party, establish the outcome of or preclude
evidence on a central issue, or end the litigation

32a

entirely."46 Here, precluding Maxim's expert witness
testimony did not entirely eliminate evidence on a
central issue Maxim was free to interrogate Collens's
expert witnesses through cross-examination after they
presented evidence on damages.47 In reviewing the
superior court's discovery sanction for abuse of
discretion, we therefore grant it the wide latitude
generally afforded trial courts in these situations.
Under Civil Rule 37(c)(1), the trial court must
generally exclude undisclosed evidence unless there is
substantial justification for the party's failure to make
timely disclosure and this failure is harmless. Here,
Maxim's justification for the delay was disputed by
Collens, and weighing the parties' conflicting accounts
against one another, the court reasonably determined
that Maxim's delay was unjustified. Maxim's failure to
produce expert reports was not harmless since, absent
the sanction, it would have unacceptably delayed an
already oft-postponed trial. The superior court's
application of Rule 37(c)(1) was not an abuse of
discretion.
2. The damages award was not

46

Khalsa v. Chose, 261 P.3d 367, 372 (Alaska 2011)
(quoting Sykes v. Melba Creek Mining, Inc., 952 P.2d 1164, 1169
(Alaska 1998)). We review discovery sanctions for abuse of
discretion. Id.
47

See Cartee v. Cartee, 239 P.3d 707, 719-20, 722 (Alaska
2010)(affirming the exclusion of expert witness testimony where
the sanctioned party had an opportunity to challenge and critique
the opposition's expert).

33a

excessive.
Maxim raises multiple objections to the
damages award. We address only those arguments
that merit discussion and affirm the superior court's
award on all counts.
First the court's compensatory damages for
breach of contract were not excessive. Trial evidence
established that Collens's medical condition is
permanent and that he will need full-time nursing care
for his lifetime. The superior court calculated Collens's
breach of contract damages as the value of nursing
care Maxim promised but failed to provide; the past
and future value of services Collens lost when he was
discharged from Maxim and forced to move to
Washington state, where he was not eligible for these
services; and Collens's past and future out-of-pocket
costs resulting from his discharge and subsequent
move to Washington.
We review a trial court's assessment of
compensatory damages for clear error,48 upholding the
award as long as the trial judge "follows the correct
rules of law, and [the] estimation appears reasonable
and is grounded upon the evidence.'"49 Collens' s plan
of care might vary over his lifetime, but nothing in the

48

See Burton v. Fountainhead Dev., Inc., 393 P.3d 387, 393
(Alaska 2017).
49

Pluid v. B.K., 948 P.2d 981,983 (Alaska 1991)(quoting
Morrison v. State, 516 P.2d 402, 405 (Alaska 1973)).

34a

record suggests that such variations would create
meaningful deviations from the court's estimated
damages. And no evidence establishes how to calculate
and deduct from the estimated damages the impact of
other factors that Maxim alleges the court failed to
consider. The superior court's compensatory damages
for breach of contract are not clearly erroneous.
Second damages for Collens's IIED claim were
appropriate. Maxim challenges the $400,000 in IIED
damages, apparently on grounds that it was error for
the superior court to find that Collens suffered severe
distress.50 We have defined severe emotional distress
as "distress of such substantial quality or enduring
quantity that no reasonable person in a civilized
society should be expected to endure it."51 In some
cases, the circumstances surrounding a claim may be
sufficient to persuade a jury that the plaintiff has
actually suffered serious emotional trauma."52 The
symptoms Collens described experiencing after
learning of his premature discharge, corroborated by
50

To prevail on an IIED claim, the plaintiff must show "(1)
that the defendant's conduct was extreme and outrageous, (2) that
the conduct was intentional or reckless, (3) that this conduct
caused the plaintiff emotional distress, and (4) that the distress
was severe." Cameron v. Beard, 864 P.2d 538, 548 (Alaska 1993).
Maxim also contends that the statutory cap on non-economic
damages in medical malpractice actions should apply here. See AS
09.55.549. But this is not a medical malpractice action.
51

State v. Carpenter, 171 P.3d 4l, 59 (Alaska2007) (quoting
Fyffe v. Wright, 93 P.3d 444, 456 (Alaska 2004)).
52

Chizmar v. Mackie., 896 P.2d 196, 205 (Alaska 1995).

35a

testimony from his mother, doctor, and care
coordinator, support the superior court's finding that
his emotional distress was severe, as do the
circumstances of this stress. Based on this record, it
was not clear error for the superior court to conclude
that these elements of the tort were established.53
Compensatory damages for IIED were warranted.
Third the superior court's award of punitive
damages was not erroneous. To recover punitive
damages, a plaintiff must establish that
the wrongdoer's conduct was outrageous,
such as acts done with malice or bad
motives or a reckless indifference to the
interests of another. Actual malice need
not be proved. Rather, [r]eckless
indifference to the rights of others, and
conscious action in deliberate disregard
of them . . . may provide the necessary
state of mind to justify punitive
damages.[54]
A trial court's determination that punitive damages

53

"We review the superior court's factual findings for clear
error, which occurs when a review of the entire record leaves us
with a definite and firm conviction that a mistake has been made."
See Offshore Sys.-Kenai v. State, Dep't ofTransp. & Pub. Facilities,
282 P.3d 348, 354 (Alaska 2012).
54

Cummings v. Sea Lion Corp., 924 P.2d 1011, 1022
(Alaska 1996) (alteration and omission in original) (quoting
Barber v. Nat'l Bank of Alaska, 815 P.2d 857, 864 (Alaska 1991)).

36a

are warranted must be supported by clear and
convincing evidence.55
The record provides amp]e support for the
superior court's finding that Maxim committed
outrageous conduct demonstrating reckless
indifference to Collens's health and safety. Adkins
admitted that she delivered Collens's discharge letter
without first speaking to his physician, that at the
time of delivery she knew his care coordinator did not
consent to discharge, and that she knew of no
alternative care providers for Collens. Given these
admissions, Co1lens's discharge demonstrated
disregard for critical health professionals' care
assessments and recklessness as to Collens's future
health. We affirm the punitive damages award.56
Finally Collens was not required to elect his

55

Brandner v. Hudson, 171 P.3d 83, 89 (Alaska 2007); see
also AS 09.17.020. " 'Clear and convincing' evidence is evidence
establishing that something is 'highly probable.' " In re
Reinstatement of Wiederholt, 89 P.3d 771, 772 n.6 (Alaska 2004)
(quoting Denuptiis v. Unocal Corp., 63 P.3d 272, 275 n.3 (Alaska
2003)).
56

Maxim also argues that the superior court's punitive
damages award should be reversed because the court never held
a separate proceeding to determine the punitive damages amount,
as required by AS 09.17.020. But Maxim failed to object to this
error in either of its post-trial motions responsive to the superior
court's findings of fact and conclusions of law. Failing to
contemporaneously object to the superior court's procedural error
waives the issue for appeal. See Berry v. Berry, 277 P.3d 771, 775
(Alaska 2012).

37a

remedies as between punitive and treble damages.
"[E]lection of remedies is the choice by a party to an
action of one of two or more coexisting remedies or
rights or theories of recovery[] arising out of the same
facts.57
Some jurisdictions implement election of
remedies as a common law doctrine and require
plaintiffs to choose one of multiple potential remedies
when those remedies are "so inconsistent or repugnant
that pursuit of one necessarily involves negation of the
other."58 In those jurisdictions plaintiffs who could
claim both punitive damages and consumer protection
act treble damages for a single claim may be required
to choose between the two remedies.59 Courts in such
jurisdictions reason that permitting receipt of both
would allow "impermissible double recovery because
the two forms of enhanced damages serve the same
functions.60 Whether to adopt the election-of-remedies
doctrine is a question of law to which we apply our

57

28A C.J.S. Election of Remedies §1, Westlaw (database
updated Mar. 2019).
58

E.g., Miller v. United Automax, 166 S.W.3d 692, 696-97
(Tenn. 2005) (quoting Forbes v. Wilson Cty. Emergency Dist. 911
Bd., 966 S.W.2d 417, 421 (Tenn. 1998)).
59

Id. at 697.

60

Id. (quoting Concrete Spaces, Inc. v. Sender, 2 S.W.3d
901, 906 (Tenn. 1999)).

38a

independent judgment.61
We have not previously applied the election of
remedies doctrine in a context such as this one. But in
Kenai Chrysler Center, Inc. v. Denison, we were asked
to determine whether UTPA treble damages are a form
of punitive damages such that a plaintiff waiving his
claim for punitive damages also waives his right to
treble damages under the Act.62 W e h e l d t h a t t h e
UTPA authorizes individuals suing for treble damages
under the Act to also pursue "common law relief such
as punitive damages."63 And we noted that the UTPA's
treble damages provision serves ''important purposes"
that punitive damages do not.64 Given our precedent it
was not error for the superior court to conclude that
Collens could claim both punitive and treble damages
for the same conduct.65 Our statements in Kenai
61

See Mat-Su Valley Med. Ctr., LLC v. Advanced Pain
Ctrs. of Alaska, Inc., 218 P.3d 698, 700 (Alaska 2009); Beal v.
McGuire, 216 P.3d 1154, 1162 (Alaska 2009).
62

167 P.3d 1240, 1259 (Alaska 2007).

63

Id. at 1260.

64

Id.

65

Collens argues that the damages awards were for
different conduct. But the superior court identified Maxim's UTPA
violations as the false promises made in their Patients' Rights
document and their deceptive discharge of Collens. The discharge
was the basis for Maxim's IIED liability, and the false promises
are the conduct the court identified as misrepresentation. Even
though the punitive damages flow from the IIED and
misrepresentation claims, they were awarded for the same

39a

indicate that the rationale behind the common law
election of remedies doctrine – to avoid double recovery
– does not apply here. We decline Maxim's invitation
to read the doctrine into the statute.
IV.

CONCLUSION

We REVERSE the superior court's attorney's fee
award and REMAND for an award consistent with this
opinion. We AFFIRM the superior court's judgment on
all other issues.

conduct as the UTPA treble damages, contrary to the superior
court's statement otherwise.

40a

APPENDIX C
IN THE SUPERIOR COURT
FOR THE STATE OF ALASKA
THIRD JUDICIAL DISTRICT AT ANCHORAGE
JESSE MICHAEL COLLENS,
Plaintiff,
vs.
ALAINA ADKINS, and MAXIM
HEALTHCARE SERVICES, INC.,
Defendants.
Case No. 3AN-14-5961 CI
FINDINGS OF FACT AND
CONCLUSIONS OF LAW
This Case concerns a breach of contract and
related claims arising out of a home health care
agreement. The court conducted a seven day bench
trial on June 19-23, June 26, and July 10, 2017.
Plaintiff Jesse Collens ("Collens") was represented by
Michael Stehle of The Law Office of Michael Stehle,
PC, and defendants Alaina Adkins ("Adkins") and
Maxim Healthcare Services ("Maxim") were
represented by Rebecca Hozubin of Hozubin, Moberly,
Lynch and Associates, P.C. Having heard the evidence,
the court enters these findings of fact, conclusions of
41a

law, and order.
FINDINGS OF FACT
1. Collens was severely injured in a bicycle
accident in May 2009. He was 21 years old. The
accident left him a C-1 quadriplegic. He cannot move
anything below his neck. He cannot breathe on his own
and he is ventilator dependent. Although Collens is
able to move his head somewhat from side to side, he
cannot hold or lift his head up on his own. While
Collens is able to eat and drink some foods naturally,
he has a feeding tube for at least some of his nutrition
and medication needs. Collens is fully coherent.
Testimony from his physician and others, as well as
the court's own observations, supports the fact that he
is an intelligent, articulate young man. At the time of
the accident, Collens was living, working, and going to
school in Anchorage.
2. At the time Collens was injured, his mother
Joanne Collens was living and working in California.
She immediately flew to Anchorage to be with her son.
After several frightful weeks during which Collens's
physicians thought Collens might die, his condition
stabilized.
3. In July 2009, Collens and his mother were
flown to a rehabilitation facility at the University of
Washington Hospital. For the next several months
Collens and his mother were taught how to care for
Collens's daily living needs. They were taught how to
manage Collens's bowel, how to care for his ventilator
42a

and air passageway, how to perform his range of
motion and other physical therapy exercises, and the
numerous other processes in caring for a ventilator
dependent quadriplegic. Collens was taught that he
needed to know how to care for himself so that he
could teach and instruct others who would assist him,
and that he needed to be able to speak up for himself
to insure that he was receiving the care he needed.
4. In the fall of 2009, Collens and his mother
were flown back to Anchorage and Collens was placed
in St. Elias Hospital. St. Elias is not a long term care
facility. Collens was placed in St. Elias only until he
could be discharged into a home in the community.
Because Mrs. Collens wanted to and needed to assist
in the care of her son, she went to California to close
her business and wind up her affairs in California and
move to Anchorage. When Mrs. Collens returned to
Anchorage, she rented a home for herself and her son.
5. Anchorage does not have any group homes or
other long term care institutions for someone with
Collens's level of disability. Rather, Collens's only
option is to live independently in a home in the
community. This was also Collens's preference. Collens
did not and does not want to live in an institutional
setting. He wants to live as independently as possible,
and in the least restrictive setting possible. This also
happens to be consistent with the public policy of the
State of Alaska.1
1

See AS 47.80.110(5)-(6). Indeed, employees with the
State subsequently confirmed to Maxim that living in a home in

43a

6. Because Alaska has a public policy that
encourages independent living for persons with
disabilities, two different professional care
coordinators testified that Alaska is at the forefront of
providing benefits and programs for persons with
disabilities to allow them to live independently in the
community. One of the benefits available to Collens
was the appointment of a care coordinator to, as the
name suggests, coordinate the care that Collens needs
to allow him to live independently in the community.
Denise Shelton ("Shelton") was hired in the fall of 2009
as Collens's care coordinator.
7. Shelton graduated with an undergraduate
degree in rehabilitation and a master's degree in
community rehabilitation management. She has
worked in healthcare for more than 30 years. For the
last 17 years, she has owned and operated her own
business, Aurora Specialized Services, Inc., which
specializes in coordinating the care of persons with
disabilities and/or medical needs whose insurance is
largely provided by State or Federal programs such as
Medicaid and Medicare. In the late fall of 2009,
Shelton began working with Collens's physicians and
other health agencies in the state to put together a
Plan of Care ("POC"). It was. in this context that
Collens, Adkins, and Maxim first met.
8. Maxim is a large, national, for-profit
healthcare corporation. It has offices and provides
services in approximately 40 different states. It has
the community is where Collens belongs. Ex. 8, pp. 4, 29.

44a

various divisions and provides a variety of healthcare
services including staffing services, companionship.
services, intermittent home health care, and in-home
private duty nursing care or shift work.
9. Maxim's staffing division provides nurses for
various institutions such as hospitals and correctional
facilities. Maxim's companionship services include
personal care attendant ("PCA'') shift work in
customer/patient homes for hands on work such as
bathing, feeding, and meeting other needs of daily
living for which a nursing license is not required. They
also include respite services which, as the name
suggests, consist primarily of sending someone into a
home to give a family caregiver some relief or respite
from the stress of caring for a loved one in need.
Maxim's intermittent services include sending physical
therapists, speech therapists, nurses and other health
care professionals into customer/patient homes for
brief, intermittent services. Private duty nursing
("PDN,") or shift care consists of sending nurses, RNs
and LPNs, into customer/patients' homes for shift
work on a regular, recurring schedule.
10. Some of Maxim's customers/patients are
sufficiently wealthy that they are able to pay out of
pocket for Maxim's services. Most of Maxim's
customers/patients pay for Maxim's services either
with private insurance, or State or Federal insurance
programs such as Medicaid and Medicare.
11. Adkins graduated from Chugiak Alaska
High School in 1999. She then graduated from the
45a

University of Alabama with a degree in biology in
2003. She was hired by Maxim in the fall of 2003 as a
recruiter.
12. Maxim decided to open an office in Alaska in
the summer of 2005. Maxim promoted Adkins to be its
Alaska administrative officer. While Adkins' title has
changed over the years, her duties have essentially
remained unchanged. Since 2005, Adkins has been
Maxim's highest ranking administrative employee in
Alaska.
13. When Maxim first opened the Alaska office,
it was providing staffing and companionship services
but it was not yet licensed to provide home healthcare,
which requires a state home healthcare license. The
license is both time consuming and expensive to
obtain. Maxim eventually became a licensed home
healthcare provider in Alaska. It began providing
home healthcare PDN services in the late fall of 2006.
14. In June 2008, Maxim hired Stacy Jencks
("Jenks"). Jencks was hired as a PDN case manager
with the understanding that she would become the
director of clinical services for the PDN division.
Jencks obtained that title in early 2010, but she was
effectively acting as the director of clinical services
("DOCS") even before that date. The DOCS has
responsibility and accountability for the delivery of
clinical services.
15. In early December 2009, Shelton arranged
a meeting at St. Elias with Adkins and Jencks from
46a

Maxim, Collens, Collens's mother, and Collens's
physician, a representative from St. Elias, and perhaps
others. The purpose of the meeting was to discuss the
plan for discharging Collens from St. Elias into the
home rented by Mrs. Collens. Following the meeting,
Collens and Maxim entered into a Home Healthcare
Agreement and a Patient Rights and Responsibilities,
Consent for Services and Medical Records Release
agreement.2
16. Pursuant to the Home Healthcare
Agreement, Maxim agreed to provide -continuous
RN/LPN services and, in exchange, Collens assigned
his Medicaid insurance benefits to Maxim allowing
Maxim to bill Medicaid directly for the services
provided.3 In the simultaneously executed Patient
Rights, Consent for Services agreement, Collens
requested admission to the Maxim Home Care
Program and consented to such care and treatment as
prescribed by his physician.4 Collens also agreed to
certain patient responsibilities including the
responsibility for following the treatment plan
developed by his primary physician. The agreement
provides that willful noncompliance with the
physician's treatment plan shall result in termination
of services. In exchange Maxim agreed to various
patient rights set forth in 36 separately numbered

2

Exs. 2002, 2010.

3

Ex. 2002.

4

Ex. 2010.

47a

paragraphs. Paragraph 33 provided that Collens had
the right not to be transferred or discharged out of
Maxim's Home Care Program unless (a) his medical
needs required transfer, (b) his health and safety or
the health and safety of another person required
transfer or discharge, (c) he failed to pay for services,
or (d) he no longer qualified for care.5
17. Collens's condition is obviously permanent;
his initial prescription for home nursing states that it
is refillable for life.6 Collens understood that he would
get nursing services through Maxim's Home
Healthcare Program as long as his physician continued
to believe that it was necessary or appropriate. Adkins,
on behalf of Maxim, testified that she too understood
that, once Maxim accepted Collens as a patient, he
would remain Maxim's patient unless and until he
could be safely discharged pursuant to Maxim's
policies and procedures and the rights granted to
Collens under the Patient Rights agreement.
18. Maxim is required by law to adopt policies
and procedures which govern its provision of home
healthcare services.7 Those policies and procedures
were admitted into evidence.8 In pertinent part, those
policies and procedures state that a physician's order
5

Ex. 2010, paragraph 33.

6

Ex. 2006.

7

7 AAC 12.507(b)(3).

8

Ex. 1101.

48a

is required before a patient may be discharged from
Maxim's Home Healthcare Program.9 In fact, the
testimony at trial was to the effect that all aspects of
Maxim's care for its patients were dictated by
physician order. Maxim provided testimony to the
effect that its nurses could not even put
non-prescription saline solution in a patient's dry eyes
if there was not an order prescribing that treatment.
19. Maxim also had detailed procedures for
addressing concerns about a patient's noncompliance,
discharge planning, or other concerns. That "Standard
Operating Procedure" required Maxim's DOCS or
clinical designee to notify all involved members of the
health care team of the issue or concern requiring
resolution, not limited to Maxim employees but to
include the patient's physician and Care Coordinator
as appropriate.10 Once all of the involved health care
team members were notified of the concern, the DOCS
or clinical designee is required to "develop a resolution
plan in coordination with all involved parties to
attempt to resolve the issue."11 If the plan resolves the
issue, no further action is necessary. On the other
hand, if the plan does not resolve the issue the next
step is to hold a case conference. The case conference
must be managed by the DOCS or clinical designee

9

Ex. 1101, pp. 54, 56, 105.

10

Id., p. 95.

11

Id. pp. 95-96.

49a

and "cannot" be managed by a non-clinician.12 The case
conference "must" involve all necessary healthcare
team members.13 Finally, the fact that the case
conference took place as well as what occurred at the
case conference must be documented in the patient's
file.14
20. Maxim's area vice president, with
jurisdiction over Alaska, Matthew Diaz ("Diaz"),
confirmed that Maxim must follow its policies and
procedures before discharging or terminating a
patient. He confirmed that Maxim must get a
physician's order before discharging a patient and
that, if Maxim had concerns that a patient was not
compliant with his physician's treatment plan, Maxim
must notify the patient and physician of the concern
and give the patient an opportunity to correct
whatever concerns Maxim might have regarding the
patient's alleged non-compliance.
21. The consent for services agreement provides
that Collens "consents to such care and treatment
prescribed by [his] physician."15 In paragraph 20, it
further provides that the "home health plan of
care/treatment will be developed by the physician, in
cooperation with the appropriate Maxim professional
12

Id.

13

Id.

14

Id. pp. 95-96.

15

Ex. 2010.

50a

staff member, and with the patient and family to the
extent possible."16 In this case Collens had a need for
and was entitled to receive care in addition to the
nursing services to be provided by Maxim. All of
Collens's care was coordinated by Shelton. Thus,
Maxim worked with Shelton and Collens's physicians
with regard to the POC.
22. Shelton originally put together a POC that
called for PDN services of 18 hours per day, 7 days per
week, 52 weeks per year. While Maxim is not required
to sign this POC, Shelton asked Adkins if Maxim
would sign this POC because Maxim was to be such a
large player in Collens's care. Adkins did so on
Maxim's behalf.17 This POC was not approved by the
state. Instead a new POC was drafted that called for
PDN services of 16 hours per day, 7 days per week, 52
weeks per year.18 Again, Maxim signed this POC and
this POC was approved by the state.19
23. In addition to PDN services, Collens also

16

Id.

17

Ex. 1044.

18

Shelton testified that it was not unexpected that
Collens's POC would take some time to figure out. That is, she
testified that he was a high needs client and it would take some
actual time in the home to determine what he would need to be
properly cared for in the home.
19

Ex. 1040, pp. 353-367.

51a

needed and qualified for additional services such as
PCA services, respite services, chore services and
transportation services. Collens needs 24 hour per day
awake staff. This is primarily because he is ventilator
dependent and Collens would likely die if his
ventilator became detached or stopped working and
there was no awake staff to assist him. Other medical
needs also require 24 hour awake staff. The need for
24 hour per day care was not disputed by Maxim.
24. Collens needs two people to assist with his
care for most of his awake hours. Two people are
required to move him from bed to chair or chair to bed
as well as other tasks such as ROM exercises and PT.
Again, these facts were not disputed.
25. Maxim's policies and procedures required
that patients have a primary care giver ("PCG'') who
"is able to participate in the patient's care when
necessary."20 Collens's mother was his PCG.
26. Shortly after Collens moved into his home it,
became apparent that the number of hours of PDN
services was not sufficient to care for Collens. Under
the existing POC, Collens's mother essentially acted as
his nurse for 8 hours per day, 7 days per week. This
was in addition to her role as mother and head of
household, which included shopping, cooking, and
cleaning. And this assumed that all PDN and PCA
shifts were filled as called for under the POC, and did
not allow for shifts missed due to illness or other
20

Ex. 1101, p. 24.

52a

reasons such as caregivers moving on and needing to
be replaced. If shifts were not filled, Collens's mother
would have to be Collens's awake staff for more than
24 hours in a row. Accordingly, in February 2010, the
POC was amended to add an additional 16 hours per
week of PDN services so that Collens would get PDN
services of 16 hours per day, 5 days per week, and 24
hours per day two days per week.21 Again, Maxim
participated in and approved this amendment to the
POC.
27. The amended POC still imposed a heavy
burden on Collens's mother. In October 2010,
Adkins/Maxim filed a report with Adult Protective
Services stating that they were concerned that Mrs.
Collens was not physically able to care for her son.22 In
addition, Shelton, Adkins/Maxim and Collens's
physician worked to increase Collens's care. In
November 2010, a new POC was approved that
provided for PDN services for 24 hours per day, 7 days
per week, 52 weeks per year.23 When Shelton emailed
Adkins to tell her that the new POC had been
approved, Adkins responded, "This is great news."24 In
addition to 24 hour per day PDN care, Collens was
receiving PCA care for 96 hours per week (or 13.75
21

Ex.1040, pp. 341-350.

22

Ex. 1007, pp. 10-11. The report was investigated but no
action was taken.
23

Exs. 1040, pp. 313-325 and 1098A.

24

Ex. 1051, p. 97.

53a

hours per day), hourly respite care for 10 hours per
week, and daily respite for 14 days per year.25
28. This new POC stayed the same until Maxim
terminated services in late March 2012. Shelton
testified that this POC was meeting Collens's needs
and likely would remain essentially the same today if
Maxim had not terminated services. Collens's
physician, Dr. Hurlburt, testified similarly. Both
Shelton and Dr. Hurlburt support the conclusion that
Collens requires and would have received essentially
the same care outlined above for the rest of his life.
This was also supported by plaintiff's expert, Jill
Friedman, RN. The court finds this testimony credible.
29. Maxim questioned Shelton about a change to
the PCA program that might have reduced the number
of PCA hours, suggesting that the number of PCA
hours might have been reduced by as much as 50%.
Shelton testified that she actually ran the numbers
under the new program and while there may have
been a reduction, that reduction would have been
slight. Shelton testified that if the PCA hours were
reduced she would have been able to offset that
decrease in PCA hours by a corresponding increase in
the number of hourly respite hours. Respite hours are
available to reduce PCG fatigue and prevent a patient
from being institutionalized. If PCA hours were
reduced Shelton would be able to show an increase in

25

The PCA and respite services were provided by agencies
other than Maxim, Collens also received transportation services
but that is not at issue in this lawsuit.

54a

PCG fatigue and a risk of institutionalization
justifying a corresponding increase in respite hours.
This was demonstrated when Maxim terminated PDN
services in late March 2012, and Shelton was able to
increase hourly respite services by more than an
additional 70 hours per week, to the maximum number
of respite hours permitted. Again, the court finds that
Shelton's testimony that any decrease in PCA hours
could have been offset by an increase in respite hours
to be credible.
30. Once this new POC was in place Collens was
able to engage once again with the community. He
began to take classes at UAA and was able to go out
for social and recreational activities.
31. In November 2011, Maxim terminated
Collens's lead nurse, Lisa Good (now known as Lisa
Ragland), for allegedly filling in the wrong date on a
nursing document. Ms. Good had cared for Collens for
more than a year. In addition to being Collens's lead
nurse, Ms. Good filled a substantial portion of the
schedule. Maxim did not discuss the matter with
Collens prior to terminating Ms. Good. In addition,
another Maxim nurse that had cared for Collens for
more than a year and worked opposite from Ms. Good,
Kevin Miller, quit employment with Maxim shortly
thereafter because of scheduling issues.26 He too had

26

Ex. 1008, p. 18; Ex. 2035. Miller lived in Seward,
Alaska, and slept in his camper van while working in Anchorage.
He had been working 5 days in a row opposite Ms. Good under a
similar schedule. Id. He wanted to continue working 5 days in a

55a

filled a substantial portion of the schedule.
32. On February 21, 2012. Collens called
Maxim's "grievance" hotline to express frustration
regarding his care. The call was taken by Kathy
Mandeville, Maxim's regional director of clinical
services. The call was documented in an email from
Mandeville to Adkins and Jencks dated that same
day.27 At Mandeville's request the issues raised in the
call were also documented in Collens's grievance file.28
Mandeville also testified at trial.
33. Collens expressed three areas of frustration
during the call. First, he was frustrated that Maxim
had not reached out to his physician, Dr. Hurlburt, to
get a supplemental order regarding his insulin. Collens
is diabetic and has managed his insulin since he was
16 years old. He recognized that his insulin needs
changed during times of illness. He and Dr. Hurlburt
discussed the issue and she felt comfortable with
Collens adjusting his insulin during times of illness.
Maxim wanted an order from Dr. Hurlburt describing
how the insulin was to be administered or adjusted
and in what manner. Collens had asked Maxim, at
least as early as December 2011, to get together with
Dr. Hurlburt to work out an order acceptable to

row after Maxim terminated Ms. Good so he would not have to
drive back and forth to Seward so frequently. Id.
27

Ex. 1011.

28

Ex. 1007, pp. 15-17.

56a

Maxim.29 Collens was frustrated that it had not yet
been done.
34. Collens also expressed concern that the new
nurses Maxim was sending to his home were only
orienting on his case for one shift as opposed to two
shifts as had been promised. Collens's concern was
that his care was different for the night shift and day
shift and that nurses who might be scheduled for
either the night or day shift were not being oriented on
the differences between his nighttime and daytime
care.
35. Finally, Collens was concerned with one of
the new nurses assigned to him and he asked that she
be reassigned. Because Mr. Collens is ventilator
dependent the policy in his home, as established by
Maxim's nurses, was that his nurses were to take a
baby monitor with them if they left his presence/care.
This new nurse was going outside for breaks and was
not taking the monitor. This endangered Collens
insofar as he could not get a hold of her if he needed
help. Then, according to Collens, the straw that broke
the camel's back was that while transitioning Collens
she let his head drop and did not adequately support
his head despite the fact that he asked for support four
different times. Collens testified that he told her that
she needed to pick his head up and support it while
transitioning him. She picked his head up but let it
drop. Collens cannot support his head on his own and
this nurse seemed to be unaware that he could not do
29

Ex. 1008, p. 16.

57a

so. He said she let his head drop four times.30
36. On March 5, 2012, Collens called Adkins to
inquire what he needed to do to make Mr. Miller his
PCG.31 Collens and his mother had reached out to
Miller in January or February to see if he would come
back and assist with Collens's care. Miller did not
want to go back to work for Maxim so instead looked
into starting his own home healthcare company but
decided. that it was too difficult and expensive. Miller
could, however, assist Collens as a paid PCA. Miller
applied with one of the PCA agencies providing
services to Collens, was hired, and began providing
PCA care on March 3, 2012.32 As a PCA, Miller could

30

During trial, Maxim argued that Collens would
terminate nurses without talking to Maxim. This was not
supported by the record. Collens did ask that several nurses be
reassigned, mostly in the first year of service, but each time he
called Maxim to discuss the issue. Moreover, Maxim testified that
Collens had a right to ask that nurses be reassigned and that he
was not terminated for that reason so this argument by Maxim is
irrelevant.
31

Ex. 1008, p. 13.

32

Ex. 1074, p. 87. During trial, Maxim argued that Miller
began working as a PCA for Collens in January or February and
that this was unknown to Maxim until they heard about it at trial.
This argument appears to be based on nothing more than Mrs.
Collens's testimony that she or Collens reached out to Miller at
that time. Maxim's conjecture is not supported by the evidence.
Mrs. Collens testified that she reached out to Miller in January or
February and that Miller looked into trying to start his own home
healthcare company so that he could care for Collens as a nurse.
She testified that it turned out that the process to become licensed

58a

not give Collens insulin, clean out his ventilator, or
perform other work which required a nursing license.
Even though Miller was a licensed nurse he was not
working in Collens's home as a nurse. Miller could,
however, perform those functions as Collens's PCG as
Collens's mother had been doing up until that time.33
37. Shelton was happy that Miller had agreed to
become Collens's PCG and work for Collens as a PCA.
She believed that Miller was a good nurse and a good
advocate for Collens even if he could be a little
dramatic at times. She understood that Miller was
going to act as Collens's assistant taking over
scheduling and other issues so that Collens would have

home healthcare company was too time consuming and expensive
and Miller decided he could not do so. This history is actually
confirmed in Shelton's contemporaneous file. Ex. 1051, pp. 59-60.
Moreover, Exhibit 1074 is a printout of all care providers
providing care to Collens. It confirms that Miller's first
employment as a PCA for Collens was not until March 3, 2012.
This was not the only time when Maxim made arguments to the
court that were flatly contradicted by the evidence, suggesting
that defendants were not candid with the court. as a
33

Collens's mother was a paid PCA for Collens as well as
his PCG. Shelton testified that this is common for families caring
for a person in need. Since the family member is caring for their
loved one in any event, allowing them to be paid as a PCA for
some of their time brings extra income for the family. Collens was
living on Social Security Disability Income and Alaska Adult
Public Assistance. Collens's mother had applied with one of the
PCA agencies providing services for Collens and was hired.
Accordingly, some of the time she wore her PCA hat, some of the
time she wore her PCG hat, and some of the time she took off her
hat and was simply Collens's mother.

59a

more time to pursue activities other than coordinating
his own care.34 Dr. Hurlburt similarly understood that
Collens would be delegating certain tasks to Miller and
believed that this was a good development for Collens.
38. Adkins told Collens that Maxim did not have
a form to designate someone as the PCG and that she
would have to contact their legal department.35 On
March 6, 2012, Adkins wrote to Maxim's legal
department inquiring about Collens's request to make
Miller his PCG, expressing concern that Miller was not
going to have a power of attorney (''POA").36 Adkins
could not recall why she was concerned with Miller not
having a POA since Collens's mother had been acting
as Collens's PCG since the beginning and she did not
have a POA either.
39. On March 8, 2012, Collens called Maxim and
asked to speak to Adkins. He was told that Adkins was
not available and was transferred to a recruiter
34

It takes several hours just to do Collens's morning bowel
program, bathing/grooming, ROM and PT exercises, and transfer
him from bed to chair. If Collens has to deal with scheduling
issues for his PDN and PCA services, and coordinate and birddog
medical supply and supplemental physician orders, he has little
time to engage in outside pursuits. Collens testified that he
wanted Miller to assist him with those tasks and Shelton testified
that she thought that was a positive development for Collens. She
reported in her file that Collens was "fortunate" to have Miller
agree to become his PCG. Ex. 1041, p. 2.
35

Ex. 1008, p. 13.

36

Ex. 1009A, p. 235.

60a

instead. The recruiter had no information and could
not help Collens. Collens made the call using his
computer and had recorded himself with the
computer's camera while sitting in front of his
computer talking. Collens posted the video on YouTube
under the heading "Maxim Healthcare services return
phone call policy."37 Maxim's corporate offices in the
Lower 48 were alerted to this video by a Google Alert
and wrote to Adkins inquiring if this was one of
Maxim's patients in Alaska.38 The email noted that
''[t]he content of the video itself is not too alarming,
however in the accompanying description the patient
promises 'many more to come."'39 This was the first
time that area VP Diaz became aware that Collens
was a patient of Maxim.
40. Adkins and various Maxim personnel from

37

Ex. 1009A, pp. 231-232. Collens testified that he
discovered that one of the easiest ways for him to communicate
was to sit in front of his computer and record himself with his
computer's front facing camera. In fact, in a meeting with Adkins
the next day, March 9, 2012, he explained that "it is easier for him
to communicate via webcam instead of Dragonet [voice dictation
software] [s]o in, the future he will be sending e-mail videos to
[Maxim's] office." Id. p. 224. Indeed, the parties submitted into
evidence numerous YouTube videos posted by Collens over the
years. It appears that Collens communicates to friends and other
disabled individuals about both the joys and sorrows of life,
including the frustrations arising from his total dependence on
caregivers.
38

Ex.1009A,pp. 231-232.

39

Id.

61a

the Lower 48 exchanged emails about what to do in
response to this video and decided that Adkins should
meet with Collens to inquire about his concerns.
Adkins met with Collens on Friday, March 9, 2012.
She testified that Collens had three concerns: He
wanted Maxim to follow up with his physician
regarding his insulin order; he wanted to lo.1ow what
he needed to do to make Miller his PCG; and he
wanted a single point of contact at Maxim so that he
would know who he should talk to about scheduling or
other issues. Adkins reported the results of her
meeting to Maxim corporate.40 Adkins reported that
she agreed to have an every-other-day phone call with
Collens regarding these issues until they were resolved
and she scheduled a follow-up meeting at his house for
April 18, 2012.41
41. On Saturday, March 10, 2012, Paula Sotir,
who is identified as Maxim's COO, emailed Adkins to
say "Great job helping the patient!!!" She then inquired
as to whether it was still necessary to have a
teleconference on Monday.42
42. On Monday, March 12, 2012, Adkins wrote
to Brigid Reamer, an employee in Maxim's legal
department, and cc'd Diaz and Jencks, requesting a

40

Ex. 1009A. pp. 224-225.

41

Id.

42

Ex. 1009A, p. 224.

62a

"quick call."43 She referenced the meeting the previous
week with Collens, stating that he is "adamant in
having a person outside his POA and legal guardian
become his primary caregiver." She notes that "[t]his
is the client that did the posting on YouTube."44
43. Notes from that call indicate that Adkins
told Diaz and Reamer that Miller was a former
employee with Maxim that used to care for Collens as
a Maxim nurse.45 Later that same day Diaz sent an
email to a variety of Maxim corporate officers,
including the legal department, noting that "[t]his
situation continues to become a more tangled web the
deeper we dive. We found out from the office that
during their visit Friday evening the client is
requesting that a former Maxim nurse (whom the
client. has invited to reside with him and had worked
with the client while employed by Maxim) be the
primary caregiver ... " He also notes that "the office is
concerned that the staff working with this client could
be fabricating their documentation according to this
former Maxim employee who is acting as the liaison
for the patient at this point. The office has submitted
a compliance concern to the West Coast Compliance
inbox to address this issue."46 Adkins sent various staff
documents (MARS, Narc sheet, and notes) from dates
43

Ex. 1009A, p. 223.

44

Id.

45

Ex. 1009A, pp. 213, 222.

46

Ex. 1009A, p. 212.

63a

of service 3/4/12-3/10/12.47
44. On March 12, 2012, Maxim obtained a
revised insulin order from Dr. Hurlburt that was
acceptable to Maxim.48 Maxim's logging file notes that
Collens was happy with the new order.49 Adkins
testified that after that date she was not aware of any
further issue regarding Collens's insulin.
45. Maxim employee Kelly Pajinag was
appointed as Collens's single point of contact. He sent
Collens and his mother contact information and
thereafter began working with Collens regarding
scheduling. He sent Collens and his mother various
schedules through mid-April.50 Adkins testified that
she was not aware of any further issue concerning
Collens having a single point of contact after her
March 9, 2012, meeting with Collens.
46. Adkins and Maxim had a further conference
call regarding making Miller Collens's PCG on March
13, 2012. During the call Adkins stated that she had
spoken with Collens's care coordinator, Shelton, and
that Shelton stated that she was grateful Kevin was
there advocating for the patient and that she had no
concerns. Notes from the call indicated that Darlene,
47

Ex. 1009A, p. 167.

48

Ex. 1092, p. 6.

49

Ex. 1008, p. 12.

50

Exs. 1113, 1115.

64a

from Maxim's legal department, told Adkins that there
was no requirement for anything in writing to make
Miller the PCG, that verbal authorization from the
patient was fine. There was also a discussion that if
Collens moved forward with designating Miller as his
PCG was Maxim good or okay with that decision, and
should Maxim put something in writing. Drafting a
release was also suggested. Later that day Maxim
drafted a form for Collens's and his mother's
signatures making Miller Collens's PCG and, notably,
releasing Maxim from any and all liability for
anything Miller might do. Collens, his mother, and
Miller signed and returned the form later that same
day.51
47. Collens and his mother testified that
following March 13, 2012, things seemed better. Mr.
Pajinag was good about keeping them apprised of the
schedule and both the insulin and PCG issues had
been resolved. Adkins agreed that all of the issues
raised in the March 9, 2012, meeting had been
resolved by March 13, 2012, and that after that date
no one from Maxim informed Collens of any concerns
that Maxim had regarding Mr. Miller, and that no one
from Maxim told Collens of any concerns Maxim had
51

Ex.1009A, p. 180. At trial, Adkins dissembled that the
delay in making Miller Collens's PCG was because Collens had
requested a special form. Collens denied that he requested any
kind of form, stating that he only wanted to know what he needed
to do to designate Miller as his PCG. Adkins' testimony is not
credible, especially in light of the fact that the form expressly
releases Maxim from liability. Clearly this is something that
Maxim wanted, not Collens.

65a

regarding Collens's compliance with his treatment
plan.52
48. Unknown to Collens, on March 13, 2012,
Adkins filed a report with Adult Protective Services
expressing concern with Miller becoming Collens's
PCG.53 APS responded that nothing in Adkins' report
merited investigation.54
49. On March 21, 2012, Maxim's Compliance
Department reported on its findings from the
documents previously forwarded by Adkins.55 The
report indicates that there are numerous clinical,
compliance, and legal concerns. This included staff not
monitoring or noting Collens's blood pressure or other
vital information, staff administering insulin and
narcotics outside of physician orders, missing
narcotics, staff not noting skin lesions, possible double
billing by staff, and other issues. This report caused
Diaz considerable concern, as he admitted at trial. He
wrote an email that same day requesting a further
52

Collens testified that he believed that he was always in
compliance with his physician's treatment plan. He testified that
he liked Dr. Hurlburt and got along well with her. Dr. Hurlburt
concurred. She testified that Collens was intelligent and well
informed about his treatment plan and that there was no evidence
that Collens was ever out of compliance with his treatment plan.
The court finds this testimony credible.
53

Ex. 1009, pp. 175-176.

54

Ex. 1009, pp. 169, 173-174.

55

Ex. 1009A, p. 167.

66a

conference call and stating that "we are in dangerous
territory right now with the liability of this case and
we are going to have to seriously consider discharge."56
The conference call was scheduled for Friday, March
23, 2012. Collens was not informed about any of this.57
50. Friday March 23, 2012, was also the date
that Collens's POC was to be re-certified. The
regulations require that the POC be re-certified every
62 days to insure that nothing about the patient's
condition has changed that might require a change to
the POC. Jencks was scheduled to conduct the recertification visit. Collens was uncomfortable with
Jencks and, accordingly, Miller wrote on his behalf
asking if the re-certification could be rescheduled with
56

Ex. 1009A, p. 169.

57

At trial, defendants argued that the report from
compliance demonstrated that Collens was not complying with the
new insulin order. There is no support for this argument and, in
fact, it is simply not true. First, the records reviewed by
Compliance are for DOS 3/4/12 - 3/10/12. Ex. 1009A, p. 167. Dr.
Hurlburt did not sign the new order until March 12, 2012. Ex.
1092, p. 6. Thus, compliance did not review any records after the
new order was issued, meaning that defendants argument to the
contrary is simply false. Moreover, compliance reported that there
was nothing wrong with the old insulin order, it was merely that
Maxim's staff was misinterpreting the order. Ex. 1029A, p. 159.
Nowhere in the report from compliance does it state that Collens
was not complying with his treatment plan. Moreover, Collens
cannot administer his own insulin or other medications so, unless
Maxim's nurses were conspiring with him, there is no way for him
to act out of compliance with his physician's orders. This was an
additional instance of defendants being less than candid with the
court.

67a

someone else from Maxim.58 Maxim responded that
no-one else was available to conduct the
re-certification visit, that it had to occur on Friday,
and that Collens's nursing services could not be
continued if the re-certification visit did not occur.
Miller immediately wrote back stating that Collens is
dependent on Maxim for nursing services and that
Jencks could come to do the re-certification visit.59
51. Jencks conducted the re-certification visit on
Friday March 23, 2012. On Monday March 26, 2012,
Jencks drafted the re-certification, signed it, and sent
it to Dr. Hurlburt for her signature.60 Dr. Hurlburt
signed and returned the form several days later. The
re-certification expressly notes that Collens still needs
24 PDN services and that "discharge is not
warranted."61

58

Ex. l009A, pp. 137-138. Collens was not the only patient
of Maxim that was not comfortable with Jencks. At least three
patients expressed that they were uncomfortable with Jencks and
asked that she not come into their homes. Ex. 1005. Soon
thereafter, Maxim terminated Jencks for acting unprofessionally
with clients, noting that this had been an ongoing problem. Id.
59

Ex. 1009A, p. 132.

60

Ex. 1097A, pp. 741-753. The fonn notes that Collens
participated in the re-certification visit but would not answer
"satisfaction" questions stating whether or not he was satisfied
with Maxim's care. Collens testified that he was still feeling a
little frustrated from recent events and thought it better to say
nothing.
61

Id.

68a

52. Adkins, Diaz, and others, including various
representatives from Maxim's legal department, held
a conference call on Friday March 23, 2012, in follow
up to the March 21, 2012, compliance report. Notes
from that call designated it as the "fraud call." Diaz
claims that he cannot remember what was discussed.
Adkins also testified that she could not remember
what was discussed.
53. When pressed as to who made the decision
to terminate Collens, Diaz testified that Adkins made
the decision to discharge Collens. Adkins admits that
she made the decision but claims that it was made in
concert with others. She admits that it was likely
made during the Friday March 23, 2012, "fraud call"
since there is no record of any call after that date.
DOCS Jencks did not participate in the decision to
discharge Collens and does not know why that decision
was made.
54. On Monday March 26, 2012, Adkins wrote to
persons from Maxim's legal department asking them
to assist her in drafting a discharge letter. The legal
department sent Adkins a draft discharge letter on
March 29, 2012, asking her to fill in several areas that
were left blank and to return it for their review.62 One
of the blanks to be filled in by Adkins concerned other
agencies that could provide the care Collens needed.
Adkins wrote back to the legal department telling
them "[w]e already know that there are no providers in

62

Ex. 1009A, pp. 122-123.

69a

our area that provide this type of service.''63
Notwithstanding that fact, Adkins filled in the names
of four different agencies. She justified this at trial by
arguing that these agencies hold a license that allows
them to provide this care, they just choose not to.
These agencies provide in home "intermittent"
services, which falls under the same license as PDN
services. None of the agencies listed by Adkins
provides PDN services.
55. Adkins also told legal that she believed that
"this will come across better hand delivered. (Not that
it is going to come across well at all.)"64 On cross
examination, Adkins was asked about this email and
asked to admit that she knew this was going to cause
Collens distress. Adkins dissembled that her only
concern was that it might get lost in the mail. Adkins'
testimony is not credible. Her statement - "not that it
is going to come across well at all" - cannot be
reconciled with her alleged concern about the letter
getting lost in the mail.
56. Adkins called Dr. Hurlburt's office late on
March 29, 2012, and spoke to a nurse. She told the
nurse that Maxim was going to discharge Collens. No
one from Maxim spoke to Dr. Hurlburt. Adkins also
called Shelton on the 29th and informed her that
Maxim was going to discharge Collens. Shelton was
shocked. She had no idea that there was any issue

63

Ex. 1009A, p. 121.

64

Id.

70a

between Maxim and Collens that might cause Maxim
to want to discharge Collens. Shelton asked Adkins to
reconsider. Shelton explained that as Collens's care
coordinator it was her job to mediate any issues
between Collens and Maxim. Adkins told Shelton that
it was above her head as it was a "corporate" decision.
Shelton told Adkins that she did not agree with the
decision.
57. Adkins hand-delivered the discharge letter
to Collens on Friday afternoon, March 30, 2012.
Collens was in bed at the time. Adkins went into
Collens's room with Collens's mother and read the
letter. She then left. Adkins reported to Diaz and the
legal department that she had delivered the letter.65
58. The discharge letter states that Collens is
being "discharged" because "obstacles" have made it
impossible for Maxim to safely and effectively manage
Collens's care.66 No-one ever told Collens what the
alleged "obstacles" were.
59. Collens and his mother were shocked.
Collens felt like the wind had been knocked out of him
and that he might die. Collens worried what might
happen to him, fearing that he might be
institutionalized.
60. The discharge letter states that Maxim had

65

Ex. 1009A, p. 110.

66

Ex. 1020.

71a

discussed the matter with Collens's physician and care
coordinator and that "all parties are in agreement with
this discharge."67 This was not true.68 Shelton did not
agree with the discharge and she told Adkins that she
did not agree with the discharge. Shelton testified that
what Maxim did was both unprofessional and
unethical. No one even spoke to Dr. Hurlburt about
the discharge. Dr. Hurlburt did not agree with the
discharge. She refused to sign an order for the
discharge, even after the fact. Dr. Hurlburt testified
that what Maxim did was unprofessional, unethical,
and immoral. Dr. Hurlburt testified that what Maxim
did put Collens's, health and life at risk. She testified

67

Id. Diaz testified that this statement in the discharge
letter was meant to reflect compliance with Maxim's policies and
procedures. He testified that he assumed Maxim had done so. It
had not.
68

At trial, defendants argued that this misrepresentation
was an oversight. Defendants' argument is not credible. Maxim's
policies and procedures required a physician's order prior to
discharge. Ex. 1101, pp. 56, 105. As Maxim's administrative
officer, Adkins is charged with knowing Maxim's policies and
procedures and ensuring that Maxim complies with those
procedures. Adkins knew that Maxim was required to get a
physician's order prior to discharge and knew that Maxim had not
done so. Regardless of the misrepresentation in the letter,
therefore, Adkins knew that Maxim had not followed its own
policies and procedures. In addition, Diaz testified that the
statement in the discharge was intended to demonstrate
compliance with Maxim's policies and procedures. Given the back
and forth between Adkins and legal over the nuances of the letter,
it is simply not credible that Adkins simply overlooked this
misrepresentation that Maxim had supposedly complied with its
policies and procedures when she knew that they had not.

72a

that it likely caused Collens both emotional distress as
well as actual physical, neurological, or nerve pain. Dr.
Hurlburt testified that Maxim either knew or should
have known that its conduct would cause emotional
distress and pain, The court finds the above testimony
of Shelton and Hurlburt credible.
61. The letter also listed four agencies that
Maxim stated "should be able to provide the level of
care that [Collens] requires."69 This was not true, as
previously discussed.
62. Maxim did not follow its own policies and
procedures in discharging Collens. Its policies required
Maxim to obtain a physician's order prior to
discharge.70 Diaz confirmed that Maxim should have
done so. It did not do so. Dr. Hurlburt refused to sign
an order for discharge even after the fact because she
did not agree with that decision. Maxim's policies and
procedures required it to notify Collens and other
members of Collens's healthcare team, including his
physician and care coordinator, of any concerns that
might lead to discharge or termination, propose a
resolution of those concerns, and attempt to resolve
the issues.71 Again, Diaz confirmed that Maxim should
have done so. It did not do so. Adkins admitted that all
of the issues raised by Collens at their March 9, 2012,

69

Ex.1020.

70

Ex. 1101, pp. 54, 56, 105.

71

Id., pp. 95-96.

73a

meeting (the insulin issue, the PCG issue, and the
single point of contact issue) were resolved by March
13, 2012, and that no-one from Maxim ever told
Collens that Maxim had any unresolved concerns
before discharging him on the 30th.
63. At trial, Adkins dissembled that the
discharge letter itself should be interpreted as her
attempt to work with Collens on the issues of concern
to Maxim. She testified that Collens never tried to
reach out after being served the discharge letter. This
is not true and is not credible. First, Shelton testified
that she practically pleaded with Adkins on the 29th
to mediate any issues before discharging Collens but
Adkins refused. Moreover, Collens did call Maxim's
legal department to question the discharge but the
legal department told him, erroneously, that "the
discharge was sound."72 The discharge was not sound;
it was in violation of Maxim's own policies and
procedures and the rights granted to Collens under the
Patient Rights agreement.
64. On April 3, 2012, Adkins got a call from the
State of Alaska requesting that Maxim give Collens a
longer discharge process so that they could attempt to
keep him safe in the community.73 Collens had earlier
given the State a copy of the discharge letter. Maxim
extended the discharge to April 16, 2012, at 4 p.m.

72

Ex. 1009A, p. 58.

73

Ex. 1008, p. 5.

74a

65. The State of Alaska also requested a copy of
Maxim's policies and procedures.74 However, no one
ever informed the State that the statement in the
discharge letter that Maxim had discussed the
discharge with both Shelton and Dr. Hurlburt and that
both agreed with the discharge - which was meant to
imply compliance with Maxim's policies and
procedures - was not true.
66. Beginning April 16, 2012, at 4 p.m., Collens
was without PDN services. Shelton tried hard to find
replacement services but there was no agency in
Anchorage besides Maxim that provided the PDN
services Collens required. Shelton was able to secure
additional respite hours. Shelton secured slightly more
than 70 additional respite hours per week. Respite
cannot and does not replace PDN services; respite
workers are not licensed to perform the tasks of a
nurse such as working with Collens's ventilator, giving
him insulin or other medications, or any of the
numerous tasks performed by the nurses.
67. Collens was solely dependent on his mother
and Miller for the PDN services Maxim had been
providing. Miller and Collens' s mother had to provide
24 hour care. The situation became stressful and
Miller quit, leaving Collens with no one to provide his
nursing care besides his mother. This created an
emergent situation. Collens's younger brother flew up
from California to help. The situation was intolerable
and the Collens family began to consider moving out of
74

Ex. 1009A, pp. 58-59.

75a

state to obtain nursing services. Mrs. Collens began to
research which states might offer services comparable
to Alaska which would allow Collens to continue to live
independently.
68. Shelton called various State agencies asking
them to apply pressure on Maxim to reinstate Collens.
Eventually Shelton was able to arrange a meeting with
Collens and Maxim in July 2012. Maxim agreed to
reinstate Collens but would only offer 12 hour per-day,
7 days per week care. Shelton and Dr. Hurlburt
testified that Collens needed 24 hour per day care.
Collens felt as though he had no choice. Accordingly, a
new order and POC for 12 hour per day care were
signed and Maxim was to start providing PDN services
in August.
69. August came and went and Maxim provided
no nursing services. September came and went and
still Maxim provided no nursing services. Shelton
testified that it seemed as though Maxim was leading
the Collens family on with no actual intention of
providing the limited services that were promised. The
Collens family was becoming fatigued. Collens's
brother returned to California and Collens and his
mother were once again considering their options.
Finally a nurse showed up unannounced at the
Collens's home at 11 p.m. on October 21, 2012.
However, this was the only nurse Maxim provided and
he could only work 12 hours per day, 4 days per week.
The situation was intolerable and Collens and his
mother had no choice but to leave the state in order for
Collens to obtain the care he needed. Collens and his
76a

mother decided to move to Washington state. Even
though they had no family or friends in Washington, it
was one of the few states that had a program that
would allow Collens to live independently in his home.
70. Shelton helped Collens do some advance
planning but Collens could not actually be admitted to
any program in Washington until he lived there.
Collens was medevac'd to Washington on December 3,
2012. He had an admission visit shortly thereafter and
began receiving services on December 26, 2012.
71. Unlike Alaska, Washington will not allow
two paid care givers in Collens's home at the same
time. Accordingly, Collens is completely dependent on
his elderly mother to assist with his care. In
Washington, Collens started out with PDN services of
16 hours per day. In addition he received PCA
equivalent services for 6 hours per day. Collens
continued to advocate for additional care, filing for
"Exceptions to the Rule." Finally, after two years,
Collens was given PDN services for 23.75 hours per
day. As a result, Collens lost all of his PCA-equivalent
services with the exception of 10 hours per month.
Collens cannot have a nurse in the home during those
10 hours per month that he receives PCA-like services,
and he must use those 10 hours of PCA service.
72. Since January 1, 2015, Collens's services in
Washington have not changed. Collens testified that
he cannot obtain any additional care and he is
dependent on his elderly mother in order to continue
to live independently. In addition, Collens must
77a

contribute at least $120 per month from his SSDI
income toward his care -and usually the amount he
must contribute is between $300 - $400 per month.
Collens did not have to contribute any of his SSDI
toward his care in Alaska. Washington also does not
provide anything equivalent to Alaska's Adult Public
Assistance.
73. Plaintiff called two retained experts at trial,
Jill Friedman; RN, and Stephen Colt, PhD. Ms.
Friedman is a registered nurse, a certified life care
planner, and care coordinator. She coordinates care for
persons with disabilities including quadriplegics. She
provided background information concerning Collens's
disability, his need for two caregivers in the home, and
the programs available to him in Alaska. She also
provided testimony concerning the cost to obtain
replacement services. Finally, she provided testimony
concerning Collens's life expectancy. The court finds
her testimony and opinions to be credible.
74. Dr. Colt was recognized by the court as an
expert economist. He provided testimony concerning
Collens's losses resulting from Maxim's breach of
contract. Dr. Colt's analysis starts with the care
Collens was receiving at the time of Maxim's breach,
at the unit values supplied by Ms. Friedman:
-24 hrs per day of PDN (divided equally between
RN unit value = $80.00 per hr and LPN unit value =

78a

$75.00 per hour)75
per hr

-96 hrs per week PCA care, unit value = $30.00

-10 hrs per week hourly respite services, unit
value = $30.00 per hr (10 hrs/week equates to 2080
15-min units per year)
-14 days per yr daily respite services, unit value
= $263.90 per day
75. Dr. Colt then calculated Collens's losses for
different periods depending on the services Collens
received.
76. Period 1 consists of time in Alaska from
4/16/12 through 10/21/12, during which no nursing
services were provided. During this time Collens
received additional hourly respite care that Dr. Colt
counted as an offset to the nursing services not
provided. The loss of nursing services for this period is
$348,440.00. The value of the additional respite
services was $61,230.00, leaving a loss for this period
of $287,210.00.
77. Period 2 consists of time in Alaska from
10/21/12 through 12/2/12. During this period some
nursing services were provided and, in addition,
Collens received additional respite services which were
75

The unit values for RN and LPN services were the unit
values paid to Maxim prior to breach.

79a

offset from the lost nursing services. Losses for this
period were $34,063.00.
78. Period 3 consists of the transition from
Alaska to Washington, 12/3/2012 through 12/26/2012.
when no services, PDN, PCA or respite, were provided.
The loss of nursing services was $35,030.00. The loss
of PCA and respite services during this period was
$8,744.00.
79. Period 4 consists of time in Washington
when Collens was receiving partial nursing services
and partial PCA services up until the date of trial
12/26/2012 - 6/19/2017. Dr. Colt assumed no further
loss of nursing services beginning 1/1/2015 when
Collens began receiving PDN services of 23.75 hours
per day. The loss of nursing services was $442,215.00.
The loss of PCA and respite services during this period
was $606,123.00.
80. Period 5 consists of future losses from the
date of trial to Collens projected date of death
6/19/2017 - 1/12/2035. Because Dr. Colt assumes no
loss of PDN services once Collens obtained PDN
services of 23.75 hours per day on 1/1/2015, these
losses are limited to lost PCA and respite services. Dr.
Colt discounted all future losses using the most recent
yields on inflation-indexed treasury bonds of varying
maturities to replicate the stream of annual loss
amounts. The discounted losses are PCA
$2,448,249.00, hourly respite $260,570.00, and daily
respite $70,058.00.

80a

81. Dr. Colt also calculated the lost SSDI and
APA income. Dr. Colt used the minimum amount of
lost SSDI that Collens must pay each month rather
than the higher amount that Collens usually pays.
Future losses were again discounted using TIPS as
discussed above. These losses total:
SSDI past $6,521.00 and future $24,038.00; and
APA past $19,672.00 and future $72,514.00.
The total of all past losses is $1,439,578.00, and
the total of all future losses is $2,875,429.00.
82. The court finds that Dr. Colt's opinions
regarding Collens's losses accurately set forth those
losses and are credible.
CONCLUSIONS OF LAW
1. Collens brought claims for breach of contract,
violation of the Unfair Trade Practices Act ("UTPA" or
"Consumer Protection" Act),76 intentional infliction of
emotional distress, misrepresentation. and punitive
damages. The court will address these claims in that
order.
Breach of Contract
2. A definition of contract is set out in the
Restatement (Second) of Contracts at §1:

76

AS 45.50.471 et seq.

81a

A contract is a promise or a set of promises for the
breach of which the law gives a remedy, or the
performance of which the law in some way recognizes
as a duty.77
3. The plaintiff must prove the existence of the
contract. To prove the existence of a contract the
plaintiff must prove that it is more likely true than not
true that the parties (1) expressed mutual assent to
the terms and (2) exchanged consideration. Ordinarily,
mutual assent takes the form of an offer by one party
and acceptance by another party to whom the offer
was directed. Unless otherwise indicated by the
language used or by the circumstances, an offer may
be accepted in any reasonable manner.78 "The usual
test for valuable or sufficient consideration is whether
the promise involved a detriment incurred by the
promisee or a benefit accruing to the promisor at his
request."79
4. In this case, plaintiff alleges that he and
Maxim entered into a contract for PDN services
wherein Maxim offered and agreed to provide PDN

77

See generally 1 S. Williston, A Treatise on the Law of
Contracts § 1 (3d ed. 1966); cf. the Uniform Commercial Code,
regulating the sale of goods in Alaska, which defines a contract as
"the total legal obligation" created by a bargain. AS 45.01.201(11)
(1962) [UCC 1-201(11)].
78

Restatement (Second) of Contracts §§ 29, 52 comment
a; 1 Corbin § 77.
79

Swindel v. Kelly, 499 P.2d 291, 296 n.17 (Alaska 1972).

82a

services as directed by Collens's physician, in exchange
for Collens's assignment of his Medicaid insurance
benefits. The Medicaid insurance benefits were
assigned to Maxim at Maxim's request, allowing
Maxim to bill Medicaid directly for the services
provided. Plaintiff further alleges that Maxim agreed
that he would continue to receive PDN services from
Maxim unless and until his medical needs or health
and safety, or the health and safety of another,
required discharge or transfer out from Maxim's home
health program, or he no longer qualified for or was no
longer paying for (through the assignment) this
service.
5. Defendants argue that there is no contract
because Collens's assignment of his Medicaid benefits
is not adequate consideration. This argument lacks
merit.
6. First, "[i]t is ordinarily not the court's role to
evaluate the adequacy of the consideration agreed
upon by the parties."80 But more importantly, Collens's
assignment of his Medicaid benefits was a significant
"benefit accruing to the promisor [Maxim] at his [its]
request."81 Maxim had the right to receive almost
$700,000.00 in revenue every year by honoring its
promise to Collens. This is a significant benefit that
accrued to Maxim as a result of Collens's assignment

80

Reeves v. Alyeska Pipeline Service Co., 926 P.2d l 130,
1142 (Alaska 1996).
81

Swindel, 499 P.2d at 296 n.17.

83a

of his Medicaid insurance, which was done at Maxim's
request in exchange for the promised services.
7. In addition, defendants' argument ignores the
very nature of Maxim's business. Maxim is a national
home health agency competing against other for-profit
and not-for-profit home health agencies across the
country. Each of these home health agencies is
competing for potential patients/customers like
Collens, many if not most of whom can only pay for
these services by assigning their Medicaid or Medicare
insurance benefits.82 The benefits belong to the
patient/customer. Maxim and the other home health
agencies ask their patients/customers to assign the
benefits to the agency in exchange for the promised
services. This is adequate consideration to form a
contract.83
8. Defendants also argue that the rights it
granted to Collens in the Patient Rights agreement are
not enforceable for lack of consideration because they
had a pre-existing duty to grant those rights. This is
the same argument that defendants made by motion
for summary judgment and it is rejected for all of the

82

"Medicaid is a form of insurance." Maillelle v. State, 276
P.3d 476, 478 (Alaska Ct. App. 2012).
83

It is no different from an insured assigning to an auto
body shop the right to bill the insurer directly for the cost of
repairing a damaged car. These kinds of assignments occur every
day within the context of fully enforceable agreements between
car owners and auto body shops, as well as numerous other legal
relationships.

84a

reasons set forth in the court's summary judgment
denial order, which is incorporated herein by
reference.
9. By way of further explanation; defendants'
argument again ignores the nature of their business
model. The law did not require Maxim to promise that
it would not discharge Collens from its home
healthcare program unless one of the conditions set
forth in paragraph 33 of the Patient Rights agreement
was first met. That is a promise that Maxim made to
its patients that is not required under 7 AAC 12.534
and this promise may well have set Maxim apart from
its competitors. A patient/customer who has the ability
to choose between a home health agency that promises
to not discharge the patient unless his/her medical
needs or health and safety require discharge, and one
that does not make such a promise, may well decide to
choose the former. But regardless of the reason Maxim
decided to make this promise, it is an enforceable
promise. In fact, Adkins and Diaz both admitted that
Maxim had entered into an agreement to provide PDN
services to Collens as may be ordered by his physician,
and that Collens had a right to continue to receive
those services from Maxim unless and until Collens
could be safely discharged pursuant to and in accord
with Maxim's policies and procedures and the rights
granted to Collens in the Patient Rights agreement.
This is an enforceable promise or contract.
10. When interpreting contracts, the court's goal
is to "give effect to the reasonable expectations of the

85a

parties."84 ''Courts look to the language of the contract
as a whole, the objectives sought to be accomplished by
the contract, the circumstances surrounding its
adoption, and case law interpreting its provisions to
ascertain the reasonable expectations of the parties.''85
The interpretation of contract language is a question
of law.86 The court holds that the parties entered into
an enforceable contract for the provision of PDN
services wherein Maxim promised to provide PDN
services as may be ordered by Collens's physician, and
promised that Collens would continue to receive those
services from Maxim unless and until Collens could be
safely discharged from Maxim's home healthcare
program pursuant to and in accord with Maxim's
policies and procedures and the rights set forth in the
Patient Rights agreement.
11. Plaintiff alleges that Maxim breached its
promise when it terminated services on April 16, 2012.
Plaintiff alleges that none of the conditions for
discharge as set forth in the Patient Rights agreement
were met. Plaintiff further alleges that Maxim unfairly
failed to follow its own policies and procedures.
Plaintiff alleges that no reasonable person would

84

Stepanov v. Homer Elec. Ass'n, Inc., 814 P.2d 731, 734
(Alaska 991) (quoting Mitford v. de Lasala, 666 P.2d 1000, 1005
(Alaska 1983)).
85

Monzingo v. Alaska Air Grp., Inc., 112 P.3d 655, 660
(Alaska 2005) (citing Craig Taylor Equip. Co. v. Pettibone Corp.,
659 P.2d 594, 597 (Alaska 1983)).
86

Dugan v. Atlanta Cas. Cos., 113 P.3d 652 (Alaska 2005).

86a

regard what Maxim did to be fair.
12. Over the course this case was pending, as
well as throughout trial, defendants made arguments
that seemed to suggest that they would argue that
Collens's health and safety required discharge. Indeed,
the discharge letter itself states that Collens is being
"discharged" because Maxim could not "safely" care for
him. However, on the last day of defendants' case they
called Adkins as their last witness. Adkins testified
unequivocally that Maxim did not discharge Collens
for any of the reasons set for in paragraph 33 of the
Patient Rights agreement. She admitted that Collens's
medical needs did not necessitate discharge. She
admitted that neither Collens's health and safety nor
the health and safety of anyone else necessitated
discharge. She admitted that Collens had been and
was paying for his services through the Medicaid
assignment and that he was not discharged for
nonpayment. And she admitted that Collens continued
to be qualified for services and he was not discharged
for that reason. She admitted that paragraph 33 of the
Patient Rights Agreement was not the reason Collens
was discharged. Rather, she alleged Collens was
terminated for willfully not complying with Dr.
Hurlburt's treatment plan.
13. There was no evidence to support a claim of
willful noncompliance. Indeed, all of the evidence was
overwhelmingly to the contrary. Dr. Hurlburt testified
unequivocally that Collens always complied with the
treatment plan. Collens testified that he always
complied with Dr. Hurlburt's treatment plan.
87a

Willfulness requires a showing of intent. There was no
evidence to support the conclusion that Collens
willfully failed to comply with his physician's
treatment plan.
14. In addition to breaching the express terms
of the contract, plaintiff alleges that Maxim breached
the covenant of good faith and fair dealing. A covenant
of good faith and fair dealing is an implied component
of all contracts as a matter of law in order to effectuate
the reasonable expectations of the parties to the
agreement.87 The covenant includes subjective and
objective elements, both of which must be satisfied.88
The subjective element prohibits one party from acting
to deprive the other of the benefit of the contract.89 The
objective element requires each party to act in a
manner that a reasonable person would regard as
fair.90
15. Maxim clearly acted to deprive Collens of the
benefit of the contract. Moreover, in terminating
Collens, Maxim failed to follow its own policies and
procedures. Maxim did not obtain a physician order
prior to discharge as required by its policies. Maxim

87

O.K. Lumber v. Providence Washington Ins. Co., 759
P.2d 523, 525 (Alaska 1988).
88

Anchorage Chrysler Center, Inc. v. DaimlerChrysler
Motors Corp., 221 P.3d 977, 993 (Alaska 2009).
89

Id.

90

Id.

88a

never notified Collens that it was concerned that he
was not complying with his treatment plan, or that it
was considering discharge/termination. No reasonable
person would regard as fair Maxim's termination for
alleged willful noncompliance with Collens's treatment
plan when Maxim did not follow its own policies and
procedures and had not notified Collens, Dr. Hurlburt,
or any other member of Collens's healthcare team that
Maxim was concerned about Collens's compliance.
16. In terminating Collens, Maxim breached
both the express terms of the contract as well as the
covenant of good faith and fair dealing.
17. The goal of contract damages is to place the
non-breaching party in as good a position as if the
contract had been fully performed.91 Contract
damages, which are based on the injured party's
expectation interest, are intended to give the party the
benefit of the party's bargain by awarding the party a
sum of money that will, to the extent possible, put the
party in as good a position as the party would have
been in had the contract been performed.92 The general
measure of such damages is (1) the loss in the value to
the party of the other party's performance caused by
its failure or deficiency, plus (2) any other loss,
91

Alyeska Pipeline Serv. Co. v. H.C. Price Co., 694 P.2d
782, 787 (Alaska 1985); Guard v. P&R Enter., Inc., 631 P.2d 1068,
1071 (Alaska 1981); McBain v. Pratt, 514 P.2d 823, 828 (Alaska
1973); Green v. Koslosky, 384 P.2d 951, 952 (Alaska 1963).
92

Restatement (Second) of Contracts § 347 comment a

(1981).

89a

including incidental or consequential loss, caused by
the breach, minus (3) any cost or other loss that the
other party has avoided by not having to perform.93
18. Damages are not recoverable for losses that
the party in breach did not have reason to foresee as a
probable result of the breach when the contract was
made.94 Loss may be foreseeable as a probable result of
a breach because it follows from the breach either in
the ordinary course of events or as a result of special
circumstances, beyond the ordinary course of events,
that the party in breach had reason to know.95
19. Damages are not recoverable for loss beyond
an amount that the evidence permits to be established
with reasonable certainty.96 Regardless of the measure
of general damages deemed proper by the court, the
plaintiff bears the burden of proving facts which afford
a sufficient basis for the court to calculate, with
reasonable certainty, the amount of loss caused by the
defendants; breach. In City of Whittier v. Whittier Fuel

93

Restatement (Second) of Contracts § 347 (1981).

94

Restatement (Second) of Contracts § 351(1) (1981).

95

Restatement (Second) of Contracts § 351(2) (1981); see
also Native Alaska Reclamation & Pest Control; Inc. v. United
Bank of Alaska, 685 P.2d 1211, 121920 (Alaska 1984) (relying on
Restatement § 351).
96

Restatement (Second) of Contracts § 352 (1981).

90a

and Marine Corp.,97 the Alaska Supreme Court
approved this jury instruction:
In all such cases where a party to an
action asks for monetary damages, the
burden is upon that party to show that
he has been injured, and also, with
reasonable certainty and by the best
measure that can be used under the
circumstances, the amount of the
compensatory damages which he claims.
The plaintiff must prove his damages by
a preponderance of the evidence.98
20. The court acknowledged its earlier
statement in Dowling Supply & Equip. v. City of
Anchorage,99 that the rule barring recovery of
uncertain damages is generally directed against
uncertainty with respect to cause and not uncertainty
with respect to amount of damages. Where the
plaintiff can show that an actual loss resulted from
breach of contract, he should be required to introduce
"some competent evidence" of his damages, but should

97

City of Whittier v. Whittier Fuel and Marine Corp., 577
P.2d 216, 225 (Alaska 1978).
98

Id. at 224 n.9.

99

Dowling Supply & Equip. v. City of Anchorage, 490 P.2d
907 (Alaska 1971).

91a

not be held to proving the exact amount of damages.100
21. A party alleging breach of contract has a
duty to mitigate damages.101 "The duty rests on the
party claiming damages but the burden of proving
mitigation or failure to mitigate falls on the breaching
party."102 If the "plaintiff incurs costs in making a
reasonable effort to avoid such losses, [the court] must
make an award to the plaintiff for such costs."103
22. The damages calculated by Dr. Colt are the
proper measure of damages for Maxim's breach.
Collens is entitled to the value of the PDN services
Maxim failed to provide. Collens had a duty to
mitigate or try to replace those PDN services and he
did so. Collens incurred a cost in obtaining
replacement PDN services and the court must make
an award for those costs.
23. Maxim argues that it did not agree to
provide PCA or respite services so should not be liable
for the costs associated with Collens's loss of those
services. Defendants' argument ignores the fact that

100

Id. at 224 n.30 (citing 490 P.2d 909); see also City of
Palmer v. Anderson, 603 P.2d 495, 500 (Alaska 1979).
101

Alaska Children's Services, Inc. v. Smart, 677 P.2d 899,
902 (Alaska 1984).
102

Id.

103

APJI 24.10, cited with approval in K&K Recycling, Inc.
v. Alaska Gold Co., 80 P.3d 702, 719 n. 38 (Alaska 2003).

92a

the loss of PCA and respite services, and the loss of
SSDI and AP A income are "the cost'' of obtaining
replacement PDN services. It is the cost Collens
incurred in mitigating the loss of PDN services. In fact,
if Collens had not secured replacement PDN services,
the damages in this case would be much greater as the
value of the PDN services was almost $700,000.00 per
year. Collens mitigated those losses by obtaining
replacement PDN service and the court must award
Collens the costs he incurred in mitigating his
damages.104
24. Maxim argues that it could not have
anticipated that it would owe Collens services for the
rest of his life. This argument is belied by Adkins' own
testimony. Adkins expressly admitted on more than
one occasion that Maxim knew that, once it admitted
Collens into its home healthcare program, Collens
would remain a patient as long as his doctor continued
to order or authorize PDN services and as long as
Collens continued to comply with his physician's
treatment plan, Defendants knew that Collens's

104

Defendants suggest that they were unaware that they
might be held liable for lost PCA and respite services. This
argument misstates the legal premise upon which the award is
based and also ignores the evidence. Maxim certainly knew that
it would be liable to Collens for the value of the lost PDN services.
It also knew Collens would not be able to find replacement
services in Alaska as it knew there were no other agencies that
provided that service. Ex. 1009A, p. 121. Thus it knew that
Collens would incur costs in obtaining replacement services. It is
not necessary to show that Maxim knew the precise costs Collens
would incur.

93a

condition is permanent. The preponderance of the
evidence before the court demonstrates that Collens
will need and will qualify for PDN services for the rest
of what is projected as his short lifespan.
25. The court awards Collens $1,439,578.00 in
past losses, and $2,875,429.00 in future losses
resulting from Maxim's breach of contract, and breach
of the covenant of good faith and fair dealing. This
award is against Maxim only.
Consumer Protection Act
26. At the conclusion of plaintiff's case,
defendants moved for a directed verdict on all claims.
The court denied the directed verdict motion.
Post-trial, defendants moved for reconsideration of the
court's denial of a directed verdict on plaintiff's UTPA
claim. The court ordered additional briefing on the
motion for reconsideration. The court reaffirms its
decision not to dismiss the UTPA claim and denies
substantive reconsideration of the issue.
27. Defendants argue that Collens did not allege
a UTPA claim in his pro se second amended complaint.
Defendants also argue correctly that Collens did not
amend his complaint to assert a UTPA claim after
counsel began representing Collens. Defendants claim
that they have been prejudiced by the court allowing
an amendment of the pleadings at trial to include the
assertion of a UTPA claim. Defendants also claim that
allowing the UTPA claim to proceed at this late date
would be a violation of the two year statute of
94a

limitations contained in AS 45.50.53 1(f).
28. Yet in his pro se second amended complaint,
Collens alleged misrepresentations that would amount
to a violation of the UTPA if substantiated.
Furthermore, Collens alleged in discovery responses,
dated November 13, 2015: "Defendants failed to meet
their obligations under the contract and ultimately
breached the contract in bad faith by improperly
terminating the contract for false or fictitious reasons,
as more fully discussed in the depositions taken and
documents exchanged in this case." This response, if
proved, would also substantiate a basis for UTPA
liability. Defendants acknowledge that Collens
referenced a claim for UTPA violations in plaintiffs
cross motion for partial summary judgment dated
December 1, 2015. The court authorized multiple
continuances so that defendants could complete
discovery, learn about all of Collens's claims, and
provide expert disclosures. Defendants had adequate
time to discover the nature and extent of Collens's
claims to avoid surprise. Besides, Collens has not
asserted new facts to cause surprise; he has just put
new claims labels on the facts that he has been
asserting throughout the case.
29. Where, as here, parties such as the
defendants had notice of the conduct for which the
opposing party is seeking relief, the opposing party
may recover under any theory supported by the

95a

evidence.105 Thus, it was not necessary for Collens to
amend the complaint to seek relief under the UTPA.
This result is consistent with Civil Rule 54(c), which
provides that "every judgment shall grant the relief to
which the party in whose favor it is rendered is
entitled, even if the party has not demanded such relief
in the pleading."
30. Alternatively, Civil Rule 15(a) permits a
party to amend its pleading within 20 days after it is
served or "by leave of court or by written consent of the
adverse party; and leave shall be freely given when
justice so requires."106 In the absence of a motion filed
on the eve of trial, [l]eave to amend is liberally
granted in Alaska,"107 and the Alaska Supreme Court
has long held that leave should freely be given unless
"it would [result] in an injustice."108 A "pro-amendment
ethos dominates the intent and judicial construction of
Rule 15(a)."109 Even if a party unreasonably delayed
moving to amend, "it is an abuse of discretion to deny
105

L.D.G., Inc. v. Brown, 211 P.3d 1110, 1124 (Alaska
2009, and McCormick v. City of Dillingham, 16 P.3d 735, 743
(Alaska 2001).
106

Alaska R Civ. P. 15(a).

107

Valdez Fisheries Dev. Ass'n, Inc. v. Alyeska Pipeline
Serv. Co., 45 P.3d 657, 671 (Alaska 2002).
108

Thompson's Estate v. Mercedes-Benz, Inc., 514 P.2d
1269, 1271 (Alaska 1973).
109

Miller v. Safeway.. Inc., 102 P.3d 282, 293-94 (Alaska

2004).

96a

leave to amend where the opposing party was not
misled or prejudiced by the amendment."110
31. Here, defendants claim prejudice because
they were not on notice of the UTPA claim when the
witnesses were deposed. UTPA is a remedial civil
statute that is "to be accorded a liberal
construction."111 UTPA requires only two elements to
establish a prima facie case of unfair or deceptive acts
or practices: "(1) that the defendant is engaged in
trade or commerce; and (2) that in the conduct of trade
or commerce, an unfair act or practice has occurred."112
The above elements that the defendants' engaged in
trade or commerce and committed an unfair act or
practice were included in general in the second
amended complaint. Besides, Collens provided
additional indications in discovery responses and in a
cross-motion for summary judgment that he had the
requisites for an UTPA claim. Accordingly, defendants
should have deposed the witnesses regarding any
matters relating to a possible UTPA claim. Indeed,
defendants did conduct deposition discovery that
related to the underlying facts that support the UTPA
claim. Thus, the defendants' claim of prejudice from
the plaintiff's failure to amend the pleadings is
unfounded.

110

Id. at 294.

111

State v. O'Neill Investigations, Inc., 609 P.2d 520, 528
(Alaska 1980).
112

Id. at 534.

97a

32. Alternatively, Civil Rule 15(b) also permits
amendment of the pleadings:
When issues not raised by the pleadings
are tried by express or implied consent of
the parties, they shall be treated in all
respects as if they had been raised in the
pleadings. Such amendment of the
pleadings as may be necessary to cause
them to conform to the evidence and to
raise these issues may be made upon
motion of any party at any time, even
after judgment; but failure so to amend
does not affect the result of the trial of
these issues. If evidence is objected to at
the trial on the ground that it is not
within the issues made by the pleadings,
the court may allow the pleadings to be
amended and shall do so freely when the
presentation of the merits of the action
will be subserved thereby and the
objecting party fails to satisfy the court
that the admission of such evidence
would prejudice the party in maintaining
the party's action or defense upon the
merits.
The Alaska Supreme Court has recognized trial by
consent when the new issue was identified at the
beginning of trial and litigated by both sides,113 but not
113

See Gold Dust Mines, Inc. v. Little Squaw Gold Mining
Co., 299 P.3d 148, 164 (Alaska 2012) (noting that the claim was

98a

when the parties failed to actively litigate the claim114
or when one party did not have the opportunity to
contest it.115 "Application of [Civil Rule 15(b)] is
appropriate ... when evidence supporting the
amendment was offered at trial ... with the opposing
party's express or implied consent...."116 However,
"[i]mplied consent ... is ... difficult to establish and
seems to depend on whether the parties recognized
that an issue not presented by the pleadings entered
the case at trial. If they do not, there is no consent and
the amendment cannot be allowed."117 In determining
implied consent, prejudice to the party opposing
"generally covered in the pleadings" and "actively litigated by both
parties at trial"); Sparks v. Gustafson, 750 P.2d 338, 341-42
(Alaska 1988) ("Although the theories which plaintiffs presented
for trial were murky at best, [defendant's] counsel indicated at the
beginning of trial that he viewed plaintiffs' claim as one for unjust
enrichment and was prepared to try the case as such.").
114

See Tufco, Inc. v. Pac. Envtl. Corp., 113 P.3d 668,
673-74 (Alaska 2005) (noting that "the court refused to find
implied consent to try an issue on which the evidence was brief,
undeveloped, and one[-]sided").
115

Burton v. Fountainhead Development, Inc., 393 P.3d
387, 394 (Alaska 2017). See Hill v. Ames, 606 P.2d 388, 390.
(Alaska 1980) (concluding that the "appellee did not have an
opportunity to put in countervailing evidence on those theories, ...
the court was not apprised that those questions were to be
litigated," and the appellant failed to file a motion to amend).
116

Id. (quoting Alderman v. Iditarod Props., Inc., 32 P.3d
373, 396 (Alaska 2001)).
117

Burton, 393 P.3d at 394 (quoting Tufco, 113 P.3d at

673).

99a

amendment is relevant.118 Nothing in Civil Rule 15(b)
prohibits the superior court from amending the
pleadings sua sponte.119
33. In this case, the parties were aware of the
UTPA claim at the beginning of trial and actively
litigated the claim. The plaintiff mentioned the UTPA
claim in its cross motion for partial summary
judgment. Subsequently, the defendants included the
UTPA claim when it moved for directed verdict on all
claims. The defendants had notice of the UTPA claim
prior to trial, knew that the UTPA was not mentioned
in the second amended complaint, and litigated the
claim anyway. These facts support a finding of implied
consent. As noted above, defendants have shown no
prejudice by the court allowing the presentation of a
UTPA claim.
34. Civil Rule 15(c) governs the application of
the relation back doctrine. It provides that, "whenever
the claim or defense asserted in the amended pleading
arose out of the conduct, transaction or occurrence set
forth or attempted to be set forth in the original
pleading, the amendment relates back to the date of
the original pleading."120 Helpful to the court's analysis
is the mission of the rule:

118

Alderman, 32 P.3d at 396.

119

Ranes & Shine, LLC v. MacDonald Miller Alaska, Inc.,
355 P.3d 503, 514 (Alaska 2015).
120

Alaska R. Civ. P. 15(c).

100a

Rule 15(c) is based on the idea that a
party who is notified of litigation
concerning a given transaction or
occurrence is entitled to no more
protection from statutes of limitations
than one who is informed of the precise
legal description of the rights sought to
be enforced. If the original pleading gives
fair notice of the general fact situation
out of which the claim arises, the
defendant will not be deprived of any
protection which the state statute of
limitations was designed to afford him.121
The touchstone of the relation back doctrine is
fairness. The rules should be liberally construed to
insure that no plaintiff is deprived of his day in court
solely because of the intricacies and technical
limitations of pleading.122 The Alaska Supreme Court's
policy remains that decisions should be rendered on
the merits of the case.123
35. In Magestro v. State, the Alaska Supreme
Court reviewed a denial of leave to amend where the
plaintiff sought to amend the original complaint after

121

Farmer v. State, 788 P.2d 43, 47 (Alaska 1990).

122

Id.

123

Id. (citing Merrill v. Faltin, 430 P.2d 913,915 (Alaska

1967)).

101a

the statute of limitations had run.124 In the original
complaint, Magestro alleged that the State of Alaska
negligently placed a submerged rail car in the
Talkeetna River, where Magestro's boat struck the rail
car and caused injuries.125 After the statute of
limitations had run, Magestro sought to add an
allegation that the State had a duty to keep the river
free of man-made obstructions that pose a danger to
navigation, as the owner of the riverbed where the
accident occurred.126 The Court held that the claims
asserted in the amended complaint relate back under
Rule 15(c).127 The Court explained that the State's
liability was predicated upon the same basic
underlying factual occurrence alleged in the original
complaint, and that the State had been given "all the
notice that the statutes of limitation are intended to
afford."128
36. Similar to Magestro, the UTPA claim in this
case arises from the same facts alleged in the original
complaint, which was within the statute of limitations.
Utilizing the relation back doctrine of Civil Rule 15(c)
as described in the Magestro decision, defendants
argument that the two year statute of limitations set

124

785 P.2d 1211, 1212 (Alaska 1990).

125

Id. at 1211-12.

126

Id. at 1212.

127

Id. at 1214.

128

Id.

102a

forth in AS 45.50.531(f) was violated by the assertion
of the UTPA claim must fail. Defendants had timely
notice of the facts upon which the UTPA claim was
based. The actual assertion of the UTPA relates back
to the date of the original complaint. There was no
violation of the two year statute of limitations.129
37. Alaska's Consumer Protection Act or UTPA
prohibits unfair or deceptive acts or practices in the
conduct of trade or commerce.130 As noted above, the
UTPA is a remedial civil statute that is "to be accorded
a liberal construction."131 To repeat, only "[t]wo
elements must be proved to establish a prima facie
case of unfair or deceptive acts or practices under the
Alaska Act: (1) that the defendant is engaged in trade
or commerce; and (2) that in the conduct of trade or
commerce, an unfair act or practice has occurred."132
38. In keeping with the liberal construction of

129

The court's conclusion is also supported by the precisely
on point case of Shooshanian v. Wagner, 672 P.2d 455, 465
(Alaska 1983), wherein the Alaska Supreme Court reversed a trial
court that had not allowed a UTPA claim to go forward on the
grounds that the amended complaint asserting the UTPA claim
had been filed more than two years after the events in question.
The Supreme Court used the Civil Rule 15(c) doctrine of relation
back to support its decision.
130

AS 45.50.471.

131

State v. O'Neill Investigations, Inc., 609 P.2d 520, 528
(Alaska 1980).
132

Id. at 534.

103a

the Act in general, trade or commerce is liberally
construed to include the selling of any service.133 Thus,
our Court has recognized that a lawyer may be sued
under the UTPA for representing that he had
experience in the sale of businesses and thereafter
failing to properly advise and document the sale of the
plaintiff's business.134 The Court has also recognized
that a hospital may by sued under the UTPA for
sending confusing billing statements to a patient
receiving care paid for through Medicaid.135 In this
case, Maxim is engaged in trade or commerce within
the meaning of the UTPA.
39. Acts or practices are prohibited and
therefore unlawful if they are either unfair or
deceptive, they need not be both. An act or practice is
deceptive if it can be interpreted in a misleading
way.136 The plaintiff is not required to show that the
defendant intended to deceive anyone.137 An act or
practice need not be "deceptive" to be ''unfair."138
Unfairness is determined by a variety of factors,
including
133

See generally APJI 10.02.

134

Jones v. Westbrook, 379 P.3d 963, 970 (Alaska2016).

135

Smallwood v. Central Peninsula General Hospital, 151
P.3d 319, 329 (Alaska 2006).
136

State v. O'Neill, 609 P.2d at 534-535.

137

Id.

138

Id.

104a

(1) whether the practice, without
necessarily having been previously
considered unlawful, offends public policy
as it has been established by statutes,
the common law, or otherwise whether,
in other words, it is within at least the
penumbra of some common-law,
statutory, or other established concept of
unfairness; (2) whether it is immoral,
unethical, oppressive, or unscrupulous;
(3) whether it causes substantial injury
to consumers (or competitors or other
businessmen).139
40. In this case defendants engaged in both
unfair and deceptive acts or practices.
41. Maxim's act or practice in first promising
Collens that he would not be discharged unless it was
medically necessary or required for his health and
safety, and then terminating him, abandoning him,
and leaving him without care in breach of that
promise, was both unfair and deceptive. Contracts in
Alaska are deemed to include a covenant of good faith
and fair dealing. For public policy reasons, the law
requires that the parties to a contract must act in a
manner that a reasonable person would regard as fair.
Maxim breached that covenant as previously stated. It
did so by failing to follow its own policies and
procedures and then by lying about that fact. Its
policies required it to obtain a physician's order prior
139

Id.

105a

to discharge. Not only did Maxim not obtain the
physician's order, but also it did not even speak with
Collens's physician. And then Adkins and Maxim lied
about that fact, falsely stating that they had discussed
the discharge with the physician and that she agreed
with the discharge. Maxim's policies and procedures
also required it to discuss any concerns that might
lead to discharge with Collens and his health team
members in order to resolve those concerns prior to
discharge. Again, Maxim did not give Collens that
opportunity. These acts or practices offend public
policy. That is, they fall within an existing concept of
unfairness that Alaska has established through the
covenant of good faith and fair dealing.
42. Maxim's act or practice in terminating
Collens was also immoral and unethical. Maxim took
one of the most vulnerable residents of our state and
abandoned him without care in violation of an existing
physician's order. In fact, Maxim sent a re-certification
form to the physician asking her to sign and re-certify
that Collens still needed 24 hour PDN care and that
discharge was not warranted, just four days before
discharging Collens under false pretenses. Defendants'
conduct shocks the court's conscience; that conduct
was immoral and unethical.
43. Defendants' wrongful conduct caused
substantial harm. A substantial injury can occur when
a relatively small harm is inflicted on a large number
of people or where a greater harm is inflicted on just
one. Defendants' conduct left Collens with no nursing
care when he needed 24-hour, around the clock,
106a

nursing care. Defendants' conduct put Collens's health,
safety, and life at risk in violation of the Hippocratic
oath that a healthcare provider should do no harm.
Defendants' unfair and deceptive acts and practices
violated the UTPA.140

140

In addition to being unfair and deceptive acts under the
UTPA's catch-all provision, AS 45.50.471(a), at least some of
Maxim's acts or practices also constitute violations of express
prohibitions under the UTPA. See, e.g., Western Star Trucks, Inc.
v. Big Iron Equipment Service, Inc., 101 P.3d 1047 (Alaska 2004).
In Western Star, a manufacturer of commercial trucks (Western
Star) misrepresented the consequences of an oral agreement that
it made with a potential parts and service dealer (Big Iron).
Western Star and Big Iron held meetings which resulted in an
oral agreement, but what was agreed to was disputed. Big Iron
claimed that Western Star promised that Big Iron would be
Western Star's new parts and service dealer for Alaska. Western
Star claimed that it only agreed that Big Iron would be an interim
warranty station and that it would send Big Iron a dealer
application packet. Big Iron submitted the application and began
to perform warranty work. Thereafter Western Star rejected the
application and awarded the dealership to another company.
Big Iron sued Western Star for breach of contract,
promissory estoppel, intentional and negligent misrepresentation,
and unfair trade practices. After a bench trial, Superior Court
Judge Mary E. Greene found for Western Star on the contract and
promissory estoppel claims. But the court found that Big Iron had
proved its claim for negligent misrepresentation, finding that
Western Star "made a false representation when [it] told Big Iron
that they would receive paperwork that was just a 'formality'" The
court also found that this conduct violated AS 45.50.471(b)(14), a
portion of the Unfair Trade Practices and Consumer Protection
Act, which prohibits "representing that an agreement confers or
involves rights, remedies or obligations which it does not confer or
involve, or which are prohibited by law." That decision was
affirmed on appeal.

107a

44. A person who suffers an ascertainable loss
of money or property as a result of another's violation
of the UTPA is entitled to recover three times the
actual damages.141 The Alaska Pattern Jury
Instructions define ascertainable loss as:
The plaintiff suffered a loss of money or
property if he received something other
than what he bargained for. The
plaintiff's loss is ascertainable if it is
measurable even though the precise
amount of the loss is not known.142
45. Collens suffered an ascertainable loss as a
result of defendants' UTPA violations. Collens did not
get what he bargained for, which was PDN services.
Collens's ascertainable loss is the loss awarded by the
court for Maxim's breach of contract. Under AS
45.50.531, Collens is entitled to three times that

Maxim promised Collens that he would not be transferred
or discharged out from its care absent certain circumstances set
forth in paragraph 33 of the Patient Rights agreement. Maxim did
not deny that none of the circumstances for discharge were met.
Rather, it argued that it should not be held to account for breach
of its promise either because it was never a legally enforceable
promise or because it did not foresee that it could be held to this
promise. This is a per se violation of the UTPA, which provides
that it is unlawful to "represent that an agreement confers or
involves rights, remedies, or obligations which it does not confer
or involve, or which are prohibited by law." AS 45.50.471(b)(14).
141

AS 45.50.531.

142

APJI 10.04

108a

amount.
46. Maxim argues that Collens's loss of PDN
services is not a loss of money or property. This
argument assumes an overly narrow and restrictive
interpretation of ascertainable loss. The Court has
stated that the UTPA must be liberally construed.143 It
would make no sense to permit an action for an unfair
act or practice in the provision of a service, which the
UTPA clearly permits, but not allow damages for loss
of the bargained for service. Moreover, the Court has
recently affirmed an award of damages under the
UTPA that applied standard breach of contract
principles, including mitigation principles, and
affirmed an award for loss of use damages.144
47. Collens suffered an ascertainable loss of
PDN services. He was required to mitigate that loss
and he did so. Collens's total ascertainable loss
resulting from defendants' UTPA violations is three
times the damages awarded for breach of contract.
This award is entered jointly and severally against
both defendants.145

143

State v. O'Neill, 609 P.2d at 528.

144

Kenai Chrysler Center, Inc., 167 P.3d at 1250-1258.

145

Adkins is jointly and severally liable for violating the
UTPA because she committed an act or practice that she knew
was unfair or deceptive, i.e., finalizing and delivering to Collens
the termination letter, which contained false statements. APR
10.05 and the authorities cited therein.

109a

Intentional Infliction
Distress (IIED)

of

Emotional

48. "To state a cause of action for IIED, a
plaintiff must establish (1) that the defendant's
conduct was extreme and outrageous, (2) that the
conduct was intentional or reckless, (3) that this
conduct caused the plaintiff emotional distress, and (4)
that the distress was severe."146 Conduct is extreme
and outrageous when it goes beyond all possible
bounds of decency and is regarded as atrocious and
utterly intolerable in a civilized community.147
Employing this standard, the Alaska Supreme Court
has stated that an employer's pursuit of a vendetta
against an employee is sufficient to state a claim of
IIED.148
49. The court finds that plaintiff prevails on his
claim for IIED.149 Defendants, conduct was extreme,

146

Cameron v. Beard, 864 P.2d 538, 548 (Alaska 1993).

147

Id.

148

Id.

149

Defendants would presumably make the same
argument against the IIED claim that they made against the
UTPA claim. In other words, defendants would claim that the
IIED claim was not pled properly and was presented outside of the
statute of limitations. This argument, if made, would fail for the
same reasons that defendants' motion for a directed verdict on the
UTPA claim failed. See also Collens's August 14, 2017, opposition
to defendants' motion to reconsider order denying motion for
directed verdict.

110a

outrageous, and morally reprehensible. Defendants'
conduct was intentional and it caused plaintiff severe
emotional distress. Plaintiff is awarded $400,000.00 on
his IIED claim.150 This award is entered jointly and
severally against both defendants.
Misrepresentation
50.
"The
elements
of
fraudulent
misrepresentation are (1) misrepresentation of fact or
intention, (2) made fraudulently, (3) for the purpose or
with the expectation of inducing another to act in
reliance; and (4) justified reliance by the recipient, (5)
causing loss."151 Defendants made numerous
fraudulent misrepresentations in this case as detailed
in the court's findings of fact. These
misrepresentations were made with the purpose or
expectation that Collens would act in reliance and
Collens did justifiably act in reliance to his detriment
causing him loss. However, the loss Collens suffered in
reliance upon defendants' misrepresentations have
already been awarded under Collens's claim for breach

150

This award does not violate the non-economic damages
cap of $400,000.00 in AS 09.17010. Besides, the cap applies only
to non-economic damage claims resulting from personal injury or
wrongful death claims. An IIED claim for non-economic damages
is not a personal injury or wrongful death claim. Thus, it is not
covered by the cap in any event.
151

Taylor v. Wells Fargo Home Mortg., 301 P.3d 182,
191-92 (Alaska 2013) (citing Asher v. Alkan Shelter, LLC, 212 P.3d
772, 782 (Alaska 2009)); see also Restatement (Second) of Torts §
525 (1977).

111a

of contract. It is axiomatic that a party cannot recover
twice for the same damage, absent a specific provision
for doubling an award which is not applicable here.
Therefore, in addition to the damages already awarded
by the Court, the Court awards Collens nominal
damages of $1.00 on his misrepresentation claim.
Punitive Damages
51. Plaintiff is entitled to an award of punitive
damages for a breach of contract if the conduct
constituting the breach is also a tort for which punitive
damages are recoverable.152 This is true even if only
nominal damages would be appropriate for the
underlying tort.153 Both plaintiff's misrepresentation
claim and IIED claim are tort claims that support an
award of punitive damages.
52. In order to receive punitive damages, the
plaintiff must prove by clear and convincing evidence
that the wrongdoer's conduct was outrageous, such as
acts done with malice or bad motives or a reckless

152

McKibben v. Mohawk Oil Co., Ltd., 667 P.2d 1223, 1231
(Alaska 1983).
153

Anchorage Chrysler Center, 221 P.3d at 994 (Because
he could not prove actual damages, plaintiff entitled to only
nominal damages for tort of misrepresentation. But because such
conduct constituted a breach of the implied covenant, case is
remanded for consideration of punitive damages).

112a

indifference to the interests of another person.154
Actual malice need not be proved. Rather, reckless
indifference to the rights of others and conscious action
in deliberate disregard of them may provide the
necessary state of mind to justify a punitive damage
award.155 Reckless misconduct does not occur unless
the act or omission is itself intended, notwithstanding
that the actor knew of facts which would lead any
reasonable person to realize the extreme risk to which
it subjected the safety of others.156 Reckless misconduct
therefore differs from negligence, because reckless
conduct requires a conscious choice of action.157
Punitive damages are not awarded for mere
inadvertence, mistake, errors in judgment and the
like, which constitute ordinary negligence, but are
restricted to conduct involving some measure of
outrage similar to that usually found in crime.158
53. Plaintiff has the burden of proving a
punitive damage claim by clear and convincing
154

Brandner v. Hudson, 171 P.3d 83, 89 (Alaska 2007);
Chizmar v. Mackie, 896 P.2d 196, 210 (Alaska 1995); AS
09.17.020(b).
155

Wal-Mart, Inc. v. Stewart, 990 P.2d 626, 636 (Alaska

1999).
156

Hayes v. Xerox Corp., 718 P.2d 929, 935 (Alaska 1986)
(quoting Restatement (Second) of Torts § 500, comment b).
157

Id. See also Chizmar, 896 P.2d at 210.

158

Pederson v. Barnes, 139 P.3d 552, 563 (Alaska 2006)
(quoting Restatement (Second) of Torts § 908, comment b).

113a

evidence.159 Clear and convincing proof is evidence
establishing that something is highly probable.160
Other Alaska cases state that clear and convincing
evidence is evidence that "produces a firm belief or
conviction about the existence of the fact."161
54. Plaintiff has proved his entitlement to
punitive damages by clear and convincing evidence.
Defendants' conduct was both outrageous and
demonstrated a reckless indifference toward plaintiffs
health and safety. Defendants, conduct was
unprofessional, unethical, and immoral. Defendants
intentionally abandoned their patient against the
order of his physician, and recklessly put his life at
risk. In addition to the previous damage awards, an
award of punitive damages of $500,000.00 is necessary
both as punishment and as a deterrent to prevent
defendants and others from repeating the offensive
conduct. This award is entered jointly and severally
against both defendants.
55. Collens is the prevailing party and shall

159

AS 09.17.020.

160

In re Reinstatement of Wiederholt, 89 P.3d 771, 772 n.
6 (Alaska 2004). See also Denuptiis v. Unocal Corp., 63 P.3d 272,
275 n. 3 (Alaska 2003); Spenard Action Committee v. Lot 3, Block
I, 902 P.2d 766, 774 n.3 (Alaska 1995); Curran v. Mount, 657 P.2d
389, 391 n. 4 (Alaska 1982).
161

In re Johnstone, 2 P.3d 1226, 1234 (Alaska 2000);
Alaska Marine Pilots v. Hendsch, 950 P.2d 98, 111 (Alaska 1997);
Buster v. Gale, 866 P .2d 837, 844 (Alaska 1994).

114a

submit within 10 days a proposed form of judgment
consistent with the findings and conclusions set forth
herein. Collens may file a motion for attorney's fees
within 10 days of the entry of judgment. Within that
10 day time frame, Collens may also file a Civil Rule
79 bill of costs.
Dated this 24th day of August, 2017, at
Anchorage, Alaska.
/s/
FRANK A. PFIFFNER
Superior Court Judge
I certify that on 8-24-17 a copy
of the above was mailed to the following
at their address of record:
M. Stehle
R. Hozubin
/s/
B. Cavanaugh, Judicial Assistant

115a

APPENDIX D
IN THE SUPERIOR COURT FOR
THE STATE OF ALASKA
THIRD JUDICIAL DISTRICT AT ANCHORAGE
RECEIVED
MAY 15 2017
Hozubin Moberly lynch & Assoc.
JESSE MICHAEL COLLENS,
Plaintiff,
vs.
ALAINA ADKINS & MAXIM
HEALTHCARE SERVICES, INC.,
Defendants.
Case No. 3AN-14-5961 CI
ORDER
On May 1, 2017, this court granted defendants'
request for reconsideration of the court's April 12,
2017, order striking all of the defendants' proposed
experts from testifying at trial. The court ordered
further briefing. Plaintiff filed an opposition to the
motion for reconsideration on May 8, 2017. Defendants
filed a reply on May 11, 2017. Having considered the
additional arguments of the parties, the court
116a

reaffirms its April 12, 2017, order striking defendants'
experts from testifying a trial.
As noted by the Alaska Supreme Court in Yukon
Equipment, Inc. v. Drott Manufacturing Co.,1 trial
courts have discretion to exclude expert witnesses
when a party fails to identify the expert timely on a
witness list as required by a pre-trial order. The
burden is on the party seeking relief from the
requirements of a pre-trial order to show manifest
injustice if relief is not granted.2 Before the trial court
imposes extreme sanctions of imposing liability,
establishing the outcome or precluding evidence on a
central trial issue, or ending the litigation entirely, the
trial court must make findings to show willful
noncompliance with the court order, extreme
circumstances, or gross violations of the rules.3 The
record must also clearly indicate a reasonable
exploration of possible and meaningful alternatives.4
While the court's April 12, 2017, order is not an
extreme sanction for the reasons explained below, the
court makes the necessary findings to support the
sanction, if it were extreme.

1

660 P.2d 428, 431-32 (Alaska 1983); overruled on other
grounds, Williford v. L.J. Carr Investments, Inc., 783 P.2d 235
(Alaska 1989).
2

Sykes v. Melba Creek Min., Inc., 952 P.2d 1164, 1169
(Alaska 1998).
3

Id. at 1169.

4

Id. at 1170.

117a

In this case plaintiff's May 8, 2017, eighteen
page opposition memorandum to the motion to
reconsider lays out the factual circumstances that have
led to the present expert preclusions order. This case
has been continued four times. Last fall the defendants
failed to meet court-ordered expert witness deadlines.
Rather than enter sanctions, the court continued the
case for a lengthy period of time so that defendants
could get new experts and/or conduct discovery
involving plaintiff's experts.
Shockingly, defendants did virtually nothing
before the next round of deadlines. While defendants
belatedly named experts, defendants filed no expert
report by the new court ordered deadline and got no
court order to extend the deadlines. There was no
agreement of the parties to extend the deadlines. Even
with the missed deadline for expert reports,
defendants have now still done nothing to produce
expert reports.
In all of the briefing defendants' counsel has
offered no cogent explanation for her egregious conduct
in failing to follow the pre-trial order. Defendants'
reply memorandum in support of the motion for
reconsideration reads like the words or a batterer who
blames the victim for his acts of domestic violence.
Defendants blame plaintiff for not having updated his
expert reports to correct inaccuracies in the reports.
Yet defendants offer no justification for their failure to
follow the court's pre-trial orders at least twice.
The court finds that defendants' failure to file
118a

expert reports was willful non-compliance with court
orders and a gross violation of the rules. Civil Rule
37(b) justifies the sanctions that the court has imposed
through Civil Rule 16(t).
The court has considered meaningful
alternatives. The court granted defendants the third
continuance of the trial so defendants could get new
experts and obtain expert reports. Instead, defendants
did virtually nothing over an extended period of time.
What else can a court do?
Besides the extreme prejudice claimed by
defendants is overdone. The sanctions order is not
extreme. Defendants may still call all of the Maxim
Healthcare employees it has listed on its witness list
Those employees have various areas of expertise. They
can testify on any of the liability and damage issue
related to plaintiff's care and the cost of that care as
well as related to potential contractual and tort
liability issues. In addition, defense counsel has the
full ability to cross-examine plaintiff's experts. In their
recent reply memorandum, the defendants have
pointed out several perceived errors made by Ms.
Friedman, plaintiff's life care plan expert.
The court has to balance the prejudice caused by
defendants' unexcused and egregious failure to file
expert reports. There is prejudice to the other side.
Plaintiff is a C-1 quadriplegic who has also allegedly
been deprived of contractually required care from
defendants. Plaintiff deserves his day in court now
rather than having to suffer through another
119a

continuance and another year of delay.
This case is scheduled for trial commencing
June 19, 2017. It is completely unrealistic and
unreasonable for the court to allow belated defense
expert reports, discovery related to those reports, and
a trial that proceeds on June 19. Given the court's
crowded calendar, a short continuance is not possible.
If the court continued this case for a fifth time, the
delay would be at least one year. And the court has
certainly not heard the defendants agree to pay the
substantial sanctions that the court would surely
impose for another continuance.
For the reasons set forth herein and in the
plaintiff's various memoranda, the court declines to set
aside its April 12, 2017, order. The case will proceed to
trial on June 19, 2017, as scheduled.
Dated this 15th day of May, 2017, at Anchorage,
Alaska.
/s/
FRANK A. PFIFFNER
Superior Court Judge
I certify that on 5-15-17 a copy
of the above was mailed to the following
at their address of record:
M. Stehle
R. Hozubin
120a

/s/
B. Cavanaugh, Judicial Assistant

121a

APPENDIX E
In the Supreme Court of the State of Alaska
Alaina Adkins and Maxim Healthcare
Services, Inc.,
Appellants,
v.
Jesse Michael Collens,
Appellee.
Trial Court Case No. 3AN-14-05961CI
Supreme Court No. S-16930
Order
Petition for Rehearing
Date of Order: 8/21/19
Before: Bolger, Chief Justice, Winfree, Stowers,
Maassen, and Carney, Justices.
On consideration of the Petition for Rehearing
filed on 7 /22/19, and the opposition filed on 8/2/19,
IT IS ORDERED:
The Petition for Rehearing is DENIED.
122a

Entered by the direction of the court.
Clerk of the Appellate Courts
/s/
Meredith Montgomery
cc:

Supreme Court Justices
Judge Morse
Trial Court Appeals Clerk
Publishers (Opinion #7386, dated 7/12/19)

Distribution:
Fisher, Gregory
Leonard, Kristal
Bajwa, Nicholas
Feldman, Jeffrey
Orlansky, Susan
Stehle, Michael
Holmes, Roger
Tiemessen, John

123a

APPENDIX F
IN THE SUPERIOR COURT FOR
THE STATE OF ALASKA
THIRD JUDICIAL DISTRICT AT ANCHORAGE
JESSE MICHAEL COLLEN,
Plaintiff,
vs.
ALAINA ADKINS, and MAXIM
HEALTHCARE SERVICES, INC.,
Defendants.
Case No. 3AN-14-5961 CI
AMENDED FINAL JUDGMENT
It is ordered that judgment is entered as follows:
1. Plaintiff Jesse M. Collens, d/o/b: 1/12/1988, shall
recover from and have a judgment against defendants
Alaina D. Adkins, d/o/b: 4/14/1981, and Maxim
Healthcare Services, Inc., jointly and severally, as
follows:
a.

Principal Amount

124a

$13,345,022.00

b.

Prejudgment Interest on
$4,718,734.00 computed at
the annual rate of 4.25%
from 4/16/2012 on
$4,318,734.00
($1,000,703.91) and from
4/14/2014 on $400,000.00
($58,778.08) to the date of
judgment

c.

Punitive Damage Award

d.

Sub-Total

e.

Attorney's Fees
Date Awarded: 12/15/2017
Judge: Frank Pfiffner

f.

$ 1,059,481.99
$ 500,000.00
$14,904,503.99

Costs
Date Awarded: 11/14/17
Clerk of Court /s/

$5,676,668.17

23,555.80

g.

SUB-TOTAL JUDGMENT

20,604,727.96

h.

Subtract Judgment in
favor of State from line 2.b.

($225,000.00)

I.

TOTAL JUDGMENT

20,379,727.96

j.

Post-judgment interest
rate: 4.25%

2.

50% of Punitive Damage
Award

125a

$250,000.00

a.

Subtract attorney's fees
and costs apportioned to
State

($25,000.00)

b.

Judgment in favor of the
State of Alaska

$225,000.00

c.

Post-judgment interest
rate: 4.25%

Dates this 26th day of September, 2017, at
Anchorage, Alaska.
/s/
FRANK A. PFIFFNER
Superior Court Judge
I certify that on 9-26-17 a copy
of the above was mailed to the following
at their address of record:
M. Stehle, R. Hozubin
12-18-17
M. Stehle, G. Fischer, R. Botstein
Resent 11/14/17
/s/
B. Cavanaugh, Judicial Assistant

126a

APPENDIX G
IN THE SUPREME COURT OF
THE STATE OF ALASKA
[DATE STAMP]
FILED
MAY 15 2018
APPELLATE COURTS
OF THE
STATE OF ALASKA
ALAINA ADKINS and MAXIM,
HEALTHCARE SERVICES, INC.,
Appellants,
v.
JESSE MICHAEL COLLINS,
Appellee.
Supreme Court No. S-16930
Superior Court No. 3AN-14-05961CI
APPEAL FROM A FINAL JUDGMENT OF THE
SUPERIOR COURT THIRD JUDICIAL DISTRICT
AT ANCHORAGE, THE HONORABLE JUDGE
FRANK A. PFIFFNER, PRESIDING
BRIEF OF APPELLANTS ALAINA ADKINS
AND MAXIM HEALTHCARE SERVICES, INC.
127a

Filed in the Supreme Court
May 9, 2018.
______________________, Clerk
By: /s/

Deputy Clerk

/s/
Gregory S. Fisher, ABA No. 9111084
/s/
Nicholas I. Bajwa, ABA No. 0705015
DAVIS WRIGHT TREMAINE LLP
188 W. Northern Lights Blvd., Ste. 1100
Anchorage, AK 99503
Telephone: 907-257-5300
Fax: 907-257-5399
Attorneys for Appellants

128a

AUTHORITIES PRINCIPALLY RELIED UPON
ALASKA STATUTES
Sec. 08.70.155. Grounds for imposition of
disciplinary sanctions.
The department may impose the disciplinary sanctions
authorized for boards under AS 08.01.075 or otherwise
authorized for the department under AS 08.01 when it
finds that a licensee
(1) secured a license through deceit, fraud, or
intentional misrepresentation;
(2) engaged in deceit, fraud, or intentional
misrepresentation in the course of providing
professional services or engaging in professional
activities;
(3) advertised professional services in a false or
misleading manner;
(4) intentionally or negligently engaged in or
permitted the performance of patient care by persons
under the licensees supervision that does not conform
to minimum professional standards regardless of
whether actual injury to the patient occurred;
(5) failed to comply with this chapter, with a
regulation adopted under this chapter, or with an
order of the department;
(6) continued to practice after becoming unfit
due to
(A) professional incompetence;
(B) addiction or severe dependency on
alcohol or other drugs that impairs the
licensees ability to practice safely;
(C) physical or mental disability;
129a

(7) sold or furnished a license to another;
(8) practiced as a nursing home administrator or
used a designation tending to imply that the licensee
is a nursing home administrator without a license
issued under this chapter unless exempted from
licensure requirements under AS 08.70.080.
Sec. 45.50.471. Unlawful acts and practices.
(a) Unfair methods of competition and unfair or
deceptive acts or practices in the conduct of trade or
commerce are declared to be unlawful.
(b) The terms “unfair methods of competition” and
“unfair or deceptive acts or practices” include the
following acts:
(1) fraudulently conveying or transferring goods
or services by representing them to be those of
another;
(2) falsely representing or designating the
geographic origin of goods or services;
(3) causing a likelihood of confusion or
misunderstanding as to the source, sponsorship, or
approval, or another persons affiliation, connection, or
association with or certification of goods or services;
(4) representing that goods or services have
sponsorship, approval, characteristics, ingredients,
uses, benefits, or quantities that they do not have or
that a person has a sponsorship, approval, status,
affiliation, or connection that the person does not have;
(5) representing that goods are original or new
if they are deteriorated, altered, reconditioned,
reclaimed, used, secondhand, or seconds;
(6) representing that goods or services are of a
particular standard, quality, or grade, or that goods
130a

are of a particular style or model, if they are of
another;
(7) disparaging the goods, services, or business
of another by false or misleading representation of
fact;
(8) advertising goods or services with intent not
to sell them as advertised;
(9) advertising goods or services with intent not
to supply reasonable expectable public demand, unless
the advertisement prominently discloses a limitation
of quantity;
(10) making false or misleading statements of
fact concerning the reasons for, existence of, or
amounts of price reductions;
(11) engaging in any other conduct creating a
likelihood of confusion or of misunderstanding and
that misleads, deceives, or damages a buyer or a
competitor in connection with the sale or
advertisement of goods or services;
(12) using or employing deception, fraud, false
pretense, false promise, misrepresentation, or
knowingly concealing, suppressing, or omitting a
material fact with intent that others rely upon the
concealment, suppression, or omission in connection
with the sale or advertisement of goods or services
whether or not a person has in fact been misled,
deceived, or damaged;
(13) failing to deliver to the customer at the time
of an installment sale of goods or services, a written
order, contract, or receipt setting out the name and
address of the seller and the name and address of the
organization that the seller represents, and all of the
terms and conditions of the sale, including a
131a

description of the goods or services, which must be
stated in readable, clear, and unambiguous language;
(14) representing that an agreement confers or
involves rights, remedies, or obligations that it does
not confer or involve, or that are prohibited by law;
(15) knowingly making false or misleading
statements concerning the need for parts, replacement,
or repair service;
(16) misrepresenting the authority of a
salesman, representative, or agent to negotiate the
final terms of a consumer transaction;
(17) basing a charge for repair in whole or in
part on a guaranty or warranty rather than on the
actual value of the actual repairs made or work to be
performed on the item without stating separately the
charges for the work and the charge for the guaranty
or warranty, if any;
(18) disconnecting, turning back, or resetting
the odometer of a vehicle to reduce the number of
miles indicated;
(19) using a chain referral sales plan by
inducing or attempting to induce a consumer to enter
into a contract by offering a rebate, discount,
commission, or other consideration, contingent upon
the happening of a future event, on the condition that
the consumer either sells, or gives information or
assistance for the purpose of leading to a sale by the
seller of the same or related goods;
(20) selling or offering to sell a right of
participation in a chain distributor scheme;
(21) selling, falsely representing, or advertising
meat, fish, or poultry that has been frozen as fresh
food;
132a

(22) failing to comply with AS 45.02.350;
(23) failing to comply with AS 45.45.130 —
45.45.240;
(24) counseling, consulting, or arranging for
future services relating to the disposition of a body
upon death whereby certain personal property, not
including cemetery lots and markers, will be furnished
or the professional services of a funeral director or
embalmer will be furnished, unless the person
receiving money or property deposits the money or
property, and money or property is received, within
five days of its receipt, in a trust in a financial
institution whose deposits are insured by an
instrumentality of the federal government designating
the institution as the trustee as a separate trust in the
name only of the person on whose behalf the
arrangements are made with a provision that the
money or property may only be applied to the purchase
of designated merchandise or services and should the
money or property deposited and any accrued interest
not be used for the purposes intended on the death of
the person on whose behalf the arrangements are
made, all money or property in the trust shall become
part of that persons estate; upon demand by the
person on whose behalf the arrangements are made,
all money or property in the trust, including accrued
interest, shall be paid to that person; this paragraph
does not prohibit the charging of a separate fee for
consultation, counseling, or arrangement services if
the fee is disclosed to the person making the
arrangement; any arrangement under this paragraph
that would constitute a contract of insurance under AS
21 is subject to the provisions of AS 21;
133a

(25) failing to comply with the terms of AS
45.50.800 — 45.50.850 (Alaska Gasoline Products
Leasing Act);
(26) failing to comply with AS 45.30 relating to
mobile home warranties and mobile home parks;
(27) failing to comply with AS 14.48.060(b)(13);
(28) dealing in hearing aids and failing to
comply with AS 08.55;
(29) violating AS 45.45.910(a), (b), or (c);
(30) failing to comply with AS 45.50.473;
(31) violating the provisions of AS 45.45.400;
(32) knowingly selling a reproduction of a piece
of art or handicraft that was made by a resident of the
state unless the reproduction is clearly labeled as a
reproduction; in this paragraph, “reproduction” means
a copy of an original if the copy is
(A) substantially the same as the
original; and
(B) not made by the person who made the
original;
(33) violating AS 08.66 (motor vehicle dealers);
(34) violating AS 08.66.260 08.66.350 (motor
vehicle buyers” agents);
(35) violating AS 45.63 (solicitations by
telephonic means);
(36) violating AS 45.68 (charitable solicitations);
(37) violating AS 45.50.474 (on board
promotions);
(38) referring a person to a dentist or a dental
practice that has paid or will pay a fee for the referral
unless the person making the referral discloses at the
time the referral is made that the dentist or dental
practice has paid or will pay a fee based on the
134a

referral;
(39) advertising that a person can receive a
referral to a dentist or a dental practice without
disclosing in the advertising that the dentist or dental
practice to which the person is referred has paid or will
pay a fee based on the referral if, in fact, the dentist or
dental practice to which the person is referred has paid
or will pay a fee based on the referral;
(40) violating AS 45.50.477(a)(c);
(41) failing to comply with AS 45.50.475;
(42) violating AS 45.35 (lease-purchase
agreements);
(43) violating AS 45.25.400 — 45.25.590 (motor
vehicle dealer practices);
(44) violating AS 45.66 (sale of business
opportunities);
(45) violating AS 08.18.023(b) or 08.18.152;
(46) violating AS 45.50.479 (limitations on electronic
mail);
(47) violating AS 17.06.010 (sale of, or offering
to sell, organic food);
(48) violating a labeling or advertising provision
of AS 17.20 (Alaska Food, Drug, and Cosmetic Act);
(49) violating AS 45.45.920 (free trial period);
(50) violating AS 45.45.930 (opt-out marketing
plans);
(51) violating AS 45.45.792 (deceptive acts or
practices relating to spyware);
(52) violating AS 06.60.340 (mortgage lending
regulation);
(53) offering a check, through the mail or by
other means, to promote goods or services, if the
cashing or deposit of the check obligates the endorser
135a

or payee identified on the check to pay for goods or
services; in this paragraph, “services” does not include
the extension of credit or the lending of money;
(54) violating AS 45.65.055 (authentic Alaska
Native art identification seals);
(55) an information collector, other than a
governmental agency, violating AS 45.48.010 —
45.48.090 (breach of security involving personal
information); in this paragraph,
(A) “governmental agency” has the
meaning given in AS 45.48.090;
(B) “information collector” has the
meaning given in AS 45.48.090;
(56) violating AS 45.27 (marine products and
motorized recreational products);
(57) violating AS 45.45.450 45.45.459 (rental car
fees).
(c) The unlawful acts and practices listed in (b) of this
section are in addition to and do not limit the types of
unlawful acts and practices actionable at common law
or under other state statutes.
(d) [Repealed, § 21 ch 166 SLA 1978.]
Sec. 45.50.481. Exemptions.
(a) Nothing in AS 45.50.471 — 45.50.561 applies to
(1) an act or transaction regulated by a statute
or regulation administered by the state, including a
state regulatory board or commission, unless the
statute or regulation does not prohibit the practices
declared unlawful in AS 45.50.471;
(2) an act done by the publisher, owner, agent,
or employee of a newspaper, periodical, or radio or
television station in the publication or dissemination
136a

of an advertisement, when the owner, agent, or
employee did not have knowledge of the false,
misleading, or deceptive character of the
advertisement or did not have a direct financial
interest in the sale or distribution of the advertised
product or service;
(3) an act or transaction regulated under AS
21.36 or AS 06.05 or a regulation adopted under the
authority of those chapters.
(b) The exemption in (a)(3) of this section does not
apply to an act or transaction between a bank and its
borrowers, depositors, or other customers or potential
customers.
(c) The exemption in (a)(1) of this section does not
apply to an act or transaction listed in AS 45.50.471(b)
or regulated under AS 06.60.
Sec. 45.50.531. Private and class actions.
(a) A person who suffers an ascertainable loss of
money or property as a result of another persons act or
practice declared unlawful by AS 45.50.471 may bring
a civil action to recover for each unlawful act or
practice three times the actual damages or $500,
whichever is greater. The court may provide other
relief it considers necessary and proper. Nothing in
this subsection prevents a person who brings an action
under this subsection from pursuing other remedies
available under other law, including common law.
(b) [Repealed, § 4 ch 31 SLA 1987.](c) Upon
commencement of an action brought under this section
the clerk of the court shall mail a copy of the complaint
or other initial pleading to the attorney general and,
upon entry of an order or judgment in the action, shall
137a

mail a copy of the order or judgment to the attorney
general.
(d) [Repealed, § 4 ch 31 SLA 1987.](e) A permanent
injunction or final judgment against a person against
whom an action was initiated under AS 45.50.501 is
prima facie evidence in an action brought under this
section that the person used or employed an act or
practice declared unlawful by AS 45.50.471.
(f) A person may not commence an action under this
section more than two years after the person discovers
or reasonably should have discovered that the loss
resulted from an act or practice declared unlawful by
AS 45.50.471.
(g) [Repealed, § 6 ch 96 SLA 1998.] (h) If the basis for
the action is the fault of the manufacturer or supplier
of the merchandise, the manufacturer or supplier who
is at fault is liable for the damages awarded against
the retailer under this section.
(I) If a person receives an award of punitive damages
under (a) of this section, the court shall require that 50
percent of the award be deposited into the general
fund of the state under AS 09.17.020(j). This
subsection does not grant the state the right to file or
join a civil action to recover punitive damages.
Sec. 45.50.537. Attorney fees, costs, and damages.
(a) In an action brought by a private person under AS
45.50.471 45.50.561, a prevailing plaintiff shall be
awarded costs as provided by court rule and full
reasonable attorney fees at the prevailing reasonable
rate.
(b) Unless the action is found to be frivolous, in an
action brought by a private person under AS 45.50.471
138a

45.50.561, a prevailing defendant shall be awarded
attorney fees and costs as provided by court rule. If the
action is found to be frivolous, the attorney fees to be
awarded to the defendant shall be full reasonable
attorney fees at the prevailing reasonable rate.
(c) Notwithstanding the other provisions of this
section, in an action brought by a private person under
AS 45.50.471 45.50.561, if the plaintiff is not the
prevailing party and if the court finds that the action
was brought by the plaintiff to obtain a competitive
business advantage, the court shall award a prevailing
defendant costs as provided by court rule, full
reasonable attorney fees at the prevailing reasonable
rate, and any damages suffered by the prevailing
defendant as a result of the plaintiffs allegations.
(d) In an action brought by the attorney general under
AS 45.50.471 — 45.50.561, if the attorney general
prevails, the state shall be awarded its actual attorney
fees and costs, including costs of investigation, to the
extent those fees and costs are reasonable.
(e) In this section, “frivolous” means
(1) not reasonably based on evidence or on
existing law or a reasonable extension, modification, or
reversal of existing law; or
(2) brought to harass the defendant or to cause
unnecessary delay or needless expense.
Sec. 47.32.090. Complaints; investigation;
retaliation.
(a) A person who believes that an entity has violated
an applicable statute or regulation or a condition of a
license issued under this chapter may file a verbal or
written complaint with the department.
139a

(b) The department may investigate a complaint filed
under this section. The department may decline to
investigate a complaint if the department reasonably
concludes and documents that the complaint is
without merit based on information available to the
department at the time of the complaint. The
department may consolidate complaints if the
department concludes that a single investigation
would further the efficient administration of this
chapter.
(c) A licensed entity may not take retaliatory action
against a person who files a complaint. Except as
provided in AS 47.05.350 and AS 47.32.160, a
complainant against whom a retaliatory action has
been taken may recover treble damages in a civil
action upon a showing that the action was taken in
retaliation for the filing of a complaint.
Sec. 47.32.900. Definitions.
(10) “home health agency” means a public agency or
private organization, or a subdivision of a public
agency or private organization, that primarily engages
in providing skilled nursing services in combination
with physical therapy, occupational therapy, speech
therapy, or services provided by a home health aide to
an individual in the individuals home, an assisted
living home, or another residential setting; in this
paragraph,

140a

JURISDICTIONAL STATEMENT
The Superior Court had jurisdiction under AS
22.10.020. The Superior Court entered its findings of
fact and conclusions of law on August 24, 2017. [Exc.
264, CR 003662].1 The Superior Court entered
judgment on September 26, 2017. [Exc. 338, CR
004605]. Maxim Healthcare filed timely post-judgment
motions including a Combined Rule 52(b) and Rule 59
Post-Judgment Motion for Relief on September 29,
2017 [Exc. 340, CR 004502], and a Motion for
Judgment Notwithstanding the Verdict on October 6,
2017. [Exc. 395, CR 004438]. The Superior Court
denied Maxim Healthcare’s post-judgment motions on
December 11, 2017. [CR 004860, CR 004879]. The
amended final judgment was entered on December 15,
2017, and served on December 18, 2017. [Exc. 338, CR
004605]. Maxim Healthcare timely filed its notice of
appeal on December 19, 2017. This Court has
jurisdiction under AS 22.050.010.
I. ISSUES PRESENTED FOR REVIEW
1.Whether the Superior Court erred by
awarding $12.9 million treble damages on an Unfair
Trade Practices Act (“UTPA”) claim, when the specific
allegations of the claim are both regulated and

1

“CR” refers to the trial court docket with the page
number reflecting where the stated proposition may be located.
“Exc.” refers to the Appellant’s Excerpt of Record. “TR” refers to
the trial transcript with the page number corresponding to the
testimony or evidence supporting the proposition.

141a

prohibited by state law (thereby exempting the claim),
and the allegations concern medical care or treatment
(healthcare provision) which is not a “service” under
consumer practice or trade practice claims in almost
every other jurisdiction.
2.Whether UTPA liability may be based on an
alleged misrepresentation when, at the time of
contract formation, there was no actionable
misrepresentation.
3.Whether the Superior Court abused its
discretion by precluding defense experts from
testifying regarding damages because of a late
disclosure of their expert reports, where trial counsel
mistakenly believed she had an agreement to extend
the disclosure deadline, months remained before trial
(thereby affording ample time to cure any problem
from the late disclosure), plaintiff disclosed his expert
reports months later and was allowed to have his
experts testify, and plaintiff’s experts actually
amended their reports during trial itself, yet were not
similarly penalized.
4.Whether the Superior Court erred by
awarding nearly $21 million in total damages for a
healthcare case where there was no death, no serious
injury, no physical injury at all, no objectively
verifiable evidence of any stress, and any alleged
damages were principally if not solely caused by
factors outside of Maxim Healthcare’s control (such as
Collens’ decision to leave Alaska because it was too
dark and cold, his decision to move to another state
142a

where available Medicaid benefits were not as
generous as in Alaska, and chronic nursing shortages
affecting all states).
5.Whether Collens should be required to elect
his remedies as between punitive damages and treble
damages under the election of remedies doctrine, a
rule of law universally observed and applied in nearly
every jurisdiction.
6.Whether the Superior Court erred in awarding
$500,000 in punitive damages and $400,000 in noneconomic damages for emotional distress when there
was no clear and convincing evidence of malice or
reckless indifference for Collens’ rights, the Superior
Court never held the separate proceedings mandated
by law (AS 09.17.020(a) & (c)) before imposing punitive
damages, there was no objectively verifiable evidence
that Collens ever suffered any actual stress, there was
no actual testimony that he suffered any stress beyond
conclusory responses to leading questions, the noneconomic damages exceeded the statutory cap (AS
09.55.549(d)), and where the Superior Court ignored
other stressors impacting Collens that arguably
created greater stress.
7.Whether the Superior Court erred in awarding
over $5.6 million in attorneys’ fees based on a 40%
contingency fee agreement when the award was
contrary to the terms of the contingency fee
agreement.

143a

II. STATEMENT OF THE CASE
This is an appeal from a medical healthcare case
alleging breach of contract, tort claims, and an unpled
UTPA claim in which the Superior Court awarded
damages of nearly $21 million to Collens
notwithstanding the fact that there was no death, no
physical injury, no serious injury of any kind, and no
objectively verifiable evidence that Collens ever
actually suffered any emotional distress. The judgment
is principally based on the UTPA claim, a claim
exempted under law.
The UTPA claim is exempt because home health
agencies are heavily regulated and the alleged conduct
(discharging a patient in violation of the Plan of Care
and policies) is prohibited by that regulation.
Moreover, medical care is not a “service” subject to
UTPA. The Superior Court’s error in imposing treble
damages under UTPA was compounded by its order
precluding Maxim Healthcare from offering expert
testimony on damages. The Superior Court precluded
Maxim Healthcare’s expert reports because trial
counsel missed a procedural disclosure deadline after
mistakenly believing she had an agreement with
plaintiff’s counsel for a disclosure extension. Ample
time existed before trial to cure any perceived or actual
problem from the late disclosure. Indeed, Collens
disclosed his expert reports months later, and even
amended one report during trial itself. The Superior
Court allowed Collens’ experts to testify. The
preclusion order unfairly prejudiced Maxim
Healthcare, and left a grossly distorted record
144a

concerning the scope and extent of claimed damages.
The Superior Court’s judgment was plagued by
a range of other legal errors discussed further below.
This Court can, must, and should vacate the Superior
Court’s judgment, disallow the UTPA claim, and
remand for a trial on contract and tort damages. The
Court should also grant other relief as noted below.
A.

Statement of Facts
1.

Parties and Counsel

Maxim Healthcare is a home health agency
regulated under AS 47.32. Maxim Healthcare provides
necessary medical treatment to patients throughout
the state of Alaska. Maxim Healthcare entered the
Alaska market in 2006. [TR 71].
Jesse Collens was an Alaska resident (he has
resided in Washington State since 2013). [CR 000037].
He suffered serious injuries as a result of a bicycle
stunt and was rendered a C-1 quadriplegic. [CR
000007]. He cannot move anything below his neck, and
is dependent on a ventilator to breathe. [CR 000007].
During the Superior Court proceeding, Collens
initially represented himself pro se, but then retained
Michael Stehle. Maxim Healthcare was initially
represented by Timothy Lynch. [CR 004708]. Rebecca
Hozubin entered an appearance on April 21, 2016,
after Timothy Lynch passed away. [CR 004596].
Maxim Healthcare retained independent appellate
145a

counsel, Gregory Fisher and Nicholas Bajwa, for postjudgment and appellate representation, and they
entered an appearance on September 28, 2017, after
the underlying judgment was issued. [CR 004594].
2.

Brief Summary of Facts

In December 2009, Maxim Healthcare agreed to
provide Collens private duty nursing under a Plan of
Care regulated by state law. [Exc. 001, CR 001178].
Maxim Healthcare agreed to provide private duty
nursing services in exchange for the right to bill
Medicaid for services provided. [Exc. 001, Exc. 481, TR
1271]. The private duty nursing services agreement
was subject to state and federal regulations.2 Maxim
Healthcare’s policies and procedures for providing
services were also subject to state and federal
regulations.3
Maxim Healthcare provided services without
significant incident for the next two years. [Exc. 067
¶7]. Chronic nursing shortages affecting the nation,
and other issues resulting from demands made by
Collens, sometimes made it difficult to provide Collens
medical care. [Exc. 477, TR 274]. However, there were
no significant problems in Collens’ Plan of Care for the
first two years. [Exc. 067 ¶7].

2

7 AAC 12.507(a)(3); 7 AAC 12.513; 7 AAC 12.519(a)(3);
42 CFR § 484.50(d).
3

Id.

146a

Things changed in early 2012. Collens retained
a personal care assistant, Kevin Miller, who insisted
that Maxim Healthcare direct all communications to
and through him. [Exc. 023, Exc. 068 ¶11]. Miller was
subsequently designated as a primary care giver. [Exc.
281-283, ¶¶ 36-38]. Miller was a former Maxim
Healthcare employee who had previously resigned. [TR
1184]. Problems multiplied, and Maxim Healthcare
became concerned that Collens was not complying with
the Plan of Care. [Exc. 068 ¶8-12]. In particular,
Collens was asking for increased dosages of insulin
without a doctor’s order. [TR 254, CR 000219]. More
troubling, the inventory for prescribed narcotics was
not correct. [TR 254, TR 1340-41]. In addition, Miller
was subjecting Maxim Healthcare’s nurses to needless
ridicule (for example, requiring them to sit in a “red
chair of shame” if they were perceived as having done
something “wrong”). [TR 486-87]. This aggravated
problems because nurses are difficult to find, and it is
particularly difficult to find nurses to staff acute care
patients. [TR 274].
Maxim Healthcare was alarmed at the
unusually close or personal relationship that seemed
to exist between Miller and Collens. [TR 277-78, TR
1242-43]. Miller was crossing ethical and professional
lines. [Exc. 025, TR 1242]. He was living on the
premises [TR 277-78, TR 1239-40], and he was making
plans with Colleens to buy a home in Trapper Creek (a
remote location that would exacerbate nursing
shortages). [Exc. 477, TR 274, TR 760-61, TR 983-84].
Perhaps validating Maxim Healthcare’s concerns, after
Maxim Healthcare discharged Collens, Miller gave
147a

Collens an ultimatum — Collens could choose either
his mother or Miller. Collens chose his mother, and
Miller walked out at that time. [TR 755, CR TR 984985].
Maxim Healthcare grew concerned at Collens’
apparent noncompliance with the Plan of Care. [Exc.
068, TR 1347-48]. The issues were addressed, and
seemingly resolved by March 13, 2012 when a
conference was held between Collens and
representatives from Maxim Healthcare. [Exc. 287-88,
¶¶ 46-47]. However, all issues were still the subject of
an ongoing compliance review involving coordination
with different Maxim Healthcare personnel in
different states. [Exc. 289-291, ¶¶ 49-52]. Meanwhile,
as part of the routine re-certification process (plans of
care are re-certified every 62 days), Collens’ Plan of
Care was re-certified on March 26, 2012 with a
notation that discharge was not warranted. [Exc. 291,
¶ 51].
Maxim Healthcare completed its compliance
review, decided to discharge Collens, and did so on
March 30, 2012 (with an effective discharge date in
April 2012). [Exc. 024].4 However, the discharge letter
mistakenly advised that the discharge had been
discussed with Collens’ doctor and care coordinator
who both agreed. [TR 221]. This was not correct.
Neither had approved discharge. [TR 221]. In fact,
both opposed discharge. [TR 222].
4

A revised discharge letter was issued on April 5, 2012.
[Exc. 027].

148a

Discharge decisions are part of the Plan of Care,
and constitute medical care or treatment (or
healthcare provision). Such decisions are regulated.
This is why discharge is discussed with both the
treating physician and the Plan of Care coordinator.
Alaina Adkins, for Maxim Healthcare, called the
care coordinator, Denise Shelton (“Shelton”), on March
29, 2012 (the day before notice of discharge was
provided). [TR 1347]. Shelton was not surprised at
Maxim Healthcare’s decision and voiced no immediate
objection at that time. [TR 1347]. Adkins mistakenly
interpreted silence as consent. Adkins then called the
doctor’s office. [TR 1346-1347]. The doctor was not
available. The nurse who answered did not seem
surprised at the decision. [TR 223]. Again, however, no
formal approval for the discharge decision was
provided. Later, it became clear that both Shelton and
Collens’ doctor opposed discharge. [TR 222].
Maxim Healthcare acknowledges that the
process by which Collens was discharged did not
comply with the Plan of Care or with Maxim
Healthcare’s policies and procedures. In particular,
although some communications took place, there
should have been a more detailed and documented
conference with the care coordinator, doctor, and
Collens before making any final decisions. For its part,
Maxim Healthcare believes that it attempted in goodfaith to communicate with everyone in advance of
discharge. To the extent, if any, that one concluded
mistakes occurred, the mistakes were truly good-faith
errors caused by communication gaps.
149a

Following discharge, further discussions
occurred between Maxim Healthcare and Collens.
[Exc. 068-69 ¶18]. During this time, there was no
evidence regarding manifestations of stress in Collens,
such as loss of sleep, loss of appetite, or change in vital
signs. [CR 003303, CR 003567 ¶88]. Indeed, his vital
signs remained the same before and after discharge.
[CR 003567 ¶88]. In July 2012, Maxim Healthcare
eventually obtained a new order for Collens to provide
care under a 12-hour a day Plan of Care. [TR 722, CR
1355, Exc. 298 ¶68]. Unfortunately, chronic nursing
shortages made it difficult to implement the plan until
October 2012. [TR 1357]. Meanwhile, Collens decided
to leave Alaska because it was too dark and cold. [TR
934-35, Exc. 31]. In an email sent in October 2012,
Collens wrote:
hey Denise, I made up my mind than [sic]
I am going to move to the Seattle area
and sometime within the next month is
my goal. The cold weather is [sic] really
gotten to me already and I think it’s wise
to do something before the holidays. Can
you help facilitate this transfer in any
way? I need to know facility is easier to a
long-term care facility temporarily, if I
can go directly home, or if there is a
short-term facility that I go to? Let me
know if you have any thoughts on this.
Thanks a lot for everything you have
done for me, it’s really too bad things to
[sic] work out. – Jesse.

150a

[Exc. 031].
Unfortunately, available Medicaid benefits in
Washington State are not as generous as they are in
Alaska. [TR 729].
3.

Procedural History

On March 26, 2014, Collens filed suit alleging
breach of contract and tort claims. [Exc. 032]. Collens
amended his complaint on April 25, 2014. [Exc. 040].
Collens filed a second amended complaint on May 2,
2014. [Exc. 045]. None of the complaints alleged a
UTPA claim. On October 25, 2014, Collens retained
Michael Stehle as counsel. [CR 000086]. No motion
seeking leave to add a UTPA claim was ever filed.
On November 18, 2014, Maxim Healthcare filed
a motion for summary judgment. [Exc. 052]. Collens
filed a cross-motion for summary judgment on
December 1, 2015. [Exc. 075]. In his opposition,
Collens first raised an unpled UTPA claim. [Exc. 075].
Maxim Healthcare filed a reply on February 19, 2016.
[Exc. 109]. Addressing the unpled UTPA claim, Maxim
Healthcare argued, in part, that the claim was exempt
from UTPA. [Exc. 132-33]. On May 3, 2016, without
comment or analysis regarding the UTPA claim, the
Superior Court denied all parties summary judgment.
[Exc. 137].
On July 15, 2016, Maxim Healthcare submitted
Defendants’ Expert Disclosures, listing two retained
experts to address plaintiff’s damages in rebuttal
151a

reports. [Exc. 148]. On July 19, 2016, Collens moved to
strike the two experts, claiming that Maxim
Healthcare failed to timely provide expert reports.
[Exc. 165]. However, Collens was equally culpable for
failing to properly disclose expert information.
Consequently, Maxim Healthcare moved to vacate the
August 24, 2016, trial date because Collens’ recently
submitted expert reports included substantial
damages that had not been previously disclosed in his
initial disclosures. [Exc. 195]. The Superior Court
granted Maxim Healthcare’s motion on August 10,
2016, and vacated the trial date. [Exc. 200]. The
Superior Court also denied Collens’ motion to strike
the expert reports on August 11, 2016, and permitted
Maxim Healthcare to proceed with a rebuttal report.
[Exc. 202]. New deadlines were set for trial call on
June 14, 2017 and expert report disclosure on
February 27, 2017.
On January 17, 2017, Maxim Healthcare
submitted its Fourth Supplement regarding Retained
Experts, thereby identifying two experts to address
economic damages and medical treatment and costs,
but the reports were not yet disclosed. [Exc. 215]. The
reports were not disclosed because trial counsel was
waiting to depose Collens. The February 27, 2017
deadline passed. On March 23, 2017, Collens filed a
second Motion to Strike Experts, arguing that Maxim
Healthcare failed to timely file expert reports or
rebuttal reports. [Exc. 217]. Trial counsel for Maxim
Healthcare thought the parties had agreed to an
extension to disclose reports after Collens was
deposed. [Exc. 224-225]. The agreement, however, was
152a

never formalized in writing, and the Superior Court
rejected Maxim Healthcare’s arguments. The Superior
Court issued an order on April 12, 2017 precluding
Maxim Healthcare’s experts from testifying at trial.
[Exc. 237]. The motion was granted even though two
months remained before trial, and any perceived
disclosure problem could have been cured.5
A month later, on May 8, 2017, Collens’ expert
submitted a revised expert report, nearly three months
after the deadline had passed. [CR 002301]. Also on
May 8, 2017, Collens’ other expert orally revised her
expert report in her deposition testimony. [CR
002301]. Collens’ expert further revised his report
during trial. [TR 1064].
The parties conducted a six-day non-jury trial
between June 19, 2017, and June 26, 2017. [CR
003662]. The Superior Court entered its findings of
fact and conclusions of law on August 24, 2017, and
awarded Collens $4.3 million on his contract claim
alleging breach of his private duty nursing agreement
by discharging him in violation of the Plan of Care and
policies. The Superior Court trebled those damages
under UTPA, resulting in $12.9 million. The Superior
Court also awarded Collens $500,000 in punitive
damages, and $400,000 in non-economic damages for
5

The pretrial order dated August 29, 2016, called for
“Retained Expert Reports” approximately four months prior to
trial call. [CR 002510]. The prior vacated pretrial order dated May
19, 2016, called for “Retained Expert Reports” one month prior to
trial call. [CR 001583]. The Superior Court’s April 12, 2017 Order
was issued over two months prior to trial call.

153a

stress. [Exc. 332 ¶49, Exc. 336 ¶54]. The Superior
Court entered judgment on September 26, 2017. [Exc.
338]. The Superior Court later awarded Collens
attorneys’ fees of $5.6 million. Including pre-judgment
interest and costs, the total final judgment was $20.6
million, not counting post-judgment interest.
III. STANDARD OF REVIEW
Questions of law are reviewed de novo.6 In
exercising its discretion and judgment under de novo
review, the Alaska Supreme Court adopts the rule of
law that is most persuasive in light of precedent,
reason, and policy.7 The Court reviews the Superior
Court’s findings of fact for an abuse of discretion.8 The
Superior Court abuses its discretion when it
misapplies the correct legal standard or ignores or
overlooks material facts relevant to an issue under
review.9 The Court will not reverse unless it is left
with a definite and firm conclusion that the Superior

6

ConocoPhillips Alaska, Inc. v. Williams Alaska
Petroleum, Inc., 322 P.3d 114, 122 (Alaska 2014).
7

Mat–Su Valley Med. Ctr., LLC v. Advanced Pain Ctrs.
of Alaska, Inc., 218 P.3d 698, 700 (Alaska 2009) (quoting Enders
v. Parker, 66 P.3d 11, 13–14 (Alaska 2003)).
8

Bird v. Starkey, 914 P.2d 1246, 1248 (Alaska 1996)
(citing Howlett v. Howlett, 890 P.2d 1125, 1126 (Alaska 1995)).
9

Id.

154a

Court erred.10 The Court reviews the Superior Court’s
award of attorneys’ fees for an abuse of discretion.11
The Supreme Court will independently review the
superior court’s interpretation of the UTPA’s
attorney’s fee provision, but the amount of the fee
award itself is reviewed for abuse of discretion.12
SUMMARY OF ARGUMENT
Collens’ UTPA claim was based on the
argument that Maxim Healthcare breached its
contract with him by discharging him in violation of
the Plan of Care, and Maxim Healthcare’s existing
policies. [Exc. 075, CR 003136]. UTPA exempts claims
based on allegations that are prohibited by state law.
Alaska law prohibits home health agencies from
discharging a patient in violation of its existing
policies and/or the Plan of Care.13 Alaska law
prescribes specific penalties which may include fines,
penalties, or loss or suspension of license.14 It
necessarily follows that Collens’ UTPA claim was
exempt. No treble damages should have been awarded.

10

Ellison v. Plumbers and Steam Fitters Union Local 375,
118 P.3d 1070, 1073 (Alaska 2005).
11

Bromley v. Mitchell, 902 P.2d 797, 804 (Alaska 1995).

12

Kenai Chrysler Ctr., Inc. v. Denison, 167 P.3d 1240,
1261 n .72 (Alaska 2007).
13

7 AAC 12.507(a)(3); 7 AAC 12.531(b)(12).

14

7 AAC 12.620.

155a

The Superior Court’s error awarding treble
damages under UTPA was compounded further by its
order unfairly precluding Maxim Healthcare’s experts
from testifying on damages. The Superior Court
precluded Maxim Healthcare’s experts from testifying
because their reports were untimely disclosed. [Exc.
238]. However, trial counsel acted on what she
mistakenly thought was an agreement with plaintiff’s
counsel. [Exc. 224-25, CR 002452 – CR 002462].
Moreover, there was ample time before trial, and any
perceived or actual problems related to the untimely
disclosure could have been cured. Collens’ experts
revised their reports months after Maxim Healthcare’s
expert reports were due. [CR 002301]. One of Collens’
experts even amended his report during the trial itself.
[TR 1087]. The Superior Court allowed this, and did
not penalize Colllens for late expert disclosures.
In addition to these errors, the Superior Court
should have adopted and applied the election of
remedies doctrine and disallowed punitive damages.
The overwhelming weight of reasoned precedent holds
that plaintiffs may not recover both treble damages
under a trade practices claim and punitive damages.
Alaska should adopt the same rule of law.
The Superior Court’s awards of punitive and
emotional distress damages were also grossly
disproportionate to the actual, undisputed facts, and
contrary to governing statutes.
Finally, the Superior Court’s order awarding
over $5.6 million in attorneys’ fees was unreasonable
156a

and an abuse of discretion.
This Court should vacate the Superior Court’s
judgment, disallow any UTPA claim as the claim was
exempt, and remand for a new trial on contract and
tort damages. The Court should also adopt the election
of remedies doctrine as a rule of law governing trade
practice claims in Alaska as it is the most persuasive
rule of law that best comports with reason, policy, and
overwhelming precedent from other jurisdictions.
IV. ARGUMENT
A.

Collens’ UTPA claim was exempt from
UTPA because his claim was regulated and
prohibited by state and federal law.

Alaska’s UTPA provides: “[u]nfair methods of
competition and unfair or deceptive acts or practices in
the conduct of trade or commerce are declared to be
unlawful.”15
UTPA expressly exempts those acts or
transactions that are otherwise regulated under laws
administered by the state or under federal law, “unless
the statute or regulation does not prohibit the
practices declared unlawful in AS 45.50.471.”16
The Court applies a two-part test to analyze

15

AS 45.50.471(a).

16

AS 45.50.481(a)(1).

157a

UTPA’s exemption: (1) the business is regulated; and
(2) the allegedly unfair acts and practices are
prohibited by that regulation.17 UTPA’s exemption
applies where a separate and distinct statutory
scheme regulates acts and practices, and the acts or
practices “are therein prohibited.”18 This Court has
explained that the exemption precludes claims based
on unfair acts or transactions that are the subject of
“ongoing, careful regulation.”19
Although the Court has treated the exemption
statute narrowly in past cases,20 the present
circumstances fall squarely within the Court’s
established parameters for an exemption, and are also
consistent with the analysis of healthcare treatment in
other jurisdictions.
1.

State regulation specifically governs
discharge procedures and prohibits
home health agencies from

17

State v. O’Neill Investigations, Inc., 609 P.2d 520, 528
(Alaska 1980).
18

Smallwood v. Central Peninsula General Hosp., 151
P.3d 319, 328 (Alaska 2006).
19

Matanuska Maid, Inc. v. State, 620 P.2d 182, 186
(Alaska 1980) (concluding that the Federal Trade Commission Act
does not serve as an exemption when the regulated conduct is
unduly broad and general).
20

See, e.g., Matanuska Maid, Inc. v. State, 620 P.2d 182,
186 (Alaska 1980); Alaska Interstate Const., LLC v. Pac.
Diversified Investments, Inc., 279 P.3d 1156, 1167 (Alaska 2012).

158a

discharging patients in violation of
the Plan of Care and their policies.
Maxim Healthcare is a “home health agency”
that provides in-home treatment to patients in Alaska.
A “home health agency” is defined as:
a public agency or private organization,
or a subdivision of a public agency or
private organization, that primarily
engages in providing skilled nursing
services in combination with physical
therapy, occupational therapy, speech
therapy, or services provided by a home
health aide to an individual in the
individual’s home, an assisted living
home, or another residential setting.21
Alaska law heavily regulates the care and treatment
provided by Maxim Healthcare.22 Maxim Healthcare’s
activities are covered under Title 47 (“Welfare, Social
Services and Institutions”) and, more specifically,
under Chapter 32 (“Centralized Licensing and Related
Administrative Procedures”).
Home health agencies fall within the scope of
21

AS 47.32.900(10).

22

7 AAC 12.500 (“A public or private entity that is
primarily engaged in the provision of skilled nursing care and
therapeutic services, but not the treatment of mental illness, in a
patient’s home is a home health agency, and must comply with 7
AAC 12.500 - 7 AAC 12.590”).

159a

AS 47.32.010(a), which states that
The purpose of this chapter is to
establish centralized licensing and
related administrative procedures for the
delivery of services in this state by the
entities listed in (b) of this section. These
procedures are intended to promote safe
and appropriate services by setting
standards for licensure that will reduce
predictable risk; improve quality of care;
foster individual and patient rights; and
otherwise advance public health, safety,
and welfare.23
If a home health agency provides deficient care or
otherwise fails to comply with regulations, a complaint
can be filed with the Department of Health.24 The
Department of Health has investigative authority with
the power to revoke or suspend the license of the home
health agency if it determines that the home health
agency has violated “an applicable statute or
regulation … that presents an immediate danger to
the health, safety, or welfare of an individual receiving
services from the entity.”25 The framework under AS
47.32 demonstrates that Maxim Healthcare and other
similar healthcare entities are regulated under Alaska

23

AS 47.32.010(a).

24

See AS 47.32.090.

25

See AS 47.32.130.

160a

law.
Alaska law expressly prohibits the actions that
are the subject of the underlying dispute; namely,
discharging Collens without complying with the Plan
of Care and Maxim Healthcare’s policies. 7 AAC
12.507(a)(3) requires Maxim Healthcare to establish
policies and procedures. Maxim Healthcare’s policies
and procedures must address “conditions . . . for
discharge” under 7 AAC 12.531(b)(2). Maxim
Healthcare is required to develop a Plan of Care under
7 AAC 12.513. The Plan of Care must address, among
other points, planning and instructions for discharge
along with “any other factors relevant to the care of
that patient” under 7 AAC 12.513(a)(4).
7 AAC 12.531(a) provides that “a home health
agency shall establish, implement, and make available
to all personnel, written policies and procedures
appropriate to the services offered by the agency.
These policies and procedures must be reviewed at
least annually and revised as necessary.” 7 AAC
12.531(b)(2) specifies that “a home health agency shall
establish policies and procedures covering conditions
for acceptance, transfer, discharge, and continuing
care of patients.”
7 AAC 12.600(f) specifies that Maxim
Healthcare is required to follow its policies and
procedures for providing services and discharge under
7 AAC 12.531(a).
Under 7 AAC 12.620(a), the Department of
161a

Health inspects each facility at least annually to
ensure compliance with the law and regulations. 7
AAC 12.620 (a) provides that the Department of
Health has authority to issue penalties if Maxim
Healthcare (or any other home health agency) fails to
comply with the governing regulations. Specifically,
the Department of Health has the authority to revoke
licenses, suspend licenses, and impose other
penalties.26
Maxim Healthcare is subject to regulatory
oversight from the state of Alaska, and those
regulations expressly address discharge procedures
and prohibit discharging patients in violation of the
Plan of Care and policies. The Superior Court erred in
failing to address this in its findings of fact and
conclusions of law.
2.

Collens’ UTPA claim was based on an
allegation that Maxim Healthcare
discharged him in violation of
Maxim Healthcare’s policies.

Collens’ UTPA claim was never actually alleged
in any of his pleadings. Instead, Collens first raised it
as a secondary argument in summary judgment
briefing, and later touched upon it again in his trial
26

7 AAC 12.620. (“The department will, in its discretion,
impose the following penalties for a violation of a provision of this
chapter: (1) revocation of the license; (2) suspension of the license;
(3) issuance of a provisional license; and (4) issuance of a written
report which states the violation and a date certain for the
submission of a plan by the facility for correction of the violation”).

162a

brief. Consequently, the basis of the claim was never
presented in a manner that allowed for proper
evaluation.27
At trial, Collens argued that Maxim Healthcare
misrepresented its services in violation of AS
45.50.471(b)(12). [Exc. 249-251]. More particularly,
Collens argued that the alleged UTPA violation
concerned discharging him in violation of Maxim
Healthcare’s Plan of Care and its policies. [Exc. 075,
CR 003469-70].
The Superior Court adopted this same rationale,
and imposed UTPA liability because Maxim
Healthcare discharged Collens without first securing
approval from Collens’ doctor and his Plan of Care
coordinator in violation of the Plan of Care and
policies. [Exc. 327, ¶ 41].
3.

Collens’ UTPA claim was and is
exempted.

In summary, the basis for Collens’ UTPA claim
was that Maxim Healthcare discharged him in
violation of its policies and Plan of Care. UTPA
exempts claims based on allegations that are
prohibited by state law. State regulations prohibit
Maxim Healthcare from discharging a patient in

27

There was discussion of the exemption in Maxim
Healthcare’s summary judgment briefing, though it was not
addressed in further detail until the post-judgment motions.

163a

violation of its policies or Plan of Care.28 The state
inspects at least once a year if not more frequently.
Violations lead to fines, penalties, and license
suspension or revocation. It necessarily follows that
Collens’ UTPA claim was exempt. The Superior Court
ignored the clear regulatory and prohibitory
framework in place that should have exempted
Collens’ UTPA claim against Maxim Healthcare. The
failure to do so was an error that must be reversed by
this Court.
4.

The conclusion that Collens’ UTPA
claim is exempted is supported by
reference to overwhelming case law
holding that the provision of health
care is not subject to trade practice
or consumer practice claims.

The Court has not previously ruled on the
applicability of the UTPA in a healthcare context.29
However, most jurisdictions analyzing this subject
have consistently held that the medical care or
28

The state of Alaska was actively involved in its
regulatory capacity. Discussions occurred between Maxim and the
state of Alaska after the original discharge notice, which led to a
discharge extension for Collens in order “to assist the State of
Alaska with the transition of care services.” [CR 000169].
29

In Smallwood v. Cent. Peninsula Gen. Hosp., 151 P.3d
319, 329 (Alaska 2006), the Court held that UTPA applied to a
hospital’s billing practices. However, Smallwood’s scope is limited,
and does not extend to medical care or treatment. Moreover, the
alleged violation at issue (failure to itemize an invoice) was not
exempted because the subject is neither regulated nor prohibited.

164a

treatment (healthcare provision) is either not a
“service” subject to consumer or trade practice
statutes, or is otherwise exempt from those statutes.
This conclusion is based on both legal and policy
reasons. The concept is often described as the
“entrepreneurial aspect rule” (a rule discussed further
below). This Court should concur with the sound
analysis from other jurisdictions, and hold that
medical care or treatment (healthcare provision) is not
a “service” subject to UTPA, or is otherwise exempt
from UTPA. Medical care or treatment simply does not
fit within the definition of “goods or services” under AS
45.50.561(9).
An oft-cited case is Washington Osteopathic
Medical Association v. King County Medical Service
Corp.,30 where the Washington Supreme Court held
that the state’s Consumer Protection Act31 did not
apply to the activities of a health care services
contractor. There, a nonprofit corporation accepted
prepayment from individuals and groups for medical
services which were furnished by physicians who
contractually agreed with the corporation to provide
medical services.32 Reasoning that the corporation’s
activities were permitted and regulated by the Health
30

478 P.2d 228 (Wash. 1970).

31

The Washington Act contains exemption language that
states the Act is inapplicable to “actions or transactions otherwise
permitted, prohibited or regulated under laws administered by the
insurance commissioner of the state...”
32

Id. at 230.

165a

Care Services Act, the court concluded that the
corporation was exempt from Washington’s Consumer
Protection Act.33
In Short v. Demopolis,34 the Washington
Supreme Court studied whether or not to exempt
“learned professionals” from consumer protection laws.
The court declined to adopt a sweeping exemption,
concluding instead that a limited exemption should
apply based on the “nature and conduct involved . . . on
a case by case basis . . . .”35 The court reasoned that
certain business activities (such as billing or
collections) were “entrepreneurial” in nature, and
therefore actionable.36 However, claims related to the
actual practice of a profession, and not the
entrepreneurial aspects, would be exempt.37
Washington has since extended the
“entrepreneurial aspect rule” to the practice of
medicine.38 The rule was shortly thereafter extended
to hospitals, where it was held that the consumer
33

Id.

34

691 P.2d 163 (Wash. 1984).

35

Short , 691 P.2d at 167.

36

Id.

37

Id.

38

Quimby v. Fine, 724 P.2d 403, 406 (Wash. App. 1986)
(holding that a claim against a doctor for injuries sustained during
an ankle surgery is exempt from the UTPA).

166a

protection laws did not apply because the alleged
actions did not implicate the “entrepreneurial aspects
of the hospital’s business, such as billing.”39
In Brookins v. Mote, M.D.,40 the Montana
Supreme Court applied the “entrepreneurial aspect
rule” to the activities of hospital employees and, in
doing so, agreed “with the near unanimous line of
authority that has exempted from the [consumer
protection act] conduct by health-care providers in the
‘actual practice’ of the profession.”41 The court drew a
distinction between medical care or treatment on the
one hand, and the entrepreneurial, commercial, or
business aspects of running a hospital on the other,
noting that the latter would be actionable under
UTPA.42 In contrast, those acts that are not
“entrepreneurial” but rather dealing with medical care
or treatment (healthcare provision) would not be
actionable under UTPA.43

39

Jaramillo v. Morris, 750 P.2d 1301, 1304 (Wash. App.

40

292 P.3d 347 (Mont. 2012).

41

Brookins at 359.

42

Id. at 360.

1988).

43

Id.; See also Hastie v. Alpine Orthopedics & Sports
Medicine, 363 P.3d 435 (Mont. 2015) (holding that a doctor’s
refusal to provide follow-up medical care is exempt from the
UTPA because it was not related to the entrepreneurial,
commercial, or business aspects of running a medical practice).

167a

The “near unanimous line of authority”
referenced by the Brookins court includes cases from
across the United States.44 In addition to the
authorities cited by Brookins, other courts have
reached the same result for the same reason.
For example, in Hampton Hospital v. Bresan,45
the court held that hospital services regulated by the
Department of Health were not subject to New Jersey’s
Consumer Fraud Act. The court reasoned that the
Department of Health promulgated extensive
regulations concerning the quality of care provided by
health care professionals and facilities, including the
requirement for a written policy and procedure for

44

See Haynes v. Yale-New Haven Hosp., 699 A.2d 964, 974
(Conn. 1997) (“the touchstone for a legally sufficient [consumer
protection act] claim against a health care provider is an
allegation that an entrepreneurial or business aspect of the
provision of services aside from medical competence is implicated,
or aside from medical malpractice based on the adequacy of
staffing, training, equipment or support personnel”); Nelson v. Ho,
564 N.W.2d 482, 486 (Mich. App. 1997) (holding that Michigan’s
consumer protection act only extends to acts or practices “in the
conduct of the entrepreneurial, commercial, or business aspect of
a physician’s practice”); Dorn v. McTigue, 157 F.Supp.2d 37, 48
(D.D.C. 2001) (finding that plaintiff “failed to make a showing
sufficient to establish the [doctor’s] alleged statement was
motivated by entrepreneurial motives”); Simmons v. Stephenson,
84 S.W.3d 926, 928 (Ky.App. 2002) (holding that the “allegations
in the complaint did not relate to the entrepreneurial, commercial,
or business aspect of [the doctor’s] practice of medicine”).
45

672 A.2d 725 (Sup.Ct. N.J. 1996).

168a

discharge of a patient from a rehabilitative facility.46
The court concluded: “[w]e can find no purpose to a
requirement that hospital services be within the
purview of the Consumer Fraud Act when those same
services fall within the purview of the Department of
Health.”47
In Tuohey v. Chenal Healthcare, LLC,48 the
court reached a similar conclusion because the
Arkansas Department of Human Service regulates
nursing homes, licenses and inspects long-term care
facilities, and has the authority to promulgate rules
and regulations governing those facilities.49
In Bernstein v. Extendicare Health Services,
Inc., the court observed that the intent of consumer
protection laws is “targeted toward more specific
statements of the particular characteristics of goods or
services so that consumers can evaluate the goods or
services at issue and choose among the offerings in
accordance with their needs.”51 Extending those
protections to healthcare would “allow litigation to
50

46

Id. at 729.

47

Id. at 731.

48

173 F.Supp.3d 804 (E. D. Ark. 2016).

49

Id. at 810.

50

653 F.Supp.2d 939 (D.Minn. 2009).

51

Id at 944.

169a

supplant the extensive regulatory structure imposed
on nursing homes, and it would insert the courts as
overseers of the day-to-day operations of nursing
homes, requiring that each interaction between
nursing home staff and patients be parsed for possible
misstatements.”52
These well-reasoned authorities provide
persuasive guidance. This Court should hold that
medical care or treatment (healthcare provision) is not
a “service” subject to UTPA or that it is exempt from
UTPA. Such a conclusion falls squarely within the
Court’s prior precedent.
5.

The conclusion that Collens’ UTPA
claim is exempted is supported by a
prior Alaska Attorney General
opinion analyzing a comparable
context.

Although the Alaska Supreme Court has not yet
addressed the exemption of healthcare treatment, the
Alaska Attorney General previously issued an opinion
concluding that exempting healthcare activities is
appropriate. [Exc. 455-458]. This Court has generally
afforded opinions of the Attorney General “some
deference.”53 This deference is especially appropriate
in this context given that UTPA expressly confers

52

53

Id.
State v. Dupier, 118 P.3d 1039, 1050 n.62 (Alaska 2005).

170a

enforcement powers on the Attorney General.54
The Alaska Attorney General issued a
persuasive opinion in 1985 concluding that certain
practices at nursing homes (an industry similar to
home health agencies) fit within the UTPA general
exemption.55 The Attorney General concluded that
practices such as “deceit fraud, or intentional
misrepresentation in the course of providing
professional services” would meet the requirements of
UTPA’s general exemption because there was both
active regulation and an express prohibition. The
opinion noted the extensive regulatory structure for
nursing homes in support of its conclusion. In
concluding that the activities would be exempt, the
opinion further opined that “[o]ther practices more
akin to a consumer transaction (such as debt collection
practices of a nursing home) would be covered by AS
45.50.471.”56
This conclusion is sensible and sensibly applied
because it clarifies the importance of healthcare
treatment, something that is independently regulated
unlike a standard consumer transaction. Home health
agencies such as Maxim Healthcare were not
customary at the time of this opinion. However, the
Attorney General’s analysis is directly analogous to

54

See AS 45.50.495.

55

Alaska Att’y Gen. Op., 1985 WL 70141 (1985).

56

Id.

171a

this case, and supports Maxim Healthcare’s position
that an exemption should be granted.
6.

The conclusion that Collens’ UTPA
claim is exempted is supported by
policy as imposing treble damages
for the provision of healthcare will
result in increased costs and a
reduction of healthcare.

Policy considerations are appropriate for the
Court as it adopts the rule of law that is most
persuasive in light of precedent, reason, and policy.57
A $21 million judgment for alleged misconduct related
to medical care or treatment (healthcare provision)
directly touches upon our long-standing national
debate regarding health care costs, risks, insurance,
and health care policy.
The fundamental allegation here, and the basis
for liability, is that Maxim Healthcare failed to follow
the Plan of Care, its policies, and the governing
regulations when it discharged Collens. This fits
squarely within the context of medical care or
treatment. Indeed, the Superior Court recognized as
much, and even cited the Hippocratic Oath in its
findings of fact and conclusions of law. [Exc. 329, ¶ 43].
The Superior Court recognized the link to medical
care—observing that the underlying private duty

57

Mat–Su Valley Med. Ctr., LLC v. Advanced Pain Ctrs.
of Alaska, Inc., 218 P.3d 698, 700 (Alaska 2009) (quoting Enders
v. Parker, 66 P.3d 11, 13–14 (Alaska 2003)).

172a

nursing agreement contemplated that Collens “would
remain a patient as long as his doctor continued to
order or authorize PDN services . . . .” [Exc. 316, ¶24].
Further confirmation that the allegations implicate
medical care is seen by the fact that both a doctor and
the Plan of Care coordinator must discuss discharge.
Complying with the Plan of Care is healthcare. That is
why the governing regulations address this subject via
guidelines for discharging patients.58
Medical care or treatment (healthcare provision)
should never be subject to trade practice or consumer
practice statutes. If a health care provider is negligent,
or fails to meet the standard of care, or breaches
obligations in any manner, liability should be imposed
under traditionally recognized contract or professional
malpractice standards. But health care providers
should not face the potential for treble damages.
This is because damages for medical care claims
are going to be presumptively higher than general
consumer claims. The context is different. A defective
appliance costing $600 is different from deficient
healthcare that may result in serious injury or death.
UTPA’s legislative history reflects that the Alaska
Legislature was concerned about small scale consumer
issues such as defective toasters and finding a way to
encourage consumers to proceed with complaints that
the State Attorney General’s Office was not
prosecuting and that might otherwise be uneconomical

58

7 AAC 12.531.

173a

to bring.59
Legislative intent is evident in the statute’s
express terms which authorize three times actual
damages or $500 whichever is greater.60 It is
implausible that the Legislature intended the grossly
disproportionate result of $21 million or $500. The
glaring disparity proves that UTPA was never
intended to apply to medical care or treatment.
Imposing treble damages for medical care or treatment
will result in health insurance rates escalating beyond
control.
Imposing $21 million in damages will also drive
home health agencies from the market. The population
59

Actions for Unlawful Trade Practices, Hearing on HB
203 Before the H. Comm. On the Judiciary, 20th Leg. (Feb. 9,
1998) (statement of Rep. Berkowitz) (“Now, hypothetically, we
have to look at who’s going to use this law, because the
Department of Law, through the AG’s office, isn’t pursuing very
many of these cases. They’ve got one and a half attorneys. These
are somewhat factually intensive, time-consuming pursuits.
They’re going to go after the big-ticket items. You know, if there’s
something small and irritating that affects a consumer, an
individual consumer, they’re going to be able to raise it in the
courts. I think that’s a good thing, when an individual feels that
he has access to government that way, and has access to
redress.”); Actions for Unlawful Trade Practices, Hearing on HB
203 Before the H. Judiciary Standing Comm., 20th Leg. (April 1,
1998) (statement of Rep. Croft) (explaining that “These are little
injustices that are not cost-effective to pursue, for a broken toaster
or worthless life insurance policy, or else a person has no power,
now, to enjoin.”)
60

See AS 45.50.531(a).

174a

is aging.61 Family dynamics are changing and in most
families, both spouses work.62 Few families have the
luxury of caring for an aging or sick family member at
home without help from a home health agency or some
other provider. This is particularly true in Alaska
which historically has suffered shortages in all medical
professions. [Exc. 477, TR 274]. Home health agencies
such as Maxim Healthcare provide a necessary and
critical level of medical support. They are licensed.
They are inspected. They are regulated. Imposing a
judgment of $21 million for a discharge mistake that
did not result in death or any documented physical
injury will drive home health agencies from the
market and discourage others from entering the
market.
In terms of analyzing risk and spreading costs,
a medical provider should not be penalized for risks or
costs beyond its ability to control. Maxim Healthcare
should not be penalized because Collens decided to
leave Alaska, which allowed one level of care, and
decided to relocate to another state (Washington) that
allowed a different level of care with benefits that were

61

See United States Census Bureau, “Quick Facts
Alaska”, available at https://www.census.gov/quickfacts/
fact/table/AK/PST045217 (Last visited March 15, 2018)
(Demonstrating an increase of 2.7% of the population 65 years and
over from the period April 1, 2010 to July 1, 2016).
62

See Bureau of Labor Statistics, “Employment
Characteristics of Families Summary” (April 20, 2017) available
at https://www.bls.gov/news.release/famee.nr0.htm (Last visited
March 2, 2018).

175a

not as generous as those in Alaska. Maxim Healthcare
should not be penalized because there is a chronic
nursing shortage. [TR 274].
Properly analyzed, most of Collens’ damages
stem from risks or costs that were always beyond
Maxim Healthcare’s ability to control. If a $21 million
judgment is allowed under these circumstances, the
resulting impact on professional and other forms of
insurance will be devastating. Premiums will
skyrocket. These increased costs will be passed along
to patients.
The specific allegations in this case further
demonstrate why the UTPA should not apply. Collens’
theory was that Maxim Healthcare misrepresented the
medical care or treatment that it would provide by
discharging him from his private duty nursing
agreement without following the Plan of Care. The
problem is that all medical care involves
representations. That is the very nature of “informed
consent,” a governing tenet of healthcare. If a patient
can platform all such representations as
misrepresentations every time a desired result is not
reached, the results will be disastrous.
Closely related to these policy considerations,
the treble damages offend basic measures of due
process. Due process requires fair and reasonable
notice regarding potential implications of alleged
conduct. In analyzing whether damages offend due
process, courts generally address a range of factors
including the reprehensibility of misconduct, the ratio
176a

of the award to actual damages suffered by the
plaintiff, and the difference between the punitive
damages and civil or criminal penalties that could be
imposed.63 Here, the regulatory scheme envisions
sanctions or loss of license for discharging a patient
contrary to a home health agency’s policies.64 That is
starkly different from a $21 million judgment.
If it is alleged that a health care provider failed
to meet regulatory standards, plaintiffs should be
required to exhaust administrative remedies. The
governing authority is in the best position to analyze
what did or did not happen, why, and to take
appropriate action. If actual damages are suffered, a
plaintiff could still seek relief in court. But the alleged
misconduct, the predicate for liability, should first be
analyzed by competent medical authorities.
7.

The Court should disallow UTPA
treble damages in this case

For the foregoing reasons, the Court should
disallow UTPA treble damages in this case.
B.

COLLENS’
UTPA
CLAIM
WAS
ADDITIONALLY DEFICIENT BECAUSE
THERE WAS NEVER ANY EVIDENCE OF
63

See Exxon Shipping Co. v. Baker, 544 U.S. 471 (2008);
State Farm Mut. Automobile Ins. Co. v. Campbell, 538 U.S. 408,
410 (2003); BMW of North America, Inc. v. Gore, 517 U.S. 559
(1996).
64

7 AAC 12.620.

177a

ANY MISREPRESENTATION AT THE
TIME THE CONTRACT WAS FORMED
Collens’ specific UTPA claim was based on AS
45.50.471(b)(12). [CR 003136-37]. That subsection
imposes UTPA liability for misrepresentations.
Collens’ argument was that Maxim Healthcare
misrepresented its discharge policies and procedures
as set forth in the Plan of Care and Patient’s Bill of
Rights. [CR 003136-37].
UTPA does not define misrepresentation.
Therefore, courts look to the common law to give
meaning to the term.65 The crucial inquiry addresses
the alleged misrepresentation at the time of the
contract formation.66
Here, the discharge occurred in April 2012,
years after the underlying contract was made in
December 2009. Maxim Healthcare provided care for
over two years as set forth in the agreement between
65

See AS 01.10.010; See also State v. ABC Towing, 954
P.2d 575, 577 (Alaska 1998) (holding that utilizing the common
law definition of “legal entity” is appropriate when the relevant
statute does not contain a definition). Under common law, any
alleged false statement or misrepresentation is analyzed at the
time of the contract formation (here, December 2009). See, e.g.,
Valdez Fisheries Development Ass’n, Inc. v. Alyeska Pipeline Serv.
Co., 45 P.3d 657, 672 (Alaska 2002) (“A statement made as to
future intentions and actions is not a misrepresentation if it is
accurate when it is made, even if future events render it
inaccurate”).
66

Id.

178a

the parties. Maxim Healthcare never misrepresented
its discharge policies and procedures to Collens and
certainly did not do so at the time of contract
formation. Rather, the later dispute regarding
discharge procedures may give rise to a breach of
contract claim (if one assumes the existence of a
contract), but it cannot implicate a common law
misrepresentation claim and by extension UTPA
should not apply. It is equally significant that Maxim
Healthcare readmitted Collens to its care under a new
Plan of Care in July 2012. [Exc. 298 ¶68].
From the foregoing, there was no actionable
misrepresentation under which the Superior Court
could find misrepresentation because the discharge
event occurred years after Collens entered into the
contract. Therefore, Collens’ UTPA claim fails. This
Court should reverse.
C.

THE SUPERIOR COURT ABUSED ITS
DISCRETION
BY
UNFAIRLY
PRECLUDING MAXIM HEALTHCARE
FROM
PRESENTING
EXPERT
TESTIMONY ON DAMAGES AT TRIAL
SUPPOSEDLY BECAUSE THE REPORT
WAS UNTIMELY, WHEN THE COURT
ALLOWED PLAINTIFF TO FILE AN
EXPERT REPORT AT A MUCH LATER
DATE SHORTLY BEFORE TRIAL AND
THEN ALLOWED PLAINTIFF TO AMEND
HIS EXPERT REPORT DURING TRIAL
The Superior Court issued an order on April 12,
179a

2017, precluding Maxim Healthcare’s experts from
testifying at trial, and subsequently issued an order on
reconsideration on May 15, 2017. [CR 002400, Exc.
238-242]. The Superior Court’s order precluded all of
Maxim’s expert witnesses from testifying during trial
because Maxim Healthcare had not met procedural
deadlines for exchanging reports. [CR 002400, Exc.
238-242]. The sanction was unduly harsh. It unfairly
impacted the ultimate damage award against Maxim
Healthcare.
The underlying facts are important to
understand why this order was unduly prejudicial to
Maxim Healthcare, and why it significantly impacted
the outcome of the trial. On July 15, 2016, Maxim
Healthcare submitted Defendants’ Expert Disclosures,
listing two retained experts to address plaintiff’s
damages in rebuttal reports. [Exc. 148]. Collens
immediately moved to strike the two experts on July
19, 2016, claiming that Maxim Healthcare failed to
timely provide expert reports. [Exc. 165]. However,
Collens was equally culpable. On August 5, 2016,
Maxim Healthcare moved to vacate the August 24,
2016, trial date because Collens’ recently submitted
expert reports included substantial damages that had
not been previously disclosed in his initial disclosures.
[Exc. 195].
The Superior Court recognized both parties had
lapsed, and granted the motion to vacate the trial date
on August 10, 2016. [Exc. 200]. The Superior Court
also denied Collens’ motion to strike. The Superior
Court confirmed Maxim Healthcare’s right to proceed
180a

with a rebuttal report to address the newly disclosed
damages information. [Exc. 202]. The new deadline for
expert report disclosure was February 27, 2017, four
months before the trial call date of June 27, 2017.
On January 17, 2017, Maxim Healthcare
submitted its Fourth Supplement regarding Retained
Experts, thereby identifying two experts to address
economic damages and medical treatment and costs,
but the reports were not disclosed. [Exc. 215]. The
reports were not disclosed because trial counsel
mistakenly believed that she had an agreement with
plaintiff’s counsel to disclose the reports after Collens
was deposed. [Exc. 224, CR 2404]. However, no such
agreement had ever been formalized. After the
February 27, 2017 deadline passed, Collens filed a
second Motion to Strike Experts on March 23, 2017,
arguing that Maxim Healthcare failed to timely file
expert reports or rebuttal reports. [Exc. 217]. The
Superior Court granted the motion. Maxim Healthcare
sought reconsideration, noting that trial counsel
thought she had an agreement. The Superior Court
rejected Maxim Healthcare’s arguments on
reconsideration, and issued a draconian preclusion
order on April 12, 2017 that prohibited Maxim
Healthcare’s experts from testifying at trial. Months
remained before trial. Any perceived disclosure
problem could have been cured.67

67

The pretrial order dated August 29, 2016, called for
“Retained Expert Reports” approximately four months prior to
trial call. [CR 002510]. The prior vacated pretrial order dated May
19, 2016, called for “Retained Expert Reports” one month prior to

181a

The Superior Court’s order was even more
unfair in that Collens’ expert submitted a revised
expert report on May 8, 2017, nearly three months
after the deadline had passed. [CR 002301]. Worse,
Collens’ other expert orally revised her expert report
in her deposition testimony also on May 8, 2017. [CR
002301]. One of Collens’ experts further revised his
expert report during trial. [TR 1064]. The Superior
Court never penalized Collens for these late
disclosures.
This Court should be troubled by the
result—any objective and impartial observer would be
troubled. Exceedingly high damages ($21 million) were
imposed based largely on an exempted UTPA claim
that was never directly alleged in the amended
complaint, and Maxim Healthcare was denied an
opportunity to provide competent rebuttal evidence
addressing Collens’ claimed damages. As a result of
the Superior Court’s exclusion order, Maxim was
unable to call a single expert witness on damages.
Cases and claims should be tried on the merits.
Although a trial court ordinarily has broad discretion
to issue sanctions, this Court has repeatedly held that
the trial court’s discretion is limited when the effect of
the sanction is to “impose liability on the offending
party, establish the outcome of or preclude evidence on

trial call. [CR 001583]. The Superior Court’s April 12, 2016 Order
was issued over two months prior to trial call.

182a

a central issue, or end the litigation entirely.”68
Precluding witness testimony is an extreme sanction.
The Court is required to consider meaningful
alternative sanctions prior to imposing a preclusion
order. The Superior Court’s order precluded evidence
on central issues and severely impacted Maxim’s
ability to present its case.
Less drastic sanctions could have been imposed.
The Court could have ordered Maxim Healthcare to
shoulder deposition costs, could have awarded Collens’
fees and costs related to those depositions, or could
have granted other relief deemed appropriate.
This drastic order prevented Maxim from
rebutting Collens’ experts who testified regarding
damages.69 What made the Superior Court’s unduly
harsh decision especially troubling is that Collens was
allowed to serve an amended report on May 8, 2017,
long after the expert report deadline passed on
February 27, 2017. [CR 002301]. Moreover, Collens
even further amended his report during the trial itself.
[TR 1087]. The Superior Court allowed Collens to do
this, but did not confer similar consideration upon
Maxim Healthcare. Maxim Healthcare could have
served its expert reports weeks before the trial which
68

Sykes v. Melba Creek Mining, Inc., 952 P.2d 1164, 1169
(Alaska 1998).
69

Maxim Healthcare’s trial counsel filed a declaration
observing that Collens’ projected future damages relied upon a
single piece of hearsay evidence that Maxim was unable to
effectively rebut without a damage expert. [CR 004500].

183a

would have allowed Collens sufficient time to prepare.
No prejudice would have been suffered. Expert
preclusion was a drastic remedy that was not justified
by the circumstances. This Court should reverse and
remand for a new trial on damages.
D.

COLLENS’ CLAIMED DAMAGES ARE NOT
AND WERE NOT REASONABLY
FORESEEABLE, THE AMOUNT
AWARDED
WAS
GROSSLY
UNREASONABLE AS HE NEVER
SUFFERED ANY OUT-OF-POCKET
DAMAGES, THERE WAS NO DEATH OR
SERIOUS INJURY, AND HIS MEDICAID
BENEFITS REMAINED THE SAME
BEFORE AND AFTER THE ALLEGED
BREACH OF CONTRACT

The stunning damages awarded in this case —
$21 million — are made even more astonishing by the
fact that there was no death, no serious physical
injury, no physical injury, and no objectively verifiable
evidence of any non-economic damages. Collens’
Medicaid benefits were the same before and after he
filed suit. Worse, Collens quit Maxim Healthcare — he
decided to leave Alaska and he was properly
discharged from Maxim Healthcare’s Plan of Care in
December 2012. Collens was awarded damages based
on an estimate of the remainder of his life. The Court
heard damages testimony only from Collens as Maxim
Healthcare’s experts were excluded. The damages that
were adopted by the Superior Court improperly
included damages that were not reasonably
184a

foreseeable and were not commensurate with the
actual harm incurred by Collens.
Analyzed in context, Collens’ claimed damages
were based on the fact that his available Medicaid
benefits in Washington State were not as generous as
those available in Alaska, and the fact that Maxim
Healthcare had problems staffing adequate nursing
under the Plan of Care that took effect in July 2012.
[Exc. 298 ¶68]. The problems staffing nurses were the
result of chronic nursing shortages that affect all
states. [TR 274-275, 372].
Much like lost profits, the determination of the
type of care is “prospective or anticipated . . .
depend[ing] on future developments which are
contingent, conjectural, or improbable.”70 Future
medical expenses are inherently speculative and
should be assessed only with proper data and support.
The Alaska Supreme Court has raised specific caution
regarding assessment of future medical expenses.71
Collens’ expert testified regarding the projected
care that Collens would receive through his estimated
life, or until 2035. [TR 1082]. The expert assumed
static coverage of 24 hours a day care throughout
70

DeNardo v. GCI Commc’n Corp., 983 P.2d 1288, 1291
n.13 (Alaska 1999) (quoting Black’s Law Dictionary 392 (6th ed.
1996)).
71

See, e.g., Sherbahn v. Kerkove, 987 P.2d 195, 199
(Alaska 1999) (citing Pluid v. B.K., 948 P.2d 981, 984 (Alaska
1997); Blumenshine v. Baptiste, 869 P.2d 470, 473 (Alaska 1994)).

185a

Collens’ life, and assumed that this coverage is all part
of the damages. [TR 1066]. Such a determination is
inherently speculative.
The fundamental problem with Collens’ expert’s
opinion was that the expert assumed that Collens’
Plan of Care would remain the same for the remainder
of his life. [TR 1066]. In actuality, Collens’ care was
never fixed for a significant period of time. A Plan of
Care is recertified every 60 days. [TR 91]. Adjustments
and changes can and will happen. [TR 95-96, TR 132].
Moreover, any coverage Collens was authorized
to receive was still subject to the availability of the
requisite health care professionals in Alaska, and the
shortage of such professionals meant that Collens was
frequently receiving less than the amount of services
authorized. [TR 274-275].
On top of everything else, Collens self-elected
damages by moving to Washington State where the
available Medicaid benefits were not as generous as
what Collens could receive in Alaska. [TR 728-729]. He
essentially discharged himself. Collens decided to
leave Alaska in October 2012 because he was tired of
living in the dark and cold. [TR 934-35, Exc. 31].
Washington State allowed Collens only 16 hours of
services per day. [TR 729]. This was subsequently
adjusted to services of 23.75 hours per day. [TR 728].
Collens’ experts improperly factored this into their
opinions by basing damages on what Collens would
have received had he remained in Alaska, and in doing
so, failed to consider whether Collens properly
186a

mitigated the damages that he incurred.
The point is that adjustments and changes to
the Plan of Care are to be expected. The determination
of damages using a baseline of the Plan of Care in
effect at the time of discharge was a clear error, and,
as a result, the Superior Court relied on calculations of
damages that are clearly wrong, and included
additional damages that are unduly speculative.
The hours of care provided are not static, and
any determination on damages is inherently
speculative. However, Collens’ experts did not address
this uncertainty. Nor did the experts provide any
analysis as to why Collens should be entitled to the
full amount of the care coverage at the time of
discharge, rather than consider the impacts of
certifying the plans of care throughout the remainder
of Collens’ life as well as the reality of the care that is
authorized in Washington, based on Collens’ unilateral
decision to relocate there. Additional considerations,
such as whether Collens receives more actual care in
Washington State because the nursing shortages are
less severe, were never addressed by Collens’ experts.
When Maxim Healthcare entered into the
agreement with Collens to provide services, Maxim
Healthcare did not assume financial responsibility for
Collens’ future care after termination, especially
considering that Collens continues to receive care in
Washington State. Collens discharged himself by
unilaterally deciding to leave Alaska. This Court
should vacate the judgment and remand for a new trial
187a

on damages.
E.

IF THE COURT CONCLUDES THAT
COLLENS’ UTPA CLAIM IS VALID,
COLLENS SHOULD BE REQUIRED TO
ELECT HIS REMEDIES AS BETWEEN
TREBLE AND PUNITIVE DAMAGES

In Kenai Chrysler Center, Inc. v. Denison,72 this
Court held that plaintiffs may prosecute both a claim
for treble damages and a claim for punitive damages.
The Court never addressed the election of remedies
doctrine. It was never argued by the parties, perhaps
because the plaintiff voluntarily waived or abandoned
his claim for punitive damages.73 Maxim Healthcare
does not understand Denison to prevent application of
the election of remedies doctrine, and any statements
are dicta as the issue was not before the Court.
Although Maxim Healthcare does not believe that the
Denison court intended to preclude the election of
remedies doctrine, the test for overruling precedent is
easily met if the Court did intend that result. The
basic test for overruling precedent requires the Court
to be “clearly convinced that the precedent is erroneous
or no longer sound because of changed conditions, and
that more good than harm would result from

72

167 P.3d 1240, 1259-60 (Alaska 2007).

73

See Appellant’s Opening Brief, Kenai Chrysler Center
v. Denison, 2005 WL 3125973 (May 19, 2005) Appellees’
Answering Brief, 2005 WL 3125974 (August 19, 2005); Appellant’s
Reply Brief, 2005 WL 3826172 (October 10, 2005).

188a

overturning the case.”74
After damages are awarded, the overwhelming
majority of jurisdictions hold that the plaintiff must
elect which remedy to enforce.75 The election of
remedies is the act of choosing between different
remedies allowed by law on the same state of facts.76
The election of remedies doctrine is recognized and
enforced because otherwise plaintiffs would recover an
unwarranted windfall and/or an impermissible double
recovery.77
74

See Kinegak v. State, Dep’t of Corr., 129 P.3d 887, 88990 (Alaska 2006).
75

See Concrete Spaces, Inc. v. Sender, 2 S.W. 3d 901
(Tenn. 1999) (“Almost every jurisdiction addressing this question
has concluded that recovery of both multiple statutory damages
and punitive damages constitutes an impermissible double
recovery because the two forms of enhanced damages serve the
same functions.”); See also Lisa K. Gregory, Annotation, Plaintiff’s
Rights to Punitive or Multiple Damages when Cause of Action
Renders Both Available, 2 A.L.R. 5th 449 (1992).
76

Inman v. Imperial Chrysler-Plymouth, Inc., 397 S.E.2d
774, 776 (S.C. Ct. App. 1990).
77

See Birchfield v. Texarkana Memorial Hosp., 747
S.W.2d 361, 367 (Tex.1987) (awards of treble damages under
deceptive trade practices act and punitive damages under
common-law claim amounts to double recovery); Eastern Star, Inc.
v. Union Bldg. Materials Corp., 712 P.2d 1148, 1159 (Haw. App.
1985) (awards of treble damages under deceptive trade practices
act and punitive damages on fraud claim constitutes improper
double recovery); See also Lisa K. Gregory, Annotation, Plaintiff’s
Rights to Punitive or Multiple Damages when Cause of Action
Renders Both Available, 2 A.L.R. 5th 449 (1992).

189a

Most jurisdictions allow a plaintiff to pursue
both treble damages and punitive damages. However,
once damages are awarded, the plaintiff must elect
which remedy to recover to avoid a double recovery.78
When both statutory treble damages and punitive
damages are awarded for the same conduct, the
plaintiff should be required to choose between
statutory treble damages and punitive damages
because both awards serve the same or similar
purpose.
The Alaska Legislature stated that the purpose
of treble damages under UTPA is “to deter fraudulent
practices, encourage injured parties to come forward
and bring suit, and to reasonably compensate those
individuals for their trouble in bringing the suit.”79

78

See Holloway v. Wachovia Bank & Trust Co., N.A., 452
S.E.2d 233, 239 (N.C. 1994) (“A plaintiff is not precluded from
seeking both punitive and treble damages; only for purposes of an
actual recovery must an election between the two be made.”);
Concrete Spaces, 2 S.W.3d at 907 (“[A] plaintiff cannot recover
both punitive damages and multiple damages in the same cause
of action, even if they are each available, because receipt of both
forms of enhanced damages violates the principle against double
recovery.”); Mapp v. Toyota World, Inc., 344 S.E.2d 297 (N.C. Ct.
App. 1987) (“[o]ur appellate courts have clearly held that actions
may assert both violations and fraud based on the same conduct
or transaction and that plaintiff in such actions may receive
punitive damages or be awarded treble damages, but may not
have both.”).
79

See Judiciary Committee Report on HCSCS for Senate
Bill No. 352, House Journal Supp. No. 10 at 2, 1970 House
Journal (emphasis added).

190a

The Alaska Legislature emphasized that a key
component for treble damages was to punish
wrongdoers as a form of penalty.80 Representative
Dyson explained that the bill “allows for treble
damages if the claimant prevails, as part of the
penalty.”81
Punitive damages in Alaska serve the exact
same purpose; namely, to “to punish the wrongdoer
and to deter the wrongdoer and others like him from
repeating the offensive act.”82
Since both treble damages and punitive
damages serve to punish defendants and deter others
from engaging in the same misconduct, the
overwhelming majority of jurisdictions do not allow
plaintiffs to recover both.83

80

See also Actions for Unlawful Trade Practices, Hearing
on HB 203 Before the H. Comm. on the Judiciary, 20th Leg. (Feb.
9, 1998) (statement of Rep. Dyson) (Explaining that the bill
“allows for treble damages if the claimant prevails, as part of the
penalty.”).
81

Id.

82

Providence Washington Ins. Co. of Alaska v. City of
Valdez, 684 P.2d 861, 863 (Alaska 1984).
83

See, e.g., Lexton-Ancira Real Estate Fund, 1972 v.
Heller, 826 P.2d at 822 (Colo. 1992) (“Generally, a plaintiff may
not recover both treble damages and punitive damages premised
on the same facts because such damage awards serve similar
purposes.”); Central Telecommunications, Inc. v. TCI Cablevision,
Inc., 610 F.Supp. 891, 910 (W.D. Mo.1985) (punitive damages have

191a

For example, in Mapp v. Toyota World, Inc.,84
Mapp brought suit to recover damages for breach of
contract, breach of bailment, fraud and unfair and
deceptive practices all growing out of the sale of an
automobile. Like Alaska’s statute, North Carolina’s
consumer protection statute automatically trebles
damages without requiring proof of a willful
violation.85 The Court in Mapp found that “[o]ur
appellate courts have clearly held that actions may
assert both violations and fraud based on the same
conduct or transaction and that plaintiff in such
actions may receive punitive damages or be awarded
treble damages, but may not have both.”86
Here, all of Collens’ claims arose from the same
conduct and actions that supported his UTPA claim.
similar purpose to treble damages and parties may not collect
both); Lexton-Ancira Real Estate Fund, 1972 v. Heller, 826 P.2d
819, 822 (Colo. 1992) (“The purposes of punitive damages punishment and deterrence - are also purposes of treble damages
awards in Colorado. Under these circumstances, Hixson may not
recover both.”); Roberts v. American Warranty Corp., 514 A.2d
1132, 1135 (Del. 1986) (finding plaintiff not entitled to an award
of both punitive damages and treble damages under the deceptive
trade practices act because “the provision for treble damages is a
form of punitive damages….”); Johnson v. Tyler, 277 N.W.2d 617,
618-19 (Iowa 1979) (holding that plaintiffs should not have both
treble damages under the statute and punitive damages).
84

344 S.E.2d 297 (N.C. Ct. App. 1987) rev. denied, 347
S.E.2d 464 (N.C. 1986).
85

See N.C. Gen. Stat. Ann. § 75-16.

86

Mapp at 297.

192a

Collens was awarded $500,000 in punitive damages
and treble damages of $12 million. This amounts to an
impermissible double recovery. Collens should be
required to elect his remedy. Presumably, Collens will
elect the treble damages awarded under the UTPA for
two reasons: (1) the treble damages award is
significantly higher; and (2) the treble damages award
is not subject to the 50% set-aside for the State of
Alaska that is awarded to the State of Alaska when
punitive damages are awarded. Regardless, he should
not recover both forms of damages.
Collens will argue that, based on the Court’s
discussion in Denison, UTPA’s treble damages are not
the same as punitive damages because treble damages
serve “other important purposes” such as encouraging
“injured parties to file suits under the UTPA and to
ensure that they would be adequately compensated for
their efforts.”87 The Denison court also observed that
Alaska’s UTPA “no longer makes treble damages
contingent on proof of a willful violation,” [and
therefore] a separate award of punitive damages for
willful or reckless misconduct neither duplicates nor
conflicts with an award for treble damages. . . .” Id.
However, these comments do not undercut
application of the election of remedies doctrine for six
reasons. First, it is undeniable that treble damages are

87

Kenai Chrysler Center, Inc. v. Denison, 167 P.3d 1240,
1260 (Alaska 2007).

193a

intended to punish, to serve as a penalty.88 The fact
that there might be other purposes for treble damages
does not negate the fact that one of the primary
purposes for treble damages is to punish. Therefore, a
double recovery would absolutely exist if the Court
allowed both punitive damages and treble damages to
be imposed.
Second, the fact that proof of a willful violation
is not necessary to support treble damages does not
negate the fact that treble damages are primarily
intended to punish and deter wrongdoers (just like
punitive damages).
Third, there is no realistic way to allocate the
“other purposes” for treble damages addressed by the
Alaska Legislature. A primary purpose was to punish
and deter. Other purposes were also perceived as being
necessary because plaintiffs would not pursue lowmoney consumer appliance claims.89 There is no
practical way for a trial court to reduce a punitive
damages award on a percentage basis to prevent a
88

See Actions for Unlawful Trade Practices, Hearing on
HB 203 Before the H. Comm. on the Judiciary, 20th Leg. (Feb. 9,
1998) (statement of Rep. Dyson) (Explaining that the bill “allows
for treble damages if the claimant prevails, as part of the
penalty.”).
89

See Actions for Unlawful Trade Practices, Hearing on
HB 203 Before the H. Judiciary Standing Comm., 20th Leg. (April
1, 1998) (statement of Rep. Croft) (explaining that “These are little
injustices that are not cost-effective to pursue, for a broken toaster
or worthless life insurance policy, or else a person has no power,
now, to enjoin.”).

194a

double recovery of punishment damages.
Fourth, and related to the preceding point,
although a trial court could not allocate punitive
damages based on the legislative purposes, the “other
purposes” mentioned in Denison (to facilitate consumer
appliance claims) are not implicated by this case.
Collens did not need encouragement to file suit, and
never filed a UTPA claim.
Fifth, it is also significant—highly
significant—that in Denison the plaintiff waived his
claim for punitive damages. There was never any
possibility for a double recovery when the Court issued
its opinion. Consequently, any statement implying
otherwise should be construed as dicta.
Finally, election of remedies assumes an award
of both treble damages and punitive damages. It is not,
in other words, inconsistent with the statute or
Denison. Instead, election of remedies is triggered after
both forms of damages have been awarded to ensure
that plaintiffs do not receive a double recovery.
This Court should adopt the rule of law that
best accords with law, reason, and overwhelming
precedent. Collens should not be allowed to recover
both treble damages and punitive damages.
F.

THERE WAS NEVER SUFFICIENT
EVIDENCE TO SUPPORT THE $500,000 IN
PUNITIVE DAMAGES OR THE $400,000 IN
NON-ECONOMIC DAMAGES FOR
195a

EMOTIONAL DISTRESS
Punitive and non-economic damages must be
anchored to some reasonable, rational support. Here,
the amounts imposed for the alleged emotional
distress and the punitive damages were seemingly
pulled out of thin air. There is neither support
provided to demonstrate why the damages for
emotional distress were $400,000, nor is there any
support for awarding $500,000 for punitive damages.
There is no evidence addressing the basis for the
damages. Rather, the amounts are entirely arbitrary.
They could just as easily have been one-tenth the
amount as ten times the amount awarded because
there is no rational anchor behind either award. The
Court should vacate and remand.
1.

There was never any evidence of
malice or reckless indifference for
Collens’ rights but, instead, goodfaith communication errors.

Punitive damages require clear and convincing
evidence of malice or reckless indifference to the rights
of others and conscious action in deliberate disregard
of those rights.90 The Superior Court never held the
separate proceeding mandated by statute, AS
09.17.020(a) & (c), before imposing punitive damages.
Reversal is compelled on the basis alone.

90

See Cummings v. Sea Lion Corp., 924 P.2d 1011, 1022
(Alaska 1996).

196a

Here, the Superior Court concluded that Maxim
Healthcare and Ms. Adkins acted in a way that was
“both outrageous and demonstrated a reckless
indifference toward plaintiff’s health and safety.” [CR
004681 ¶54]. The evidence never supported punitive
damages. At worst, Maxim Healthcare personnel made
procedural mistakes—yes, even serious mistakes. The
mistakes that occurred were essentially good-faith
communication errors that were precipitated, in part,
by Miller who disrupted dialogue between Maxim
Healthcare and Collens. [TR 113]. Collens’ discharge
was not done with reckless indifference or deliberate
disregard. Rather, Maxim Healthcare discharged
Collens because of compliance concerns. [TR 113].
Maxim Healthcare personnel mistakenly failed to
discuss the discharge decision with Collens’ care
coordinator and physician before the discharge took
effect. Although, in hindsight, the discharge decision
was flawed, especially in terms of its execution, there
was never clear and convincing evidence that Maxim
Healthcare deliberately disregarded Collens’ rights or
acted with malice. The Superior Court failed to note
numerous contrary facts, including that Collens was
readmitted to treatment in July 2012, a fact that belies
any malicious or bad faith motive on the part of Maxim
Healthcare or any reckless indifference to his rights.
The Court should vacate the punitive damages award
and/or remand with instructions for the Superior
Court to reconsider its award in light of the law and
actual facts.
2.

Other than extremely conclusory
(and leading) testimony by which
197a

Collens claimed to suffer “stress,”
there was never any actual evidence
of any emotional stress, the
objectively verifiable evidence
disproved that Collens suffered any
stress, and in awarding $400,000 for
emotional distress the Superior
Court ignored other stressors
impacting Collens that presumably
had a greater impact on his life.
The $250,000 statutory cap for non-economic
damages in healthcare cases established by AS
09.55.549(d) should have applied in this case. Collens
never provided evidence that explained what alleged
“stress” he suffered that would justify an award of
$400,000 for emotional distress. The testimony on
emotional distress was extremely conclusory and solely
provided in response to leading questions.91 There was
no other objectively verifiable evidence regarding
stress such as life affairs being disrupted, loss of sleep,
loss of appetite, or other stress-related indicators. [CR
003303]. Significantly, Collens’ vital signs (including
his blood pressure) were the same before and after his
discharge. [CR 003567 ¶88].
The Superior Court seemingly did not consider
other stressors that had a greater impact on Collens.

91

Q: Was [the discharge] a stressful event for them?

Denise Shelton: Yes.
[TR 879].

198a

For example, after he was discharged by Maxim
Healthcare, Collens’ personal care assistant Kevin
Miller gave Collens an ultimatum to choose him or his
mother, and when Collens selected his mother, Miller
walked out without notice. Collens conceded he was
very upset. [TR 985]. This undeniably impacted
Collen’s life and care. [TR 984-985].
Collens’ decision to leave Alaska betrayed no
signs of stress. He left because he was tired of living in
the dark and cold. [TR 934-935, Exc. 031]. In context,
the $400,000 damages awarded for emotional distress
are unreasonably high, unsupported, and contrary to
the orderly administration of justice. The Court should
vacate these damages and remand for a new trial on
damages.
G.

THE AWARD OF ATTORNEYS’ FEES WAS
NEITHER
REASONABLE
NOR
SUPPORTED BY COLLENS’ OWN
AGREEMENT WITH HIS ATTORNEY

Assuming that Collens’ UTPA claim stands,
then Collens would be entitled to attorney fees under
AS 45.50.537. The statutory attorney fees under UTPA
are available to any private person bringing an action
under AS 45.50.471 who is a prevailing party in the
action. As such, Collens would be entitled to “full
reasonable attorney fees at the prevailing reasonable
rate.”92

92

See AS 45.50.537.

199a

Under the clear language of AS 45.50.537, the
court must determine both the “full reasonable
attorney fees” as well as the “prevailing reasonable
rate.” The court must view any potential contingency
fee agreement in its full context to determine if “full”
fees are appropriate and reasonable.93 This Court has
not previously ruled on the validity of awarding a full
attorney fee award by contingency fee under AS
45.50.537.
In Valdez Fisheries Development Ass’n, Inc. v.
Froines,94 this Court provided instruction regarding
the standards for a reasonableness determination,
observing that trial courts should evaluate “whether
the hourly rate charged was reasonable and whether
the number of hours worked was reasonable.”95 The
court noted “itemized billing . . . provides a starting
point because it establishes what fees were ‘actually’
incurred.”96
Here, Collens’ counsel failed to complete any
timekeeping at all in this matter. [Exc. 367, Exc. 370].
Collens’ counsel conceded that the contingency fee

93

See, e.g., Corvette Shop & Supplies, Inc. v. Coggins, 779
So.2d 529, 531 (Fla. Ct. App. 2000) (finding that a reasonable fee
under the Florida UTPA statute is based on “hours actually spent
on the case”).
94

217 P.3d 830, 833 (Alaska 2009).

95

Id.

96

Id.

200a

agreement “results in a fee that substantially exceeds
the fees that would have been paid if plaintiff had been
able to retain counsel on an hourly basis.” [Exc. 370].
Counsel, however, argued without citation that the
reasonableness of the contingent fee must be judged at
the time the agreement is entered into and not at the
conclusion of the matter. [Exc. 371, CR 004419].
Following the logic of Collens’ counsel, the only
inquiry of reasonableness should be at the time of
execution of the contingency fee agreement. Thus,
there are no apparent benchmarks to determine the
reasonableness of the agreement other than counsel’s
evaluation of the case at that time. Counsel’s
argument that one cannot look beyond the date of
execution of the agreement cannot be the proper
analysis under the statute.
Is it equally reasonable for Attorney A to receive
40% of a judgment in which he works five hours on the
matter, as compared to Attorney B who receives 40%
of a judgment while working 5,000 hours on the
matter? Possibly, but it is absurd to suggest that this
should not be a relevant inquiry regarding the
reasonableness of the fees.97
Most importantly, the attorney fee award is not
only unreasonable but contrary to the express

97

See, e.g., Rule 82(b)(3)(C) (listing as a factor for
consideration for evaluating attorney fee awards “the
reasonableness of the attorneys’ hourly rates and the number of
hours expended”).

201a

language of the contingency fee agreement. The
agreement states that “for purposes of calculating fees
in the event of court awarded fees… attorney’s fees are
charged at the rate of $325.00 per hour.” [Exc. 475 ¶6].
Thus, the agreement that Collens relies on for support
of a contingency fee award actually calls for court
awarded fees to be based on hourly rate calculations.
Collens’ counsel confirmed that he maintained
no time records in this matter and further confirmed
that the contingency fee award is greater than what an
hourly award would be. [Exc. 368, Exc. 370, CR
004854]. A party who elects to not follow a contingency
fee agreement that he himself drafted should not be
rewarded as a result with a windfall of over four
million dollars in excess of the Rule 82 schedule. To
the extent Collens remains the prevailing party,
attorney fees under a Rule 82 schedule appears to be
the only reasonable way to determine the award. The
use of the agreement to support any court awarded
fees other than for actual hourly fees incurred is
improper and contrary to the express terms of the
agreement. This Court should vacate the award of fees
and remand for further proceedings.
V. CONCLUSION
This Court should vacate the Superior Court’s
judgment, disallow any UTPA claim as the claim was
exempt, and remand for a new trial on contract and
tort damages. The Court should also adopt the election
of remedies as a rule of law governing trade practice
claims in Alaska as it is the most persuasive rule of
202a

law that best comports with reason, policy, and
overwhelming precedent from other jurisdictions.

203a

Certificate of Compliance and Service
The undersigned certifies that the typestyle and font
used in the foregoing Brief of Appellants Alaina
Adkins and Maxim Healthcare Services, Inc. is Times
New Roman 13, proportionally spaced.
The undersigned also certifies that on the 27th day of
April, 2018, copy of the foregoing document was served
via:
( X ) First Class Mail
( ) Facsimile and Mail
( ) Hand Delivery
( ) Electronic Mail
on the following:
Michael T. Stehle
Law Office of Michael Stehle, PC
1200 R Street, Suite B
Anchorage, Alaska 99501
By: /s/

Julie M. Gauthier

204a

APPENDIX H
IN THE SUPREME COURT OF
THE STATE OF ALASKA
[DATE STAMP]
FILED
SEP 07 2018
APPELLATE COURTS
OF THE
STATE OF ALASKA
ALAINA ADKINS and MAXIM,
HEALTHCARE SERVICES, INC.,
Appellants,
v.
JESSE MICHAEL COLLINS,
Appellee.
Supreme Court No. S-16930
Superior Court No. 3AN-14-05961CI
APPEAL FROM A FINAL JUDGMENT OF THE
SUPERIOR COURT THIRD JUDICIAL DISTRICT
AT ANCHORAGE, THE HONORABLE JUDGE
FRANK A. PFIFFNER, PRESIDING
SUPPLEMENTAL BRIEF OF APPELLANTS
ALAINA ADKINS AND MAXIM HEALTHCARE
SERVICES, INC.
205a

Filed in the Supreme Court
August 29, 2018.
______________________, Clerk
By: /s/

Deputy Clerk

/s/
Gregory S. Fisher, ABA No. 9111084
/s/
Kristal Leonard, ABA No. 1411101
DAVIS WRIGHT TREMAINE LLP
188 W. Northern Lights Blvd., Ste. 1100
Anchorage, AK 99503
Telephone: 907-257-5300
Fax: 907-257-5399
Attorneys for Appellants

206a

INTRODUCTION
Maxim Healthcare respectfully files this
Supplemental Brief in accordance with the Court’s
July 25, 2018 order. The unalleged UTPA claim in this
medical care case resulted in a $21 million judgment
being imposed. Medical professionals are alarmed by
this result. There was no death, no physical injury, no
serious injury of any kind, and no objectively verifiable
evidence of any non-economic damages. If this
judgment is allowed to stand it will have a real, direct,
and significant impact on medical professionals in
Alaska. It will also escalate healthcare costs adversely
impacting all Alaskans and lead to other negative
collateral consequences. Collens is not left without a
remedy and adequate recompense if the UTPA claim
is eliminated.
ARGUMENT
A.

The fact that Collens is master of his
own complaint does not answer the
real, significant, and critically
important public policy concerns
animating ASTHMA’s and ASDA’s
amicus brief

Collens misapprehends the real, significant, and
critically important public policy concerns animating
ASTHMA’s and ASDA’s amicus brief. And Amici’s
policy-related arguments do not somehow implicate
waiver arguments. Indeed, amicus briefs are often
best-suited to assist courts by advancing policy
207a

arguments in the form of a Brandeis brief.1 This Court
may and should address important policy concerns in
exercising its discretion and judgment.2 The Court is
not infallible, but it is final. It should welcome more
information and views to inform the exercise of its
judgment and discretion. Plaintiffs may be masters of
their own complaints, but that does not mean that
otherwise real, significant, and critically important
public policy concerns evaporate once a plaintiff files
suit.
B.

The argument Amici raised presents
a pure question of law that the Court
may and should properly consider

Collens correctly notes that the specific
statutory exemption argument Amici raised based on
AS 09.55 was never raised before the Superior Court.
See Collens’ Supplemental Brief at 5. However, it is
related to the statutory exemption argument that
Maxim Healthcare expressly argued based on AS 47.32
and the regulatory scheme found at 7 AAC 12.500-.590
because both statutory exemption arguments rest on
the point that medical care is heavily regulated.
Moreover, Amici’s statutory exemption argument
1

See N. Morag-Levine, “Facts, Formalism, and the
Brandeis Brief: The Origins of a Myth,” 2013 U. Ill. L. Rev. 59
(2013), available at https://digitalcommons.law.msu.edu/
cgi/viewcontent.cgi? article=1557&context=facpubs (Last visited
August 10, 2018).
2

Mat-Su Valley Med. Ctr., LLC v. Advanced Pain Ctrs. of
Alaska, Inc., 218 P.3d 698, 700 (Alaska 2009) (in exercising its
discretion and judgment, the Court adopts the rule of law that is
most persuasive in light of precedent, reason, and policy).

208a

presents a pure question of law and does not implicate
any new facts or additional discovery. This Court has
always applied a liberal policy of preserving issues for
appellate review.3 Issues may be expanded on appeal
if they concern pure questions of law and do not
involve any new or additional facts.4 Given the real,
significant, and critically important public policy
issues relate to this appeal, and specifically to Collens’
UTPA claim, the Court should address the merits of
Amici’s statutory exemption argument regardless
whether the Court accepts or rejects that same
argument.
C.

Even if the Court concludes that
Amici’s specific exemption argument
is not properly raised on this appeal,
the underlying public policy
arguments related to that argument
can and should be considered

As addressed in both Maxim Healthcare’s
Opening and Reply Briefs, and in the amicus brief,
Collens’ UTPA claim is exempt.5 The overwhelming
majority of jurisdictions (actually described by one
court as a “near unanimous line of authority”) have
concluded that medical care is not a “service” subject
to trade practices or consumer practices statutes
3

See Maxim Healthcare’s Reply Brief at 3-5 (citing
authorities and discussing principles).
4

Id.

5

See Maxim Healthcare’s Opening Brief at 14-30; Reply
Brief at 6-9; Amicus Brief at 7-9.

209a

and/or that such care is exempt (the two concepts are
indistinguishably inter-related because medical care is
highly regulated).6 These cases rely upon concepts and
theories that readily translate to the Alaska market.
Concluding that medical care is a covered “service” or
is not exempt from UTPA places healthcare
practitioners at risk of treble damages under UTPA for
acts and decisions normally incident to (in fact,
compelled by) best practices for medical professionals.
For example, the concept of informed consent is
a critical concept related to medical care. Doctors,
dentists, nurses, and others are always communicating
information to patients regarding medical care,
treatment, discharge, and other subjects. Under
Collens’ theory, a plaintiff could pursue a UTPA
misrepresentation claim (as Collens did here) for any
such communication if the plaintiff later thought the
communication did not accurately project a result or
condition, or if the medical professional lied.7 This is
only one example, but illustrates the point.
The cases (the “nearly unanimous line of
authority”) cited by Amici and also Maxim Healthcare
in its Opening Brief all draw upon concepts that have
6

See Brookins v. Mote, M.D., 292 P.3d 347, 359 (Mont.
2012); see also Maxim Healthcare’s Opening Brief at 20-24;
Amicus Brief at 7-9.
7

The Superior Court concluded that Maxim Healthcare’s
local manager, Ms. Adkins, was not credible. Accepting that
finding at face value, the improper discharge would constitute a
breach of contract or support a medical malpractice abandonment
claim for discharging a patient in violation of the standard of care,
both of which could also support punitive damages in Alaska.

210a

equal force and effect in this case.
Similarly, the statutory exemption argument
that Amici raised is underpinned by concepts and
theories that relate to this or any other medical care
case. The question is not simply whether Collens’
UTPA claim was exempt under AS 09.55 (as argued by
Amici) but why—why is medical care heavily
regulated, and what do the underlying principles and
concepts teach us with respect to this case? Even if the
Court determines that Amici’s argument is not
properly before it on the merits, the Court may and
should consider the conceptual policy-related
foundation underlying those same arguments.
The central goal driving healthcare in the
United States over the past 25 years has been
controlling medical costs and insurance premiums that
are spiraling out of control. Imposing a $21 million
judgment for an unalleged UTPA claim under the
circumstances such as those presented by this case
runs counter to all public policy goals because the risks
and costs cannot be predicted or controlled, and the
provision of healthcare is at issue.
Allowing UTPA claims against medical
professionals for medical care will result in
skyrocketing medical care costs. The impact on
adjusting risks must be understood. Maxim
Healthcare and Amici appreciate that the Court is
well-familiar with these principles. Health insurance
and medical malpractice insurance are different but
similar—both analyze risks and spread costs based on
211a

traditional insurance pool concepts. A key component
is the ability to control risks or costs. This, in turn,
hinges on predictability.
Analyzed in context, the damages that Collens
suffered in this case were primarily driven by two
factors: (1) Collens’ unilateral and voluntary decision
to leave Alaska and move to another state
(Washington State) where available Medicaid benefits
were not as generous as in Alaska; and (2) chronic
nursing shortages that affect all states.8 Nursing
shortages are acute in Alaska even with a Nursing
School at UAA.9
Collens’ Medicaid benefits were the same before
and after he was discharged by Maxim Healthcare. All
Collens ever did was assign the right to bill Medicaid
for private duty nursing services that were provided,
and the exact character of those services changed
every 62 days because Plans of Care are reviewed and
revised every 62 days. No one died. Collens suffered no
serious physical injury. His condition was not
exacerbated. Collens did not suffer a stroke as a result
of his discharge. He was discharged in April 2012, and
then re-admitted under a new Plan of Care in July
8

See Rebecca Grant, “The U.S. is Running out of Nurses,
The Atlantic (February 3, 2016) (available at
https://www.theatlantic.com/health/archive/2016/02/nursingshortage/459741/) (Last visited August 16, 2018).
9

See Catalina Myers, “UAA Nursing School Steps Up to
Shortage,” Alaska Journal of Commerce (October 25, 2017)
(available at http://www.alaskajournal.com/2017-10-25/uaanursing-school-steps-shortage#. WpFmiUxFzIU) (Last visited
August 16, 2018).

212a

2012. [TR 722, CR 1355, Exc. 298 ¶ 68]. There is no
objectively verifiable evidence of any actual stress
beyond Collens’ testimony in response to leading
questions that he suffered unspecified stress. [CR
003303, CR 003567 ¶ 88]. His vital signs were the
same before and after he was discharged. [CR 003567
¶ 88]. There was no testimony about loss of enjoyment
of life, loss of sleep, loss of hair or other physical
indications of severe stress.
Thus, the damages that Collens suffered were
principally based on factors beyond the ability of
Maxim Healthcare to either predict or control. There
is simply no way that any healthcare or medical
professional could control risks or costs in this context.
The resulting $21 million judgment will escalate
health insurance and medical malpractice premiums
beyond control.
Healthcare costs are already higher in Alaska
than in nearly any other state.10 And Alaska faces a
10

See Alaska Common Ground, “High Healthcare Costs
in Alaska: Facts, Causes, Consequences, and Remedies” (2018)
(available at http://akcommonground.org/high-health-care-costsin-alaska-facts-causes- consequences-and-remedies/ (last visited
August 16, 2018). Alaska Department of Health and Human
Services maintains a webpage addressing high healthcare costs in
Alaska, and collects white papers and other research data
addressing this subject. A principal source is a 2011 study that is
still largely current in its analyses and conclusions. See Edward
Jhu and John Pickering, “Drivers of Health Care Costs in Alaska
and Companion States” (Milliaman Client Report Nov. 29, 2011),
prepared for the Alaska Health Care Commission, Department of
Health and Human Services (available at
http://dhss.alaska.gov/ahcc/Pages/ focus/healthcarecosts.aspx)

213a

chronic shortage of medical professionals in all
disciplines.11 Subjecting home health agencies to
liability under UTPA for providing private duty
nursing will drive home health agencies from the
market, or deter them from entering the market,
resulting in less care at higher costs. High healthcare
and insurance costs are already leading to a surge in
so-called “medical tourism” by which Alaskans seek
medical care from providers in other countries not
subject to the same professional and regulatory
oversight that medical professionals in the United
States face.12
Home health agencies provide a valuable range
of medical care and are a critical partner in the

(Last visited February 24, 2018). http://dhss.
alaska.gov/ahcc/Documents/meetings/201108/ISER%20Healthcare%20Spending%20in%20Alaska% 202010%20Report.pdf (Last
visited February 24, 2018).
11

See Rosemary Shinohara. “Alaska’s Physician Shortage
Called Grim,” Anchorage Daily News (republished and available
at https://www.cunninghamgroupins.com/alaskas-physicianshortage-called-grim (Last visited August 16, 2018). Health
Professional Shortage Area (HPSA) designation is beyond the
scope of this amicus brief. http://dhss.alaska.
gov/dph/HealthPlanning/Documents/primarycare/Impact
AnalysisFindings. NoticetoStakeholders.Final.4.6.17b.pdf
12

See Laurel Andrews, “Alaskans Seek Relief from High
Health Care Costs with Medical Tourism,” Anchorage Daily News
(November 9, 2015) (available at https://www.adn.com
/health/article/alaskans-seek-relief-high-health-care-costsmedical-tourism/2015/11/09/ ) (Last visited August 16, 2018).

214a

healthcare industry. The population is aging.13 Family
dynamics are changing. In most families, both spouses
work.14 Few families have the luxury of caring for an
aging or sick family member at home without help
from someone.15 This is particularly true in Alaska
which has historically suffered chronic shortages in all
medical professions.
Home health agencies such as Maxim
Healthcare provide a necessary and critical level of
medical support. Home health agencies are licensed by
the State of Alaska.16 Home health agencies are also
subject to federal regulations. If home health agencies
violate current regulations, they face sanctions that
include fines, penalties, or potential suspension or loss
of license.
However, if home health agencies face multimillion dollar judgments for errors in healthcare
provision, those same providers may well decide not to
enter the market. No one would be surprised if home
13

See M. Silverstein and R. Giarrusso, “Aging in Family
Life: A Decade in Review,” NCBI (2010) available at
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC3427733/).
14

See Economics Daily Notes, Bureau of Labor Statistics,
U.S.
Department
of
Labor
(available
at
https://www.bls.gov/opub/ted/2001/apr/ wk4/art02.htm); see also
id. https://www.bls.gov/opub/ted/2016/husband-and-wifeemployed-in-48-percent-of- married-couple-families-in-2015.htm.
15

See U.S. Department of Labor Blog, “Caring for Elderly
Parents” (August 18, 2016) (available at
https://blog.dol.gov/2016/08/18/caring-for-elderly-parents).
16

See Opening Brief at 14-17 (for citation and discussion).

215a

health agencies re-evaluated their commitment to
Alaska in light of the judgment imposed in this case.
Hopefully, that will not happen. But judgments have
real world consequences. This is what drives policy,
law, and the prudent administration of justice.
Approximately 52 million Americans care for an
adult with a disability or illness.17 Fifty-nine percent
have full-time jobs outside the home.18 Balancing
caregiving with work is one of the most significant
challenges these caregivers face.19 Even for those who
have the time and ability to provide adequate care,
respite services are necessary from time to time to
allow those caregivers a break.20 Home health agencies
are one key option for caregivers—certainly not the
only option, but obviously, where available, an option
that provides support with the assurances of state and
federal regulation.21
At present, Maxim Healthcare is one of the few
home health agencies operating in Alaska. In the
specific context of healthcare costs in Alaska, experts
17

See Family Caregivers: Statistics, Tips, and Challenges
for
Family
Caregivers
(at
https://www.
homehealthcareagencies.com/resources/family-caregivers/) (Last
visited August 16, 2018).
18

Id.

19

Id.

20

Id.

21

The Family Caregiver Alliance provides tips, ideas,
suggestions, and practical considerations for people researching
whether or not to hire outside help and, if so, from what resources.
https://www.caregiver.org/hiring-home-help

216a

have projected that costs could be lowered in Alaska
through expanded home healthcare visits for
community-based healthcare.22 Alaska should
encourage healthcare professionals to enter the state,
not adopt rules or make decisions that discourage
them from coming here (or that encourage them to
leave once here). Competition suppresses costs and
improves medical care.23
This does not mean that Maxim Healthcare or
any other healthcare professional could not be liable
under some other theory. Collens’ contract, tort, and
punitive damages claims are validly alleged. As Amici
instruct, Collens could also have alleged a medical
malpractice claim if he suffered any physical injury.
However, as he has now belatedly conceded, he never
suffered any physical injury.24
The fact that Collens never suffered any
physical injury further emphasizes how alarming the
result of this case is to medical care professionals.
Collens obtained a judgment for $21 million where
there was no death, no physical injury, no serious
injury of any kind, and no objectively verifiable
22

See Alaska Common Ground, “High Healthcare Costs
in Alaska: Facts, Causes, Consequences, and Remedies” (2018)
(available at http://akcommonground.org/high-health-care-costsin-alaska-facts-causes-consequences-and-remedies/ (last visited
August 16, 2018)).
23

Id.

24

See Collens’ Opposition to Amici’s Motion for
Reconsideration, filed May 24, 2018 at p. 2 (“There was no claim
for physical injury.”).

217a

evidence of any emotional stress or non-economic
damages. UTPA allows $500 or treble damages,
whichever is greater.25 The glaring disparity between
$500 and $21 million provides further proof that the
Alaska Legislature never intended UTPA to apply to
medical care cases.
The fallout extends to Alaska’s economic
climate. High healthcare costs discourage business
growth, investment, and development.26 Employers are
less likely to expand and hire when faced with high
premiums. High medical costs drive premiums up.
Businesses of all sizes are less likely to invest or
relocate in Alaska because labor costs are always a key
component of such decisions, and healthcare costs
represent the largest piece of the labor cost pie.
Furthermore, medical professionals are alarmed
at the staggering range of damages that were imposed
in this case where there was no death, no physical
injury, no objectively verifiable evidence of noneconomic injury, and no out-of-pocket loss. Damages
are intended to compensate, not to provide undeserved
windfalls. In this case, Collens assigned the right to
bill Medicaid for private duty nursing that was
provided by Maxim Healthcare. The benefits never
25

AS 45.50.531(a).

26

See Charles Wohlforth, “Alaska’s Extreme Healthcare
Costs Destroy Economic Opportunity and Warp Lives,” Anchorage
Daily News (September 5, 2016)(available at
https://www.adn.com/opinions/2016/09/05/alaskas-extreme-healthcare-costs-destroy-economic-opportunity-and-warp-lives/ (last
visited August 16, 2018).

218a

changed. Collens’ Medicaid benefits were the same
before and after he was discharged. His available
benefits were reduced when he decided, on his own, to
leave Alaska and move to Washington State. But that
was because Washington State does not offer Medicaid
benefits that are as generous as those in Alaska.
Collens could have remained in Alaska.
Moreover, Collens was lawfully discharged in
February 2013. [CR 000400-401]. The fact that the
Superior Court imposed damages covering the rest of
Collens’ projected life after Collens was lawfully
discharged alarms medical care and insurance
professionals.
Finally, due process requires fair and
reasonable notice regarding potential implications of
alleged conduct.27 In analyzing whether damages
offend due process, courts have generally addressed a
range of factors including the reprehensibility of
misconduct, the ratio of the award to actual damages
suffered by the plaintiff, and the difference between
the damages and civil or criminal penalties that could
be imposed.28 Courts have often linked their reasoning
to public policy concerns. Those are obvious here. A
$21 million judgment for alleged misconduct related to
the provision of healthcare directly touches upon our
long-standing national debate regarding healthcare
costs, risks, insurance, and healthcare policy.
27

See Exxon Shipping Co. v. Baker, 554 U.S. 471 (2008);
State Farm Mutual Automobile Ins. Co. v. Campbell, 538 U.S. 408
(2003); BMW of North America, Inc. v. Gore, 517 U.S. 559 (1996).
28

Id.

219a

Here, the regulatory scheme envisions sanctions
or loss of license for discharging a patient contrary to
a home health agency’s policies.29 The Alaska
Legislature has prescribed damages limits for noneconomic damages and for punitive damages in the
context of medical malpractice claims. Medical
professionals understand that practicing their
profession is a privilege, and that they justifiably could
be liable for misconduct or breaching the standard of
care, but the normal range of adverse consequences is
starkly different from a $21 million judgment where
there was no death, no physical injury, no objectively
verifiable evidence of any non-economic damages. The
ratio of the award to actual damages is grossly
disproportionate because Collens really suffered no
damages, and certainly nothing in the range of $21
million.
These are the real, significant, and critically
important public policy concerns implicated by the
cases cited by Amici and Maxim Healthcare, and by
the statutory exemption arguments. Collens ignores all
of these concerns. This Court should not be so
similarly blind.
D.

This was a medical care case
involving a patient’s discharge from
a private duty nursing agreement

Collens again argues that his case had nothing
to do with medical care. See Collens’ Supplemental
29

See AS 47.32.120; 7 AAC 10.9600; 7 AAC 12.500-.590;
7 AAC 12.600-.620.

220a

Brief at 3-4. Discharge is medical care. Discharge is
nothing but medical care. All argument and evidence
centered on the fact that medical care was being
provided under a private duty nursing agreement. The
core document supporting Collens’ breach of contract
and UTPA claim was the Patient’s Rights and
Responsibilities agreement (emphasis added). [Exc.
002-003]. The Superior Court faulted Maxim
Healthcare’s handling of the discharge decision and
process but, nevertheless, expressly recognized that
the discharge decision was solely related to medical
care and compliance issues. [Exc. 289 ¶ 49, Exc. 291 ¶
52]. As addressed by Amici, discharge is medical care.
Collens’ discharge was medical care.
Collens’ counsel argued during trial that:
This is health care, Your Honor. This is –
this is one of the most important things
that we can have as individuals,
essentially, for a person with a disability
to have a health care agency leave you
vulnerable, violate the doctor’s order,
violate your own policies and procedures,
leave you with no care, putting his
health, safety, and even his life at risk,
and then lying about it.
[TR 1560:21 – 1561:4].
Home health agencies provide medical care as
the governing statute and implementing regulations

221a

confirm.30 The Superior Court’s decision repeatedly
referred to the medical care nature of this case, along
with the regulations addressing patients, patient care,
and discharge decisions involving patients. [Exc. 268,
285, 286, 293, 295, and 327]. The regulations under 7
AAC 12.500 specifically refer to “patients”—and
“patients” are persons receiving medical care. The
Superior Court even cited and relied upon the
Hippocratic Oath. [Exc. 286]. This was a medical case
involving a patient’s discharge from nursing care.
E.

Maxim Healthcare never waived its
UTPA exemption argument —all
arguments were preserved for
appellate review under Alaska’s
liberal appellate review standard

Collens again argues that Maxim Healthcare (as
apart from Amici) waived the right to argue UTPA’s
statutory exemption on appeal by not arguing it before
the Superior Court. See Collens’ Supplemental Brief at
5. This is simply not true, and it is disturbing that
Collens continually makes this argument in light of
the record. During summary judgment motion
practice, Maxim Healthcare expressly and specifically
argued that Collens’ UTPA claim was exempt. [Exc.
132-33]. Maxim Healthcare pointed out that the
nursing care it provided was subject to a
comprehensive regulatory scheme. [Exc. 133]. Maxim
Healthcare argued that there was “a complete
statutory scheme for regulation which contains both a
definition of violations and the punishment for
30

See AS 47.32; 7 AAC 12.500-.590; 7 AAC 12.600-.620.

222a

violations. The various acts of misrepresentation that
are prohibited in AS 45.50.571 are likewise addressed
in 7 AAC 12.531, Agency Policies and Procedures and
7 AAC 12.534, Patient’s Rights.” [Id.]. Maxim
Healthcare concluded: “[t]herefore, the exemption
under [UTPA] applies.” [Id.]. Collens argues for an
overly stringent waiver concept that this Court has
long-rejected.31
F.

UTPA’s exemption
should be enforced

applies

and

Collens again argues that the standards for
application of UTPA’s exemption were not met. See
Collens’ Supplemental Brief at 6.
A claim is exempt from UTPA if the activity is
regulated and the specific facts as alleged are
prohibited by that regulation.32 Collens’ case theory
centered on his claim that Maxim Healthcare breached
its agreement with him regarding how and when he
would be discharged from care. Collens concedes the
same. See Collens’ Supplemental Brief at 4.
The specific agreement was the Patient’s Bill of
Rights. This was part of Maxim Healthcare’s policies
and also the Plan of Care. The specific provision in the
Patient’s Bill of Rights implicated by Collens’ case was
Paragraph 33 (or Section 33). [Exc. 015]. This
31

See Maxim Healthcare’s Reply Brief at 3-6 (for
discussion with citation to authorities).
32

See Maxim Healthcare’s Opening Brief at 14-15 (for
discussion with citation to authority).

223a

paragraph provided that Collens had the right “not to
be transferred or discharged unless: a. The individual’s
medical needs require transfer; b. The individual’s
health and safety or that of another person requires
transfer or discharge; or c. The individual fails to pay
for services, except as such transfer or discharge is
prohibited by law. D. The individual does not meet any
criteria for continued service set forth by Maxim,
federal, state, or local statute or regulation.” [Id.]
Alaska regulations specifically require home
health agencies to adopt policies and Plans of Care
addressing how and when patients are discharged, and
to inform patients regarding those policies and Plans
of Care.33 Alaska regulations prohibit a home health
agency from discharging a patient in violation of its
policies and/or Plan of Care.34 Alaska regulations
further establish that home health agencies are
subject to regular inspections (announced and
unannounced) to ensure compliance with all governing
regulations.35 Alaska regulations prescribe specific
penalties if a home health agency fails to comply with
the regulations.36 Those penalties include license
revocation or suspension among other penalties.37
In short, the specific allegations of Collens’
33

Id. at 15-19; see also Maxim Healthcare’s Reply Brief at

34

Id.

35

Id.

36

Id.

37

Id.

6-10.

224a

UTPA claim are prohibited by Alaska law, and
Alaska’s regulatory scheme provides ongoing, careful
scrutiny of home health agencies to ensure they
comply with all regulations. Collens’ UTPA claim is
exempt.
CONCLUSION
No medical professional should face UTPA
liability for any act or omission related to medical care.
Collens is not left without a remedy and recompense.
This Court should vacate the judgment and remand
with instructions for the Superior Court to exempt the
UTPA claim, and to conduct a trial on contract and
punitive damages with Maxim Healthcare afforded the
right to present expert testimony.

225a

CERTIFICATE OF COMPLIANCE
AND SERVICE
The undersigned certifies that the typestyle and
font used in the foregoing Supplemental Brief of
Appellants Alaina Adkins and Maxim Healthcare
Services, Inc. is Times New Roman 13, proportionally
spaced.
The undersigned also certifies that on the 23rd
day of August, 2018, copy of the foregoing document
was served via:
( X ) First Class Mail
( ) Facsimile and Mail
( ) Hand Delivery
( ) Electronic Mail
on the following:
Jeffrey M. Feldman
Summit Law Group
315 5th Avenue South, #1000
Seattle WA 98104
Roger F. Holmes
Biss & Holmes
3948 Clay Products Drive
Anchorage AK 99517
Susan Orlansky
Reeves Amodio LLC
500 L Street, Suite 300
226a

Anchorage AK 99501
Michael T. Stehle, Esq.
Law Office of Michael Stehle, PC
1200 R. Street, Suite B
Anchorage AK 99501
John J. Tiemessen
Clapp Peterson Tiemessen Thorsness & Johnson
411 4th Avenue, Suite 300
Fairbanks AK 99701
By: /s/

Julie M. Gauthier

227a

APPENDIX I
Gregory S. Fisher, ABA 9111084
DAVIS WRIGHT TREMAINE LLP
188 West Northern Lights Blvd., Suite 1100
Anchorage, AK 99503
Phone: (907) 257-5300
gregoryfisher@dwt.com
IN THE SUPREME COURT FOR
THE STATE OF ALASKA
ALAINA ADKINS and MAXIM
HEALTHCARE SERVICES,
Appellants-Defendants,
vs.
JESSE MICHAEL COLLENS,
Appellee-Plaintiff.
Supreme Court No. S-16930
APPELLANT-DEFENDANT MAXIM
HEALTHCARE SERVICES, INC.'S
PETITION FOR REHEARING
ALASKA R. APP. P. 506(A)(1)&(2)
Maxim Healthcare Services, Inc., through
undersigned counsel, respectfully files this Petition for
228a

Rehearing in accordance with Alaska Rule of Appellate
Procedure 506(a)(1)&(2). In affirming the Unfair Trade
Practices Act ("UTPA") claim, Maxim respectfully
submits the Court overlooked, failed to consider, or
misconceived material facts or propositions of law (as
discussed below).
1.

The Court overlooked 7 AAC
12.531(a) and interpretative canons

The Court interpreted the governing regulatory
scheme as only requiring policies be established.
Maxim respectfully submits the Court overlooked or
failed to consider that 7 AAC 12.531(a) expressly
mandates home health agencies not just establish, but
also implement policies. "Implement" is defined as
giving "practical effect to and ensure of actual
fulfillment by concrete measures."1
"Administrative regulations which are
legislative in character are interpreted using the same
principles applicable to statutes."2 In interpreting a
statute or regulation, effect must be given to an words
so that provisions are not rendered void, superfluous,
or meaningless.3 Constructions that render a provision
1

Webster's Ninth New Collegiate Dictionary at 604 (1987)
(emphasis added). "Implement" is also understood as to compel
observance of or to carry out the functions or requirements of. See
Roget's New Thesaurus at 487 (Houghton Mifflin 1980).
2

State, Dep't of Highways v. Green, 586 P.2d 595, 603 n.24
(Alaska 1978).
3

Alascom, Inc. v. North Slope Borough, Bd. of
Equalization, 659 P.2d 1175, 1178 n.5 (Alaska 1983) (quoting 2A

229a

meaningless are disfavored.4 Statutes and regulations
should be given a reasonable and practical
interpretation in accord with common sense.5
7 AAC 12.531(a) mandates home health
agencies implement the policies they establish. 7 AAC
12.531 (b)(2) mandates home health agencies establish
policies for discharge and continuing care. 7 AAC
12.534(b)(4)(B) mandates patients be provided
information about any changes in care. 7 AAC
12.534(b)(10) mandates patients be informed about the
reasons for discharge or change in care.
7 AAC 12.600(f) mandates compliance with
7AAC 12.500-.590, which includes 7 AAC 12.531(a), 7
AAC 12.531(b) and 7 AAC 12.534(b)(4)&(10). 7 AAC
12.620(a) provides for inspections and specifics
penalties for failing to comply.
The Court should "interpret a statute according
to reason, practicality, and common sense, taking into
consideration the plain language and purpose of the
law as well as the intent of the drafters."6 Statutes and
regulations should be interpreted to give effect to their
C. Sands, Statutes & Statutory Construction § 46.06 (4th ed.
1973)).
4

Rollins v. State, Dep't of Revenue, Alcoholic Beverage
Control Bd., 991 P.2d 202, 208 (Alaska 1999).
5

O'Callaghan v. State of Alaska, 826 P.2d 1132, 1136
(Alaska 1992).
6

Monzulla v. Voorhees Concrete Cutting, 254 P.3d 341, 345
(Alaska 2011).

230a

purpose.7 The purpose for the governing regulatory
scheme, as addressed by its legislative authority, is "to
promote safe and appropriate services by setting
standards for licensure that will reduce predictable
risk; improve quality of care; foster individual and
patient rights; and otherwise advance public health,
safety, and welfare." AS 47.32.010(a). Consistent with
this statutory grant, 7 AAC 12.534(a) mandates that
home health agencies protect and promote the rights
of patients.
Giving effect to "implement"-to ensure of actual
fulfillment by concrete measures-and the purpose for
the regulations, the regulations prohibit discharging
patients in violation of policies, prohibit misinforming
patients regarding the reasons for discharge or change
in level of care, and provide for inspections with
penalties to ensure compliance.8 The UTPA claim is
exempt.
2.

7 AAC 12.534(b)(4)&(10) are not
ambiguous when the regulatory
scheme is construed as a whole in
light of its purpose

In interpreting 7 AAC 12.534(b)(4) &(10) as
ambiguous, Maxim respectfully submits the Court
overlooked established canons, the definitions of
7

Beck v. State, Dep't of Transp. and Public Facilities, 837
P.2d 105, 117 (Alaska 1992).
8

See Opening Brief at 15-19 (for discussion with citation
to authorities); Reply Brief at 6-10 (for discussion with citation to
authorities).

231a

"implement" and "inform," and 7 AAC 12.534(a).
"[W]ords are necessarily inexact and ambiguity is a
relative concept"9 The Court "rel[ies] on a sliding scale
approach even if the a statute is plainly worded."10 The
"sliding scale" approach examines legislative intent by
reviewing the words of the statute and extrinsic
evidence.11 The purpose for a law is clear evidence of
intent (perhaps, in fact, the best evidence of intent).12
7 AAC 12.534(a) mandates that home health
agencies protect and promote the rights of patients. 7
AAC 12.534(b)(10) mandates that patients "be
informed of the reason for impending discharge ... [or]
change in the level of care .... " "Inform" is defined in
part as "to impart knowledge, especially of facts."13
The State could only have meant ''to be
informed" as meaning to be provided accurate and
correct information. No other interpretation comports
with the canons noted above, and no other
interpretation would be designed ''to protect and
promote the rights of patients." 7 AAC 12.534(a). If the
goal or purpose is to protect and promote the rights of
patients, the State could not have meant "to be
9

Federal Deposit Ins. Corp. v. Laidlaw Transit, Inc., 21
P.3d 344, 351 (Alaska 2001).
10

Romann v. State, Dep't of Transp. and Public Facilities,
991 P.2d 186, 190-91 (Alaska 1999).
11

University of Alaska v. Geistauts, 666 P.2d 424,428 n.5
(Alaska 1983).
12

See Beck, 837 P.2d at 117.

13

See Webster's, supra, at 620.

232a

informed" to mean receiving false, inaccurate, or
misleading reasons for discharge. Regulations should
be interpreted to give effect to their purpose, and to
avoid absurd results.14 The regulations prohibit
misinforming patients regarding the reasons for
discharge or change in level of care. The UTP A claim
is exempt.
3.

The Court overlooked or failed to
consider material facts and
propositions of law bearing upon the
State's enforcement of the
regulations

The Court also concluded there was no evidence
the State actually enforced the regulations,
overlooking or failing to consider established canons.
Administrative agencies are entitled to a presumption
that they follow their own relevant regulations.15
Maxim respectfully submits the Court also overlooked
or failed to consider the fact that Collens and his care
coordinator Denise Shelton contacted the State, and
the State actually was initiating action (requesting
Maxim's policies) before Collens was reinstated under
a new Plan of Care in July 2012. [Exc. 297 ¶¶ 64-65,
68 at 34-35; TR 929-32, 949-51, 1354-55] [Appendix].
The Court's exemption analysis applies a two-part test:
(1) the business is regulated; and (2) the allegedly
unfair acts and practices are prohibited by that
14

Beck, 837 P.2d at 117; Sherbahn v. Kerkove, 987 P.2d
195, 201 (Alaska 1999).
15

See Kohli v. Gonzales, 473 F.3d 1061, 1068 (9th Cir.

2007).

233a

regulation. State v. O'Neill Investigations, Inc., 609
P.2d 520, 528 (Alaska 1980). These elements were
established here. Maxim respectfully prays the Court
grant this petition for rehearing, and reverse with
instructions to vacate the UTP A claim.
DATED this 22nd day of July, 2019.
Davis Wright Tremaine LLP
Attorneys for Appellants-Defendants, Alaina
Adkins and Maxim Healthcare Services
By: /s/
Gregory S. Fisher, ABA 9111084

Certificate of Service
The undersigned hereby certifies that on the 22nd day
of July 2019, I caused a true and correct copy of the
foregoing to be served on the following via U.S. Mail
(with a courtesy copy emailed to all recipients):
Michael T. Stehle, Esq.
Law Office of Michael Stehle, PC
1200 R. Street, Suite B
Anchorage, AK 99501
Attorney for Appellee-Plaintiff
Susan Orlansky
Reeves Amodio LLC
500 L Street, Suite 300
234a

Anchorage AK 99501
Attorney for Appellee-Plaintiff
Jeffrey M. Feldman
Summit Law Group
315 5th A venue South, # 1000
Seattle WA 98104
Attorney for Appellee-Plaintiff
John J. Tiemessen
Clapp Peterson Tiemessen
Thorsness & Johnson
411 4th Avenue, Suite 300
Fairbanks AK 99701
Attorney for Amicus Curiae
Alaska Dental Association
Roger F. Holmes
Biss & Holmes
3948 Clay Products Drive
Anchorage AK 99517
Attorney for Amicus Curiae
Alaska Medical Association

235a

APPENDIX J
U.S. Constitution, Fourteenth Amendment, Due
Process clause
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.

Sec. 09.17.010. Noneconomic damages.
(a) In an action to recover damages for personal injury
or wrongful death, all damage claims for noneconomic
losses shall be limited to compensation for pain,
suffering, inconvenience, physical impairment,
disfigurement, loss of enjoyment of life, loss of
consortium, and other nonpecuniary damage.
(b) Except as provided under (c) of this section, the
damages awarded by a court or a jury under (a) of this
section for all claims, including a loss of consortium
claim, arising out of a single injury or death may not
exceed $400,000 or the injured person's life expectancy
in years multiplied by $8,000, whichever is greater.
236a

(c) In an action for personal injury, the damages
awarded by a court or jury that are described under (b)
of this section may not exceed $1,000,000 or the
person's life expectancy in years multiplied by $25,000,
whichever is greater, when the damages are awarded
for severe permanent physical impairment or severe
disfigurement.
(d) Multiple injuries sustained by one person as a
result of a single incident shall be treated as a single
injury for purposes of this section.

Sec. 09.17.020. Punitive damages.
(f) Except as provided in (g) and (h) of this section, an
award of punitive damages may not exceed the greater
of
(1) three times the amount of compensatory
damages awarded to the plaintiff in the action; or
(2) the sum of $500,000.
(g) Except as provided in (h) of this section, if the fact
finder determines that the conduct proven under (b) of
this section was motivated by financial gain and the
adverse consequences of the conduct were actually
known by the defendant or the person responsible for
making policy decisions on behalf of the defendant, it
may award an amount of punitive damages not to
exceed the greatest of
237a

(1) four times the amount of compensatory
damages awarded to the plaintiff in the action;
(2) four times the aggregate amount of financial
gain that the defendant received as a result of the
defendant's misconduct; or
(3) the sum of $7,000,000.

Sec. 45.50.531. Private and class actions.
(a) A person who suffers an ascertainable loss of
money or property as a result of another person's act
or practice declared unlawful by AS 45.50.471 may
bring a civil action to recover for each unlawful act or
practice three times the actual damages or $500,
whichever is greater. The court may provide other
relief it considers necessary and proper. Nothing in
this subsection prevents a person who brings an action
under this subsection from pursuing other remedies
available under other law, including common law.

Sec. 47.32.140. Violations, compliance, and
enforcement.
(d) The department may take one or more of the
following enforcement actions under this section:
(1) delivery of a warning notice to the licensed
238a

entity and to any additional person who was the
subject of the investigation or inspection;
(2) modification of the term or scope of the
entity's existing license, including changing a biennial
license to a provisional license or adding a condition to
the license;
(3) suspension of the entity's operations for a
period of time set by the department;
(4) suspension of or a ban on the entity's
provision of services to individuals not already
receiving services from the entity for a period of time
set by the department;
(5) nonrenewal of the entity's license;
(6) revocation of the entity's license or, if the
entity is not licensed under this chapter, revocation of
the entity's ability to become licensed under this
chapter;
(7) issuance of an order requiring closure,
immediate or otherwise, of the entity regardless of
whether the entity is licensed or unlicensed;
(8) denial of payments under AS 47.07 for the
entity's provision of services to an individual not
already receiving services from the entity;
(9) assumption of either temporary or
permanent management of the entity or pursuit of a
239a

court-ordered receiver for the entity;
(10) reduction of the number of individuals
receiving services from the entity under the license;
law;

(11) imposition of a penalty authorized under

(12) inclusion in a civil history database
identified under AS 47.05.330.

7 AAC 12.531. Agency policies and procedures
(a) A home health agency shall establish, implement,
and make available to all personnel, written policies
and procedures appropriate to the services offered by
the agency. These policies and procedures must be
reviewed at least annually and revised as necessary.

7 AAC 12.620. Enforcement actions; informal
reconsideration of findings
(a) The department will inspect each facility and
conduct investigations as provided in AS 47.32, 7 AAC
10.9600 - 7 AAC 10.9620, and this chapter. (b) Except
for enforcement actions under AS 47.32.130, the
department will, before delivering a report under AS
47.32.120 and if requested by the facility, meet
informally with representatives of the facility to
240a

discuss the department's findings and any proposed
enforcement action. An informal meeting under this
subsection does not affect any rights under AS 47.32.

241a

